<html>
<title> - DEPARTMENT OF TRANSPORTATION AND RELATED AGENCIES APPROPRIATIONS FOR 2003</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



                    DEPARTMENT OF TRANSPORTATION AND

                    RELATED AGENCIES APPROPRIATIONS

                                FOR 2003

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS
                             SECOND SESSION
                                ________
 SUBCOMMITTEE ON THE DEPARTMENT OF TRANSPORTATION AND RELATED AGENCIES 
                             APPROPRIATIONS
                    HAROLD ROGERS, Kentucky, Chairman
 FRANK R. WOLF, Virginia             MARTIN OLAV SABO, Minnesota
 TOM DeLAY, Texas                    JOHN W. OLVER, Massachusetts
 SONNY CALLAHAN, Alabama             ED PASTOR, Arizona
 TODD TIAHRT, Kansas                 CAROLYN C. KILPATRICK, Michigan
 ROBERT B. ADERHOLT, Alabama         JOSE E. SERRANO, New York
 KAY GRANGER, Texas                  JAMES E. CLYBURN, South Carolina
 JO ANN EMERSON, Missouri
 JOHN E. SWEENEY, New York          
                         
 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
  Richard E. Efford, Stephanie K. Gupta, Cheryle R. Tucker, and Leigha 
                      M. Shaw, Subcommittee Staff
                                ________
                                 PART 6
                                                                   Page

   DEPARTMENT OF TRANSPORTATION:

       Federal Aviation Administration............................    1
       National Transportation Safety Board.......................  429

                              <snowflake>

                                ________
         Printed for the use of the Committee on Appropriations
                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 81-113                     WASHINGTON : 2002




                       COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                  DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California             JOHN P. MURTHA, Pennsylvania
 HAROLD ROGERS, Kentucky             NORMAN D. DICKS, Washington
 JOE SKEEN, New Mexico               MARTIN OLAV SABO, Minnesota
 FRANK R. WOLF, Virginia             STENY H. HOYER, Maryland
 TOM DeLAY, Texas                    ALAN B. MOLLOHAN, West Virginia
 JIM KOLBE, Arizona                  MARCY KAPTUR, Ohio
 SONNY CALLAHAN, Alabama             NANCY PELOSI, California
 JAMES T. WALSH, New York            PETER J. VISCLOSKY, Indiana
 CHARLES H. TAYLOR, North Carolina   NITA M. LOWEY, New York
 DAVID L. HOBSON, Ohio               JOSE E. SERRANO, New York
 ERNEST J. ISTOOK, Jr., Oklahoma     ROSA L. DeLAURO, Connecticut
 HENRY BONILLA, Texas                JAMES P. MORAN, Virginia
 JOE KNOLLENBERG, Michigan           JOHN W. OLVER, Massachusetts
 DAN MILLER, Florida                 ED PASTOR, Arizona
 JACK KINGSTON, Georgia              CARRIE P. MEEK, Florida
 RODNEY P. FRELINGHUYSEN, New Jersey DAVID E. PRICE, North Carolina
 ROGER F. WICKER, Mississippi        CHET EDWARDS, Texas
 GEORGE R. NETHERCUTT, Jr.,          ROBERT E. ``BUD'' CRAMER, Jr., 
Washington                           Alabama
 RANDY ``DUKE'' CUNNINGHAM,          PATRICK J. KENNEDY, Rhode Island
California                           JAMES E. CLYBURN, South Carolina
 TODD TIAHRT, Kansas                 MAURICE D. HINCHEY, New York
 ZACH WAMP, Tennessee                LUCILLE ROYBAL-ALLARD, California
 TOM LATHAM, Iowa                    SAM FARR, California
 ANNE M. NORTHUP, Kentucky           JESSE L. JACKSON, Jr., Illinois
 ROBERT B. ADERHOLT, Alabama         CAROLYN C. KILPATRICK, Michigan
 JO ANN EMERSON, Missouri            ALLEN BOYD, Florida
 JOHN E. SUNUNU, New Hampshire       CHAKA FATTAH, Pennsylvania
 KAY GRANGER, Texas                  STEVEN R. ROTHMAN, New Jersey    
 JOHN E. PETERSON, Pennsylvania
 JOHN T. DOOLITTLE, California
 RAY LaHOOD, Illinois
 JOHN E. SWEENEY, New York
 DAVID VITTER, Louisiana
 DON SHERWOOD, Pennsylvania
   
 VIRGIL H. GOODE, Jr., Virginia     
                                    
                 James W. Dyer, Clerk and Staff Director

                                  (ii)

 
 DEPARTMENT OF TRANSPORTATION AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2003

                              ----------                              

                                         Wednesday, March 13, 2002.

                    FEDERAL AVIATION ADMINISTRATION

                               WITNESSES

JANE F. GARVEY, ADMINISTRATOR, FEDERAL AVIATION ADMINISTRATION
KENNETH M. MEAD, INSPECTOR GENERAL, DEPARTMENT OF TRANSPORTATION

                            Opening Remarks

    Mr. Rogers. Good morning. The subcommittee will be in 
order.
    This morning we will receive testimony on the fiscal 2003 
budget request of the Federal Aviation Administration, which 
totals $14 billion, a decrease of $226 million, a one percent 
decrease below 2002.
    However, when you consider the transfer of aviation 
security responsibilities to the Transportation Security 
Administration, the proposed funding for FAA capital programs 
and the Airport Improvement Program is flat in 2003, and 
operating programs receive a five percent increase. The request 
meets the guaranteed spending levels specified in AIR-21 and 
fully funds existing labor agreements.
    FAA continues to face daunting challenges. It has a large 
workforce with field offices and responsibilities around the 
globe. Even with an increasing budget over the past few years, 
the agency has faced challenges in implementing personnel 
reform, satisfying an increasingly unionized workforce and 
modernizing the air traffic control system.
    The agency continues to make progress on its performance 
management and cost accounting systems, which will be critical 
in helping them identify areas of waste and unnecessary 
spending.
    One area I hope we highlight today is a troubling problem 
with the airport and airway trust fund. The AIR-21 
authorization bill established the principle of linking 
spending levels to annual trust fund revenues, but, unlike in 
the highway area, AIR-21 made a second mistake. It assigned to 
FAA's operating budget the lowest possible priority for 
funding.
    Pursuant to AIR-21, after FAA's capital programs and the 
AIP grant program are fully funded, then we can take what is 
left over of the revenues and use them to finance the operating 
budget. The only trouble is, the drop in air travel since 
September 11 is drying up trust fund revenues. Under current 
estimates, the trust fund will have about $20 billion less over 
the next five years, less than is needed to just keep the FAA 
at a steady state in funding.
    At this time last year, the revenues were estimated to 
match that funding level exactly, so we not only have a problem 
in highway funding due to automatic spending. We have a problem 
in aviation. Today, I want to begin exploring ways the FAA can 
economize over the coming years to match the new reality of the 
trust fund.
    Unless the reauthorization bill next year gives us more 
flexibility, I am afraid a lot of cutting will be going on at 
the FAA over the next few years. We would like to avoid that. 
In case that does not happen, we may need to put some 
initiatives in place this year. We will need some creative 
thinking on your part and some help from the authorizing 
committees next year to avoid a major problem.

                       Introduction of Witnesses

    We want to welcome before the subcommittee Jane Garvey, the 
Administrator of the FAA, and Ken Mead, the Inspector General 
of DOT. This may be Mrs. Garvey's last appearance before this 
subcommittee, as her five-year fixed term expires in just a few 
months. We have to say that she has done an excellent job in a 
difficult agency, spanning two administrations and half a 
decade.
    When Congress created this fixed term in 1996, it was with 
the hope that we could find administrators who would serve out 
the term and stop the rapid turnover which plagued the position 
and made it difficult to affect real change. Of course, you 
cannot make someone remain in a position, so we should all give 
Jane Garvey accolades for staying the course in what is without 
question one of the toughest jobs in Washington, or the world 
for that matter.
    Jane Garvey, we thank you for your great service to your 
country. This has been a tough, tough chore made more difficult 
obviously in the last six months. You have handled it with 
aplomb and with, I think, success. I think the nation will 
always remember especially the decisions that you and the 
Secretary made to bring all planes down after the New York and 
Washington and Pennsylvania crashes and, in most people's 
judgment, prevented further disaster. We want to thank you for 
your great service, and it is good to have our friend and 
advisor, the Inspector General, with us here as well today.
    We will make both of your entire written statements a part 
of the record without objection, and we will look forward to 
hearing the summaries of your testimony in a few minutes, but I 
want to first yield to the gentleman from Minnesota, Mr. Sabo.

                      Opening Remarks of Mr. Sabo

    Mr. Sabo. Thank you, Mr. Chairman. Let me also welcome Ms. 
Garvey and Mr. Mead to the committee again. I join the 
Chairman, Ms. Garvey, in saying thank you for a job well done. 
It has been a pleasure working with you, and we look forward to 
continuing that for the next several months and wish you well 
in the future.
    In many ways, September 11 seems like ages ago rather than 
six months. I would join the Chair in thanking you and your 
agency for the job you did that day and in the aftermath. When 
one thinks back, our air traffic control system capacity to 
respond that quickly that day actually I think says a great 
deal about your leadership and also about the ability of the 
people who work for us in your agency. We thank you. It was a 
job well done.

                  Opening Remarks of FAA Administrator

    Mr. Rogers. Now you are invited to summarize your 
testimony. First, Jane Garvey and then Mr. Mead.
    Ms. Garvey. Thank you very much, Mr. Chairman, Congressman 
Sabo and Members of the subcommittee. Certainly I welcome the 
opportunity to be here this morning to present the FAA's budget 
for 2003. First of all, let me say that I do appreciate the 
kind words expressed by you, Mr. Chairman and Mr. Sabo, this 
morning. Even more, I want to say that I have appreciated the 
very strong support extended to me and to the agency over the 
last five years. I know with great certainty that many of the 
successes that we have had from a smooth transition to the 
millennium, to modernizing and upgrading the air traffic 
control systems, to the improvements we have made in the air 
safety arena, are due in large part to the leadership provided 
by you, Mr. Chairman, and by this committee. I am enormously 
and deeply grateful for that.

                             FAA PRIORITIES

    This is, I believe, the last budget I will present to you. 
What I would like to do is just very briefly mention four areas 
that I want to stay very focused on for the next several months 
and four areas that I think are real priorities for the 
President in his budget.

                                SECURITY

    Since the tragic events of September 11, our focus, and 
rightly so, has been to restore the security of the national 
airspace transportation system. We have been working very, very 
closely with Secretary Mineta, with Deputy Secretary Jackson 
and Under Secretary John Magaw to insure a smooth transition to 
the new Transportation Security Administration, and that will 
continue to be a very high priority for us. I know it is for 
the Inspector General as well. While we recognize that, we must 
view everything that we do through the prism of September 11. 
We also know that it is very, very important not to lose sight, 
not to lose that sense of urgency on other critical initiatives 
that affect aviation.
    Yesterday, for example, the FAA released its annual 
forecast for civil air traffic. While the forecasts 
understandably reflect a downward trend in air travel, they 
also show that demand will return, growth will be back within 
the next 12 to 18 months timeframe, and, in fact, we are even 
seeing signs of increases in travel at some of the critical 
hubs as early as this summer, so we certainly want to be ready 
when traffic returns to full strength.

                       OPERATIONAL EVOLUTION PLAN

    The President's budget request reflects a strong commitment 
to the safety and efficiency programs within the FAA. It calls 
for a continuation of the operation evolution plan, which, as 
the committee remembers, is a ten year joint commitment by 
industry, by the FAA and by the airports to increase capacity 
by 30 percent.
    We are already seeing benefits. This committee challenged 
us last year, I thought quite effectively, on some of the 
capacity and delay challenges we were facing. With that in 
mind, we focused on seven choke points in the system. We opened 
up ten sectors last year. We will have another four open by 
this June. What we have seen is that arrival and departure 
rates have been reduced by 20 to 27 percent. I want to point 
out that was true even during the summer months, even before 
September 11.
    We opened a new runway in Detroit on time as we promised to 
this committee last year, increasing capacity at that airport 
by about 20 percent. We have accelerated some of our free 
flight tools, URET in particular, user request evaluation tool, 
which is an automation tool that the controllers use that 
allows for much more direct routing. That saves time, it saves 
fuel, and increases arrival capacities at airports. URET is 
part of our free flight program, a program that I am very 
pleased to say has consistently met every milestone and every 
deadline, so staying the course of the ops evolution plan is 
critical in my view.

                           RUNWAY INCURSIONS

    With respect to safety, the President's budget reflects a 
strong commitment to our safety programs. Again, safety must 
remain our highest priority. With the help of this committee, 
we are making progress in our runway safety program. The actual 
rate of runway incursions declined in 2001, and again this was 
true in the months even before September 11. If you look at the 
statistics from January to August, for example, we see a 
decrease of about five percent overall in runway incursions, 
but in the most critical categories, those A and B that present 
the greatest risk, we see a decrease that was even greater. We 
want to be clear in saying we are not declaring success by any 
means with runway incursions. We know there is a lot more that 
needs to be done. We know that we have to stay focused on that, 
but I do believe that we are seeing some positive signs, some 
positive trends.

                            SAFETY PROGRAMS

    In our Air Transportation Oversight System, ATOS, another 
very significant safety program for us, we have learned a great 
deal from the Inspector General's recommendations. He has 
worked long and hard with us on this program.
    I also want to add, though, we have learned a great deal 
from our inspectors themselves. Our inspectors told us that the 
training program was not working. It was not effective. It was 
not doing what we wanted it to do. Based on those 
recommendations from the inspectors, as well as the work that 
the Inspector General did, we have completely restructured our 
training program.
    As of today, we have about 92 percent of the 477 ATOS 
inspectors and data specialists that have been trained in the 
new system safety program. We expect the remaining of the ATOS 
inspectors to receive their training by the end of the year.
    The goal for ATOS is to retarget our resources where we see 
systemic problems. If you ask Nick Sabatini, who heads all of 
our safety programs, he will tell you that ATOS is doing what 
it is supposed to do. He can cite examples over the last 18 
months where we have found such systemic problems and have 
zeroed in on them.
    Again, more to be done, and we will continue to learn from 
our inspectors and continue to learn from the audits of the IG, 
but again I would say we are making great progress in this 
area. I give Nick Sabatini a lot of credit for that.

                             FAA MANAGEMENT

    Finally, Mr. Chairman, you and the Members of this 
committee have consistently expressed interest in the 
management of the FAA. You have challenged us to use more 
corporate tools to better manage our resources. I am very proud 
to report that the FAA received an unqualified clean audit on 
our financial statements for FY 2001. I have to say that was a 
call I really welcomed from the IG.
    We are continuing our initiatives to fully implement cost 
and performance accounting measures. Cost accounting is in 
place for all of our air traffic organization. We are able now 
to track costs for air traffic on a daily basis. Air traffic 
represents about 70 percent of our agency, so that is 
significant. We will have cost accounting fully implemented 
throughout the agency by the end of the year.
    We think it is an effective tool in understanding our costs 
and the very questions, Mr. Chairman, that you posed at the 
beginning of this hearing. We think cost accounting will be 
helpful in that regard. It has also proved enormously helpful 
in developing the metrics for our new air traffic control 
organization. We are eager to brief the staff during the Easter 
recess on the work we have done in that area. We have had some 
early discussions, but are eager to come back up and talk with 
you more about that.
    Four areas of focus for me in the last several months are 
the transition to the TSA, the ops evolution plan, the safety 
program, and the management improvements. In each of these 
areas we have made significant progress, but I absolutely 
understand that there is more that needs to be done. We still 
face some significant challenges.
    Let me just end by saying that while this is my last budget 
hearing I believe for the FAA, this has been an extraordinary 
challenge and responsibility for the last five years, but I 
would say for the most part it has been enormously satisfying. 
I am very grateful for the kind of relationship I have had with 
this committee, and I might also add enormously proud of the 
professional staff at the FAA. They perform I think with a 
great deal of dignity and with a great deal of expertise. I 
leave the agency with an even greater respect for the work that 
they do. It has been a real pleasure, and I look forward to the 
questions. Thank you, Mr. Chairman.
    [Statement of FAA Administrator follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                Opening Remarks of the Inspector General

    Mr. Rogers. We join you in praising the staff. We all know 
that sometimes we get credit for what our staff does. The staff 
is terribly important, and they do a wonderful job. Your staff 
has helped you look good, but you have done well on your own. 
Mr. Mead.

    Mr. Mead. Thank you, Mr. Chairman. I would like to begin 
just by seconding the remarks of the Members about Ms. Garvey. 
It is not easy, and I think the personal/professional 
relationship that we have speaks volumes about the type of 
person that Administrator Garvey is and her openness to new and 
different ways of doing things, as well as doing the job right. 
It will be hard to replicate Ms. Garvey in her successor.

                    UNANTICIPATED DOT FUNDING NEEDS

    I think this year you have to look at FAA's $14 billion 
budget in the context of the extraordinary demands that are 
being placed on it. Mr. Sabo at the last hearing mentioned he 
did not recall a time in the last quarter century practically 
when you had so many unanticipated demands. When I add them 
up--the cost for Amtrak, Coast Guard, the new Transportation 
Security Administration, highways, the problem there, and FAA--
we are talking about costs in the neighborhood of $12 billion 
to $16 billion that were not on the table just a few months 
ago. Ms. Garvey took most of the positive things I wanted to 
say about FAA this past year away.
    Ms. Garvey. You can repeat them.
    Mr. Mead. Yes. There is a value in redundancy, I suppose 
yes. I think there has been an enormous amount of progress with 
free flight and the operational evolution plan. I will not go 
into detail on that because I know that you are familiar with 
that firsthand.
    The areas I would like to cover are in the areas of safety, 
runway incursions, operational errors, the aviation inspection 
program, controlling costs more effectively throughout the 
agency, and I was glad to hear Ms. Garvey say that one of her 
top four items is going to be management improvement. I would 
put cost control in that.

                           RUNWAY INCURSIONS

    On the safety front, it is interesting. Runway incursions 
went down, and it looks like it was not just a post 9-11 
phenomenon. The most serious types of runway incursions are 
occurring about once every week, about 55 this past year. That 
is less than last year, but still too high because when we say 
those 55 are serious, we mean very serious. It is practically 
close to luck that we did not have a collision.

                           OPERATIONAL ERRORS

    Operational errors. These are ones that usually occur in 
the air. They are committed by air traffic controllers. A 
record high this past year. I should point out, though, that 
this past year FAA established more rigorous reporting 
requirements for the controllers. Part of the increase may be 
attributable to that. There are about one a week there, too. 
These are very close. As I said, it happens in mid air.

                          CONTROLLER-IN-CHARGE

    I would like to say a word about the controller in charge 
program. Last year, this committee directed FAA to stop 
reducing the number of air traffic control supervisors, due in 
part to the rising incursions and operational errors. Last 
year, FAA reduced the number of supervisors by about 115, but 
FAA's own study shows that at 19 of their 27 facilities 100 
percent of the air traffic controllers are going to be in 
charge, controllers in charge. These include large places, not 
just small facilities; places like Atlanta, Dallas-Fort Worth, 
Seattle, Oakland. I do not see why 100 percent need to be 
designated as in charge.

                      AVIATION INSPECTION PROGRAM

    We performed two audits this past year of FAA's inspection 
program and found in each case that there was substantial room 
for improvement. FAA responded positively to the reports. The 
areas we found most wanting were areas that have been 
problematic since 1986. They were the collection of data so 
that you can proactively deploy limited resources to the areas 
of highest risk and the training of the inspectors. The 
inspectors told us, about 70 percent of the inspectors told us, 
that they did not feel that they were getting enough training 
in this program, and over 80 percent of them said they were not 
getting the data. FAA is working on that and will stay on top 
of it.

                      AVIATION TRUST FUND REVENUES

    I would like to move to finance. The basic problem here is 
that there has been a big decline in airline revenues. That has 
cascaded over into the ticket tax. This is a phenomena that is 
not only post September 11. It was happening all last year.
    I have two charts for you, a blue and yellow chart. I would 
just like to go over that for a moment. Projected revenue from 
the aviation trust fund for 2003 has dropped from an estimated 
$13 billion--that is the tall blue bar--to about $10.3 billion. 
That is a drop of a substantial amount of money that we thought 
was going to be coming in under the ticket tax.
    Assuming there is no increase in taxes, this level of 
funding is going to have to come out of the general fund. It is 
not going to come out of the trust fund because you are not 
getting enough money. You were right in your opening remarks 
about how you characterized the law. The law says first Airport 
Improvement Program funds are covered by the trust, number two 
is the modernization program, Facilities and Equipment, and the 
rest is to be taken care of somehow some other way.
    That means in the case of Operations, which is the largest 
account, the general fund. As I pointed out in the beginning, 
this year most of that $12 billion to $16 billion extra is 
going to have to come from the general fund. It will not come 
from the trust fund.

                      AIRPORT IMPROVEMENT PROGRAM

    The Airport Improvement Program. It is a $3.4 billion 
program. By law, you have to outlay it. The major issue here is 
how much of the cost of the security improvements at airports 
is going to be covered by the Airport Improvement Program and 
Passenger Facility Charges. It is not going to be covered by 
the Transportation Security Agency.
    FAA some weeks ago put the price tag at somewhere between 
$2 billion and $2.5 billion. This is for the construction of 
terminals. Just yesterday I got briefed by Dallas-Fort Worth. I 
was very impressed with the briefing and the work they had done 
in analyzing the options. Mr. Chairman, they are estimating 
about $200 million for that project at Dallas-Fort Worth.
    Mr. Rogers. Let me interrupt you, and I hate to do that 
because I do not want to interrupt a thought, but we have a 
vote on the Floor in about two minutes, so we are going to 
declare a short recess while we cast votes.
    Be at ease.
    [Recess.]
    Mr. Rogers. The committee will be in order, and we will 
proceed. Mr. Mead, you were saying?
    Mr. Mead. Yes. I was expressing some views on each of the 
three accounts at FAA against this backdrop where the revenues 
coming in are not enough to cover the costs. As you can see for 
2003, which is the budget year you are deliberating on, FAA 
thought they were going to get $12.9 billion. That would mean 
that only $1 billion would have to be covered out of the 
general fund.
    Well, instead they are only going to get about $10 billion, 
and that is going to mean $3.7 billion. It gets taken out of 
the hide, though, of operations because the manner in which the 
law allocates the funds, you first send it to the airports, and 
the second is to the modernization or capital account.

                     USE OF AIP FOR SECURITY COSTS

    In the AIP, I was pointing out that a very significant 
issue for you is the security construction that many, many 
airports in the country, possibly close to 400, will have to do 
under the law principally for checked baggage. In the 
Transportation Security Act, Congress said that an airport 
could cover 100 percent of the security costs now, but that 
provision was only allowed to remain in effect for one year, so 
it will have to be renewed.
    In addition, airports were not planning on spending this 
kind of money for security. They were planning on spending it 
for capacity and safety and other projects like that. Just last 
night I got a briefing from Dallas-Fort Worth. I was very 
impressed with the analysis they had done of what was going to 
be required in the way of construction at Dallas-Fort Worth. It 
was close to $200 million.
    It is not clear where all that money is going to come from, 
but it is clear that the Transportation Security Administration 
Agency is not going to budget for those costs, so you are going 
to need fairly soon an indication from the Administration and 
FAA as to how much of the AIP and the Passenger Facility 
charges will go to cover these extraordinary costs.

               COST CONTROL MEASURES FOR CAPITAL PROJECTS

    I would like to move to the Facilities and Equipment 
account. That is the $3 billion one, the Wide Area Augmentation 
System or WAAS, which is an effort to move to satellite 
navigation systems, and STARS which is the new controller 
displays and computer equipment for terminals. Those two 
efforts have combined cost growth of over $2.7 billion and 
schedule slippage of up to five years.
    I think given the current budgetary environment, the time 
has come for FAA to pay a lot of attention to cost control 
measures. There are also two new billion dollar systems that 
are going to be on your plate in addition to the ones that are 
already there. One of them is replacing the software at enroute 
centers, and another is the Federal telecommunications. It is 
called the FTI system.
    I think there are a set of immediate steps that FAA can 
take, and I would just like to overview those for you, to 
better emphasize cost control. Last year, the committee 
directed FAA to make greater use of Defense Contract Audit 
Agency audits. These audits are done to make sure that 
contractors are getting paid what they ought to be paid and 
nothing more and that FAA gets what it says it is going to buy.

                      COST REIMBURSABLE CONTRACTS

    There were about $3 billion of cost reimbursable contracts 
during fiscal year 2001 that were let, and I do not think FAA 
has done a very good job of following through on the 
committee's direction. I hope to see that corrected.
    I would like to tell you what we found. We found that the 
management for these cost reimbursable contracts, and these are 
the most risky contracts of all because the contractors really 
have no incentive to control costs. They just get paid. We 
found that cost reimbursement contracts totaling $2 billion did 
not have the required cost incurred audits, which was the very 
issue that the agency was directed to do audits for this past 
year. We found 1,400 contracts totaling $6 billion that should 
have been closed three or more years ago, but were still open.
    We often found no evidence that the FAA checked to see if 
the contractor's own accounting system would even properly 
account for the amount that was being billed to the government. 
We found 21 contracts totaling $1 billion that did not have 
overhead rates adjusted each year, so you paid basically what 
the contractor claimed, and when we pulled a sample of 54 
contracts we could not even find the contract files on 22 of 
them after searching for five or six months.
    I think that ought to change. I know we just received a 
response to our report on these sets of findings, and I know 
Administrator Garvey is committed to the change, but a change 
of this type is going to have to reach way down inside that 
organization, but there are a lot of savings here if we were to 
commit to doing this.

                     PERFORMANCE BASED ORGANIZATION

    Second, FAA is moving to a performance based organization. 
Just two weeks ago I was briefed on the metrics that FAA has 
developed. I have to say I was very impressed. They were 
outcome based, but there were not any metrics for these 
modernization projects, the ones that are experiencing cost 
overruns and schedule slippages. I think that metrics ought to 
be included in that area as well. That way you can keep your 
managers accountable. If it has sunshine put on it I think it 
gets watched, and people pay attention to it.

                 WIDE AREA AUGUMENTATION SYSTEM (WAAS)

    Third, I think FAA needs to make some hard decisions on the 
WAAS program and the STARS program. These are both multi-
billion dollar programs. The WAAS program FAA has made a 
decision on. I think it is reported, assuming the paper is 
right this morning, the idea of moving to Category 1 precision 
landing, which would be very costly and time consuming. I think 
FAA is going to just deploy what they have now, and that should 
save a lot of money.

        STANDARD TERMINAL AUTOMATION REPLACEMENT SYSTEM (STARS)

    On STARS, that has slipped. That has had a lot of slippage. 
It was supposed to be done in 2005. Then it slipped to 2008, 
and now it has slipped, the end completion date, to 2010. A lot 
of places in the country are going to be saying what are you 
going to do for us as a contingency in the meantime? I think 
that is an area that FAA has to deal with.

                           OPERATIONS ACCOUNT

    Operations account. The shortfall in revenue of $3.7 
billion, as we discussed, is going to be felt in that 
Operations account, which is going to have to come from the 
general fund. About 70 to 75 percent of that account is payroll 
costs. They have increased from $5.3 billion in 1998 to $7.5 
billion in 2003. That is an increase of about 40 percent.

                             NATCA CONTRACT

    The controller agreement was a significant driver in that 
regard. You should know that that controller agreement is up 
for renegotiation I believe this next year. This is a time that 
the committee could lay out its expectations in that regard.

                        FLIGHT SERVICE STATIONS

    There are also some opportunities, Mr. Chairman, to save 
other money. I know these are controversial. FAA could save 
$500 million over seven years by consolidating automated flight 
service stations, and the contract tower program could be 
expanded to 71 additional towers where they have visual flight 
rules only. You would save another $50 million to $55 million 
there, too. I recognize, though, that you have to make your own 
judgments about those programs, and that is somewhat 
controversial.

                              COST CONTROL

    I would like to close just by saying how important it is 
that we have some cost control at FAA or that we move out 
vigorously there because when you look at the price of an 
airline ticket now a lot of the price is taxes. Take a ticket 
between $150 and $300. You could pay anywhere from $31 to $50 
in taxes and various fees right now. I do not think this is the 
time where you want to raise taxes when you are trying to get 
so many people back in the air and flying.
    I think there are plenty of opportunities for FAA to be 
more cost effective and that the committee should look to 
those. Thank you.
    [The statement of the Inspector General can be found on 
page 389.]

                         COST CONTROL MEASURES

    Mr. Rogers. Thank you, Mr. Mead.
    Let me open up by asking about the threat of this lower 
funding that the drying up of the trust fund is causing. 
Specifically, FAA had previously estimated trust fund revenues 
over the 2002-2007 time period at $85 billion. That estimate 
now, as Mr. Mead has pointed out, has been reduced to $67.9 
billion, which is a 20 percent drop, $17.1 billion, over that 
frame of time. Even maintaining FAA at a no growth budget for 
those years would cost $87 billion, and even that would be 
difficult to support over a five year time period.
    We are heading into a huge problem, and it is going to 
require that there be some enormous cost control measures. We 
have talked about this some in your statements, but can we 
focus on, Ms. Garvey, the cost control measures that even you 
suggested last year? Mr. Mead and others have talked about cost 
control measures. I know you touched on this in your testimony. 
Could we capsulize that some, the cost control measures, what 
you are doing and what you anticipate?
    Ms. Garvey. Right. Well, let me at least begin. Certainly 
as I indicated in my statement, I think cost accounting is a 
great tool to really examine our budget in a way that we never 
could before with a great deal more fidelity.
    We can look at costs, for example, from facility to 
facility, and I think we are beginning to make some very strong 
management choices based on what we are seeing. We can actually 
drill down at the facility level to see why costs may be more 
in one region than they are in another. That is certainly one 
cost control measure and I think one that is very, very 
helpful.
    Mr. Mead spoke about a couple of contracts that we have 
coming up, FTI, for example, and building incentives into those 
contracts, which, by the way has been successful. We have been 
successful with Raytheon in the contract we have with them now 
when we build the incentives in to encourage contractors to get 
finished sooner. I think that is another cost control measure. 
Looking and analyzing both direct and indirect costs that we 
incur at the FAA is something else.
    In addition, we are working with the Secretary's office. I 
know as Mr. Mead pointed out, this is an issue really across 
the Department and not just for the FAA. Every one of the 
agencies is facing the same challenges, so we are working with 
the Secretary's office to come up with a series of initiatives 
that we can present to OMB in June. We mentioned yesterday to 
staff that coming up and talking with you all about those 
proposals is something that we would like to do.
    I think the critical element of having cost accounting so 
we can really track our costs with a great deal more fidelity 
than we have in the past is going to be enormously helpful. Mr. 
Mead also talked about the auditing work. The suggestion he 
made is one we are taking very seriously.
    Mr. Rogers. Mr. Mead, last year, and I am quoting from page 
688 of last years hearing record. What you said last year about 
FAA's cost control program was ``Based on FAA's track record of 
controlling operating costs over the past three years, we would 
have to give the agency a D to a D-. Since implementing the new 
pay system for controllers in 1999, FAA's operations budget has 
increased nearly 18 percent, more than double the rate of 
inflation.'' Do you see any improvement on that this year?
    Mr. Mead. Actually, I think the FAA has made an enormous 
amount of progress this year on this cost accounting system, 
which was a way that you would be able to track the claimed 
productivity gains of the controllers. When they entered into 
that controller agreement, there were to be productivity gains. 
FAA has had enormous difficulty trying to quantify them or 
demonstrate that they actually occurred. The cost accounting 
system will help. I should point out, though, there is one 
feature of this cost accounting system that I think they should 
change. When the controllers are keeping track of their time, 
this system, for reasons that are not entirely clear to me, has 
a feature built into it where if you do not like the actual 
time when you check in you can change it. You override it. They 
do not retain a permanent record or archive it so we can go in 
and audit it.

                         COST ACCOUNTING SYSTEM

    If somebody comes in at 10:00 and they are supposed to be 
there at 8:00, the system can be changed so it records 8:00 
instead of 10:00. There is no record for us to go back and 
audit. I think that ought to be changed. We spent all this 
money on the cost accounting system, and I think FAA, as I 
said, has made a lot of progress, but this one feature bothers 
me.
    Mr. Rogers. What do you think, Ms. Garvey?
    Ms. Garvey. First of all, Mr. Chairman, we are exploring 
the options for an element to be built into the software where 
you can actually track the time and do exactly what Mr. Mead is 
suggesting.
    I do want to add, though, there is an issue about 
flexibility that we want to give to the supervisors. I will 
give one example because I actually happened to be at a 
facility when this occurred. A thunderstorm over the facility, 
people working really, really hard for an intense period of 
time for about an hour, 30 minutes away from, going home. 
Actually, maybe it was 45 minutes. The supervisor said look, 
you have done above and beyond. I would like to let you go home 
a little bit early. We want to be able to certainly record the 
time, but also give the supervisor some flexibility,
    We have the fix that Mr. Mead is talking about. We also 
want to give our supervisors some flexibility to make some of 
those management decisions. We have been in pretty close 
discussion with both the IG and with our unions about this 
issue. We do have a fix, and flexibility is I think part of the 
key.
    Mr. Mead. Yes. I would also like to say that apart from the 
cost accounting system, this is a real good opportunity for the 
Congress to say these are our expectations for the next 
controller agreement. These are the markers that we expect to 
be met. People are put on notice of what the basic expectations 
are. Do you expect, for example, this agreement to be cost 
neutral? If you do, now is the time probably to recommend that, 
sir.
    Mr. Rogers. Well, let me just say this about upcoming 
negotiations for a new contract, or interpretations of the 
present contract. There is an old maxim of law that fraud will 
not be tolerated----
    Ms. Garvey. Absolutely.
    Mr. Rogers [continuing]. In the spending of taxpayers' 
dollars. If there is fraud being perpetrated presently or 
anticipated, we want to know about that.
    Ms. Garvey. You bet.
    Mr. Rogers. We will take care of that problem.
    Ms. Garvey. Right.
    Mr. Rogers. As I understand it, FAA's approach requires the 
supervisor to initial any time sheet where the actual time 
logged in or out was different from the computer time. Is that 
correct?
    Ms. Garvey. That is correct, Mr. Chairman. That is what we 
are proposing.
    Mr. Rogers. The controllers serve as their own supervisors 
in 70 percent of air traffic facilities. It is the same person. 
How do we fix that?
    Ms. Garvey. Well, do you know what? This is one probably 
where Ken and I have had as much discussion as probably 
anything else. The controller in charge program, in my view, is 
really a successful program. We talk about even cost savings. 
We have been able to save about $21 million, which I think is 
significant. What we have done is give training to the 
controller in charge or the people who are the controller in 
charge. As you have indicated, and I think we talked a little 
about this yesterday, we had language in the budget, or the 
Chairman and the committee included language, to go back to the 
supervisors, to go back to the level that we were at least 
year. We are doing that.
    Having said that, I still think that the kind of training 
we are giving to the controllers is really critical. I think in 
those cases when they are acting as supervisors they are doing 
it appropriately.
    Mr. Rogers. The problem is, as I say, we are asking the 
supervisors to police the time sheets, but 70 percent of the 
time that supervisor is the person who is doing the time 
sheets. In that case there is no check, is there?
    Ms. Garvey. I will tell you, I think they are pretty good 
about that. I want to go back to one thing you said, though. If 
you are talking about somebody who is abusing the system, and 
clearly no one should be tolerating that. We would not tolerate 
that, and I know the managers would not tolerate that. I think 
what Mr. Mead has suggested, at least as I have understood it, 
is not so much fraud, but are we really keeping track 
accurately enough so that we can reflect the amount of time 
people are actually performing the controller functions. We 
have built that into the software.
    Mr. Rogers. Do you have a thought?
    Mr. Mead. I want an audit trial.
    Ms. Garvey. Right. That is exactly right.
    Mr. Mead. I would have to get back to you because my 
information was that there was not an audit trial. After a 
period of time, that just disappears from the computer system. 
I will get back to you on that. Ms. Garvey and I will have, you 
know, a further discussion. She is right. This is one of those 
that we have had an ongoing dialogue on.
    Mr. Rogers. I mean, we are talking about a goodly sum of 
money here over a period of time, are we not?
    Mr. Mead. Huge.
    Mr. Rogers. How much?
    Mr. Mead. Well, you figure that 75 percent of that $7.5 
billion account is salaries. I do not have an exact 
calculation, but a substantial percentage of the work force are 
people that have to check in and have time cards.
    Ms. Garvey. Right.
    Mr. Mead. They get overtime and premium pay and so forth 
and so on. That all adds up.
    Mr. Rogers. Has there been any evidence of employees 
falsifying time sheets?
    Mr. Mead. Yes, there has been, but I would rather get back 
to you on that off the record rather than do an exposition of 
it here, given the status of that case. I think there was one 
also that was covered by the national news network. I would not 
represent, though, that that is the rule by any stretch. I just 
think that when you have a timekeeping system and it is built 
into your cost accounting system, that everybody ought to know 
that that system has a lot of integrity and cannot be abused. I 
will get back to you, though, off the record.
    Mr. Rogers. Well, I mean, in 70 percent of the cases 
apparently the supervisor is the same person as the person 
being supervised, is it not?
    Mr. Mead. Yes. The controller in charge would be the one, I 
would assume, that would have to okay it.
    Mr. Rogers. Yes.
    Mr. Mead. It was my understanding that they did not even 
have to okay it.
    Mr. Rogers. But even if they did, it is the same person, 
right?
    Mr. Mead. Yes.
    Mr. Rogers. Where is the check in that process?
    Mr. Mead. There is not an adequate internal control check.
    Ms. Garvey. You know, I do not really mean to be defensive 
about this, but I guess because when I look at those small 
facilities and the mid size facilities, and I know Ken has 
mentioned some of the larger ones, these are really good 
professionals.
    Mr. Rogers. Of course they are.
    Ms. Garvey. The kind of training they have been getting and 
so forth. We are not asking them to take supervisory action 
here. When you are a controller in charge, your responsibility 
really is to be a team lead and to run the operations for the 
day.
    Again, we do not allow controllers in charge where there 
are facilities, as Mr. Mead has pointed out, where there may be 
operational errors at a high rate or runway incursions. You do 
not have to use a controller in charge. We are monitoring that 
on a monthly basis and in some cases I will tell you in some 
facilities on a weekly basis. In some cases there may not even 
be a controller in charge because there may be some ops issues. 
It is pretty high training they have to go through, I believe.
    Mr. Rogers. I do not want to imply in any fashion that 
these are not trained people doing a terribly important and 
good job, but everybody has a time clock.
    Ms. Garvey. Yes.
    Mr. Rogers. I mean, that is the way we keep track of 
records. The IG is saying, I think, that there is an inadequate 
capability of anyone, including his office, to audit the 
records because there are no records. That is all we are 
saying.
    Ms. Garvey. That is true.

                         CONTRACT TOWER PROGRAM

    Mr. Rogers. I do not want to imply that those people are 
not dedicated, hardworking, qualified, capable people because 
they are. I will quickly wind my time down here for the moment. 
Mr. Mead, you suggested FAA could save up to $60 million a year 
I think you said by expanding the contract tower program. Where 
do those savings come from?
    Mr. Mead. They come from the number of staff that are 
required for a facility, as well as the pay scale. In your 
contract tower program, which Congress has supported it, but in 
the contract tower program we basically contract out the 
operation of low activity towers that are visual flight rule 
towers. They are very successful, a good safety record, a good 
efficiency record. When we have gone in and audited and found 
things wrong, we have found that both FAA and the contract 
tower operation have responded. The savings come from two 
factors. One, not as many people to pay, and they get 
substantially less money. Many of them are retirees from FAA to 
begin with or ex-military air traffic controllers. We have over 
200 towers already contracted out, and there are 71 of them 
left.
    Mr. Rogers. Ms. Garvey, can you dispute the savings that he 
is talking to?
    Ms. Garvey. Not at all, Mr. Chairman. I think it has been a 
very successful program. As Mr. Mead pointed out, we have about 
200 that are contracted out now. I, frankly, think it is the 
right balance, but it is something that is always on the table 
for the Administration and may be something that will be looked 
at as the Administration presents or the Secretary presents a 
proposal to the OMB.
    Mr. Rogers. It has not been expanded?
    Ms. Garvey. It has not, Mr. Chairman.
    Mr. Rogers. In spite of the obvious savings, is there a 
reason for that?
    Ms. Garvey. Well, first of all, the first couple years we 
wanted some experience with it. It was still pretty much an 
unknown issue for us. As the Chairman may know, it has also 
been the subject of a court case. Frankly, working through some 
of those legal issues was important as well. Gaining the 
experience was something we wanted to do, as well as working 
through some of the legal issues. A personal opinion, and this 
is only personal, is I think we have a good balance now. As Mr. 
Mead said, these are the real small facilities. Again, 
everything is on the table as we all face some of the costs 
that have been indicated here this morning.

                 AIR TRAFFIC STRATEGIC OPERATIONS PLAN

    Mr. Rogers. Mr. Mead, last year you told us that FAA needs 
to develop a strategic plan outlining key corporate strategies 
and describing how the agency will control the rising cost of 
operations. Last May, FAA said it would develop such a plan, 
but only after appointing a chief operating officer for air 
traffic. Almost a year later, there is still no chief operating 
officer. Should FAA develop this plan with its existing 
professional staff or continue to wait?
    Mr. Mead. I think they can set some things in motion, and 
they are. Some of the things actually have already been set in 
motion. Both Ms. Garvey and I alluded to these metrics for 
measuring the efficiency of the system and airports. I 
suggested that they have added to them how well these huge 
projects are going so you can hold management accountable. I 
think those things can be put in place, shared with the 
committee, shared with the community, even in the absence of a 
COO.
    The operational evolution plan that was launched in July of 
last year, that has many of the elements that you would want to 
have in a strategic business plan. That operational evolution 
plan still needs to be flushed out a bit in light of 9-11. I 
think they can move out on those fronts in the coming months.
    Frankly, I do not know whether they are going to have a 
COO. If I was a candidate for COO, I would want to know who the 
Administrator of FAA was going to be. Maybe Ms. Garvey will re-
up for another five years. She smiles.
    Mr. Rogers. Ms. Garvey, why can the agency not develop that 
plan with a COO?
    Ms. Garvey. Actually, Mr. Chairman, we agree. In fact, 
while I am deeply disappointed we do not have a COO, we have 
actually taken a number of steps. I will just mention three 
areas in particular.
    The metrics. We have those in place, and that is again what 
we would like to talk with the committee about in a little more 
detail over recess. We feel really solid about those metrics. 
We have done some informal vetting with the industry and with 
the IG and with OMB and have gotten a very positive reaction.
    The second thing, the second step, is to identify the 
processes that make it difficult sometimes to implement things 
as quickly as we would like. That work is going on in the 
agency right now.
    Thirdly, a first cut at an organizational structure and 
what that might look like. We are pretty much there on all 
three fronts. As Mr. Mead has suggested, I think really the 
underpinnings for all of this is the ops evolution plan. While 
we do not have a COO and that is a disappointment, we are 
moving out very aggressively in establishing the air traffic 
organization.
    Mr. Rogers. Thank you. Mr. Sabo.

                        INCREASED SECURITY COSTS

    Mr. Sabo. Thank you, Mr. Chairman.
    Ms. Garvey, I understand FAA is currently incurring 
additional costs for internal security, not external security. 
Where is that security being deployed; and are the costs for 
that reflected in the 2003 budget?
    Ms. Garvey. Mr. Chairman, the costs particularly in 2002 
are pretty significant, and they are for most of our 
facilities. That is really where we were deeply concerned, as I 
know the people who work at those facilities were concerned as 
well, so putting in security measures for the facilities has 
been a priority for us and certainly has had some cost 
implications built into it. We are concerned about that as we 
move forward and are working very, very hard with the 
Secretary's office to figure out how to deal with those costs 
in 2002. We would absorb some of them certainly in the 
President's 2003 budget, but clearly we have some work to do 
with the Secretary's office to deal with some of those real 
expenses.
    Mr. Sabo. But not all those costs are reflected in the 2003 
budget?
    Ms. Garvey. Let me go back. To really continue it, we would 
have to absorb it. We probably have a little more work to do in 
that area to make sure we can.
    [The information follows:]

    FAA will spend a total of $99.9 million for guard services 
in FY 2002 for staffed air traffic facilities. Of this, $15.1 
million was planned for and funded in the FY 2002 
appropriation.
    The increased costs are due to a variety of factors. 
Security costs at facilities deemed to be at higher risk 
increased $15.9 million above the funded level of $15.1 
million. This was a result of increasing both the number of 
facilities in this category and increasing the level of 
security at these facilities. The number of staffed facilities 
with guard services before 9/11 was 38 and the number after 9/
11 is 301. All of these facilities meet the current criteria of 
the Facility Security Risk management (FSRM) program. All of 
these costs will carry forward into FY 2003.

                            AFSCME CONTRACT

    Mr. Sabo. What is the status of the AFSCME contract. I 
understand that it was negotiated subject to OMB. OMB declined 
to concur. However, they keep saying that the decision still 
rests with FAA to approve or disapprove this contract. What is 
its status? Is FAA planning to approve it, or does OMB actually 
have veto power?
    Ms. Garvey. Right. Congressman, I guess I would say this is 
certainly one that I have been disappointed on. We would love 
to have these contract issues behind us. There are very good 
people obviously who are working in that unit. We had an 
agreement, and this is I think the point of disagreement. We 
believed there was an agreement that we would, as we had with 
our other contracts, move forward with OMB's concurrence. We 
would agree in principle, but we needed OMB's concurrence. You 
are right. That did not actually occur.
    We had a hearing on this very issue in early December. It 
was first scheduled for October, and then I think because of 
the September 11 events it was moved to early December. That 
hearing did occur in December, and we are awaiting the results 
of the hearing before the Fair Labor Relations Authority 
(FLRA). We are always willing to go back to the table, of 
course, but waiting for the outcome of that hearing.
    Mr. Sabo. What is the issue before FLRA at this point?
    Ms. Garvey. Well, it is essentially whether, and I am 
hoping I am going to present this correctly. I will correct the 
record if I am not saying it exactly right, but it is 
essentially I think two different points of view, as you have 
said. We believe that the FAA has the ability to approve the 
contract. We believe that the discussions going in called for 
OMB's concurrence. We had done that with previous contracts, so 
that really is the point of disagreement.

                             NATCA CONTRACT

    Mr. Sabo. Okay. Mr. Mead, in your testimony you indicated 
that the NATCA contract has to be cost neutral. I am not sure 
how you do cost neutral agreements. My observation every year 
is that Congress makes judgments about salary increases, and 
virtually every budget of every agency reflects what may be 
partially absorbed the first year, but every agency thereafter 
has salary adjustments as part of their operating budget.
    Mr. Mead. I think my testimony says that this is an 
opportunity for us to say whether it ought to be cost neutral. 
The last one was supposed to be cost neutral in exchange for 
various productivity initiatives; at least that was what was 
said at the time. They have been unable to quantify them. I 
think the NATCA agreement that FAA agreed to several years ago 
is a very attractive agreement from the controllers' point of 
view. It is also very costly. We have a number of controllers 
in the system that are getting $160,000 or $170,000 a year, 
which is substantially more than the Administrator's salary or 
senior executives'. I do not think it is unreasonable that in 
exchange for that, that we know concretely what these 
collateral duties that they are going to take on are.
    I am not ready to say cost neutral. You know, certainly 
there are cost of living adjustments (COLAs). Everybody gets 
COLAs. We usually get them even if they are capped. Lately they 
have been giving you a COLA, but an actual pay increase? It has 
been a while since anybody has gotten one of those.
    Mr. Sabo. Go ahead.
    Ms. Garvey. I am sorry, Congressman. I do not often do 
this, but I think we, the FAA, and I will take responsibility 
for this. I think we did a very poor job in the beginning when 
the contract first came out of talking about yes, it is good 
for the controllers, but it was awfully good for management, 
too. There were definite principles we had going into that 
contract, which we got out of it. One was I wanted to turn 
around the relationship with NATCA in terms of modernization. 
We were not succeeding on modernization in part because we did 
not have the controllers at the table with us, partners in 
really designing what we wanted for the future.
    We now have about 67 initiatives underway on modernization. 
The controllers are active participants in every one. They are 
critical components when we look at something like the national 
airspace redesign, so we wanted that going in. We wanted a cap 
on the number of controllers. Every year we would argue in 
front of Congress about whether it was 17,000 or 14,000. We got 
that cap.
    There were a number of initiatives that I do not think we 
talked about very effectively early on in the contract. I think 
it is a darned good contract, and I am still very proud of it 
not just from the controllers' point of view, but from the 
point of view of management.
    Secondly, we have done a very poor job of talking publicly 
about the productivity gains that we have gotten out of it. Mr. 
Mead is right. We should be expecting productivity. Just 
looking at two numbers that I saw just recently, $21 million we 
have been able to save by controllers assuming additional 
responsibilities. We have been able to save a significant 
amount, about $3.4 million over a couple of fiscal years, in 
just no cost moves, so there are things.
    We need to get better at that, and again I think the cost 
accounting and some of the other initiatives we have will help 
us collect those productivity gains, but it is hard to define 
and talk about what you gain from having the controllers so 
actively engaged in modernization, but I think that has paid 
off in some very real ways for us.

                    AIR TRAFFIC CONTROLLER SALARIES

    Mr. Sabo. How much of the salary for controllers is 
overtime?
    Ms. Garvey. I will have to get back to you on the exact 
number. I know that, in some of the facilities, particularly 
when we are putting in new equipment, we are pretty aggressive 
on some of the overtime. We can get the actual number for you.
    [The information follows:]

    Below is a chart providing a breakdown of salary 
information for the NATCA bargaining unit for calendar year 
2001. The NATCA bargaining unit is broken down into two 
categories: Certified Professional Controllers (CPC) and 
developmentals. The chart provides the total amounts in certain 
pay categories for both CPC's and developmentals and also the 
averages of CPC's and developmentals for the same pay 
categories.

------------------------------------------------------------------------
                                           CPC           Developmentals
------------------------------------------------------------------------
Base Salary......................    $1,332,233,314.30    $48,098,046.52
Awards...........................        $1,591,598.00        $29,912.00
Overtime.........................       $38,543,021.85     $1,272,780.80
Controller-in-Charge.............        $8,267,646.93        $19,956.97
Controller Incentive Pay.........       $24,869,665.46     $1,058,330.79
Interim Incentive Pay............            $2,509.92         $4,122.80
On-the-Job Training..............        $2,413,879.06         $2,237.84
Night Differential...............       $32,048,625.21       $861,395.70
Sunday Pay.......................       $36,794,471.98     $1,132,432.51
Holiday Pay......................       $38,319,410.44     $1,264,256.62
Paid Meals.......................          $272,107.51           $861.47
Lump Sum Payments................          $762,235.74       $133,063.34
Other Pay........................               $69.00             $0.00
Other Premium Pay................        $7,338,675.69       $225,161.80
    Totals.......................    $1,523,457,231.09    $54,102,559.16
------------------------------------------------------------------------


    Mr. Mead. I think the way it works is I think the top 
controller salary is not to exceed--the base controller salary 
is not to exceed that of the Administrator, so the delta 
between--what do we get?
    Ms. Garvey. Not enough. [Laughter.]
    Mr. Mead. Well, that is another issue. The delta is all the 
premium pay and overtime.
    Mr. Sabo. I guess what I am curious about relates to the 
cap on numbers. I am curious if there is an escalation of 
overtime because we do not have enough----
    Ms. Garvey. That is a good question. Would we be better off 
with more, in other words?
    Mr. Sabo. Yes.
    Ms. Garvey. Good question.

                   AIR TRAFFIC CONTROLLER RETIREMENTS

    Mr. Sabo. Also, I keep worrying about this huge retirement 
bubble that I hear is coming----
    Ms. Garvey. Absolutely.
    Mr. Sabo [continuing]. And whether we are equipped to deal 
with that.
    Ms. Garvey. A fair question and one we are very concerned 
about as well and working on very closely with NATCA. By the 
way, we have about ten key sort of job categories where I think 
we are going to have similar problems. We are aggressively 
looking at all of them, but in the case of NATCA we are working 
closely with them to try to both match, make sure we are 
projecting the same numbers, and we are pretty close until 
2005,--I think we diverge at that point or 2006--but also 
understanding what are the training costs associated with that.
    You know, when you get squeezed, that is often the first 
thing to go. That would be a big mistake in my view, 
particularly given what we know may be coming.

                    AIR TRAFFIC CONTROLLER SALARIES

    Mr. Mead. I can respond specifically to your question. I 
will take the highest paid. The highest paid controller gets 
about $187,000 a year.
    Mr. Rogers. What was that?
    Mr. Mead. $187,000. Of that figure, just about $121,000 is 
the base pay. About $5,000 is holiday day. Night differential 
pay is another $5,000. Sunday pay is about $4,700. Overtime, 
and this would tend to reinforce your point, is $43,000, and 
controller incentive pay, and I am not sure what that category 
is, is another $6,000. On-the-job training was $237.
    Ms. Garvey. And again just to put it in perspective, there 
are about 12 people who make over $175,000 out of 15,000 or so. 
I do not want to leave anyone with the impression that that is 
the regular guy.
    Mr. Sabo. My concern is more in total numbers--whether that 
overtime is because of temporary need or whether it is an 
ongoing problem.
    Mr. Mead. My observation is generally in the Federal 
Government we adopt these caps on personnel, and often you 
spend more on overtime or you end up contracting out and paying 
people more, you know.
    Ms. Garvey. Right.
    Mr. Mead. You pay retirees big pay to work for a freeway 
bandit.
    Ms. Garvey. Right. If we could, Congressman, I would like 
to use our cost accounting and do a little more analysis on 
this and get back to you and show you, because that is a good 
question and one we should be able to answer.
    Mr. Sabo. Thank you.
    Mr. Rogers. Mr. Tiahrt.
    Mr. Tiahrt. Thank you, Mr. Chairman.

            GENERAL AVIATION BAN AT REAGAN NATIONAL AIRPORT

    I have a couple questions. I want to start out with this 
general aviation ban on DCA, on Reagan National. The National 
Business Aviation Association (NBAA) submitted a plan they call 
the security letter of authorization so we can get general 
aviation back into Reagan National.
    I have asked Bryan Stafford, the Secret Service Director, 
to look at it. He told me personally that he would. The 
Transportation Security Administration (TSA) and the United 
States Secret Service will be involved in the decision to 
reopen general aviation at Reagan National.
    I have sent letters to the President, his Chief of Staff, 
to John Magaw. Ms. Garvey, you have received one also.
    Ms. Garvey. Yes.
    Mr. Tiahrt. And also to Bryan Stafford. That was before our 
conversation. I am hoping that we can open that back up soon. 
Would you tell me where you are at on getting Reagan National 
opened back up for general aviation?
    Ms. Garvey. For general aviation? Certainly, Congressman. 
First of all, I think NBAA and the other members of the general 
aviation community deserve a lot of credit because, as you 
pointed out, they really have helped to develop some very 
specific protocols and what I think are some very good 
suggestions. We have worked hard with them to sort of refine it 
and come up with some other issues that we think may be of 
concern to the Secret Service or the TSA. I think largely 
because of your call, I know that the Director of the Secret 
Service is going to be briefed this week on what those 
protocols are, and that will be followed up with some other 
discussions with TSA. Not an easy issue I know for them, and 
one they feel pretty strongly about, but again I would 
certainly credit the general aviation community for working 
hard to respond to those issues and certainly hope that we will 
have some good, productive discussions. I expect they will be.
    Mr. Tiahrt. The Secret Service by their nature are 
pessimists. They have to assume the worst possible scenario is 
going to occur, so I want to look beyond their pessimism 
because these general aviation, these are usually CEOs or 
people that are conducting business here. The pilots know who 
their passengers are. We ought to have some kind of background 
check on the pilots and the aircraft and be able to get them in 
and out. That is my personal opinion.

                           PASSENGER SECURITY

    On December 31, I was traveling out of country, and I went 
through Minneapolis. When I got on in Wichita, Kansas, I went 
through a security check and had to take my shoes off. It was 
very thorough. I got wanded and everything. When I got to 
Minneapolis, before I could enter the airport after getting off 
an airplane that stopped no other place but Wichita, Kansas, I 
once again went through a security check at the door. I was 
told when I asked why the second check that some airports that 
were feeding into the Minneapolis-St. Paul area did not have 
enough security equipment so that we had to go through that 
second check, even though we had already once gone through. I 
am concerned that we do not have the resources or the airports 
to implement the necessary security protections. When I look at 
the budget, you know, we have quite a shortfall this year, and 
it is going to fall on the burden of Mid-Continent Airport in 
Wichita, Kansas, the Minneapolis-St. Paul Airport. It is going 
to fall on their backs to make up the difference between the 
cost of making it secure and what we have.

                 IMPACT OF REDUCED TRUST FUND REVENUES

    I am wondering how does the trust fund play into this? You 
know, when AIR-21 was passed we were told that there was this 
vast amount of money out there waiting to be unleashed on the 
airports so they could do whatever was necessary. It would 
alleviate all our budget problems. We did not have to worry 
about it here on the Transportation Subcommittee because the 
trust fund would take care of it.
    Now I find out that there is a shortfall out there, and it 
looks quite a while projecting a shortfall. The general fund 
portion is going to be for fiscal year 2003 potentially as high 
as $3.7 billion. What happened to the trust fund? How come it 
is not helping us out here like it was supposed to?
    Ms. Garvey. Do you want to or should I?
    Mr. Mead. Go ahead.
    Ms. Garvey. Mr. Mead had a wonderful chart that he passed 
out that you may also have, Congressman, but essentially after 
September 20, you know, the revenue projections which we had 
anticipated did not materialize because of the events of 
September 11. Even though we see it coming back up, it still 
falls short of what the overall needs are.
    It is important to note, though, that we are still meeting 
the AIR-21 levels. What the real challenge is is that to make 
up the difference in the operations budget we have to take more 
money, as you have indicated, out of the general fund. The 
money is coming, but it is certainly much more challenging 
because it is coming out of the general fund.
    I might add, though, Congress was extraordinarily helpful 
with the $175 million, and Congresswoman Emerson I know asked 
about this yesterday as well. That $175 million that you all 
authorized and appropriated for airports for additional 
security expenses is something that we are going to be 
distributing this week, and I know that is a great help to the 
airports. It is probably not enough, but it certainly was a 
help for some of the immediate needs.
    Mr. Mead. The way this law works, the airports get taken 
care of first, and that is to the tune of about $3.4 billion, I 
believe, in 2003. That is by law. Even though FAA has requested 
that amount, they really do not have much choice in the way the 
law works.
    The reason for the decline in revenues is really several 
factors. One is fewer people flying. This is not just post 
September 11, but post September 11 certainly aggravated it. 
The other is cheap tickets, even people flying business who can 
get a cheap ticket. The reason that has a corresponding effect 
on revenues is because a substantial portion of the revenues is 
keyed to a percent of the ticket price, so a cheap ticket 
results in lesser revenues.
    Mr. Tiahrt. So even if we have more people traveling, 
because there is in some cases more competition, you are saying 
the revenue will actually be down because some tickets are less 
expensive?
    Mr. Mead. That is right. When somebody tells you the load 
factors are getting back up there, the corollary question is 
yes, but what is your yield per ticket? Are the ticket prices 
getting back up to where they were say in January or February 
of 2001?

                      EXPLOSIVE DETECTION DEVICES

    Mr. Tiahrt. I am concerned. In the budget, the FAA budget, 
FAA has estimated that the cost of installing the new security 
devices, new explosive detection devices and other things is as 
much as $2.3 billion. I do not want to see us close any 
airports because we cannot do that. I am a little concerned how 
we are going to get there. We cannot push it on the airports. 
We have to figure out some way to get that funded.
    Mr. Mead. That is a real good point. In our testimony we 
were trying to point out that this is a major issue because the 
Transportation Security Administration is going to budget for 
the installation of the machine, meaning moving the machine in, 
plugging it in, making sure it is in consonance with the 
electrical system and so forth, the cost of movers, presumably 
the cost to maintain the machine, but the construction that is 
associated with putting these machines in line is not, and it 
is not clear who is going to pay for that.
    Under the law, the TSA law, Congress said well, up through 
2002 the Airport Improvement Program can cover 100 percent of 
the security costs. The problem is that is being overlaid on 
requirements at those airports that had already expected that 
were not security.
    Mr. Tiahrt. Mr. Chairman, I have some other questions I 
would like to submit for the record.
    Mr. Rogers. All right.
    Mr. Tiahrt. Thank you, Mr. Chairman.
    Mr. Rogers. Thank you. Mr. Olver.

                          REMARKS OF MR. OLVER

    Mr. Olver. Thank you, Mr. Chairman. Mr. Chairman, I am 
going to use my time to indulge in a little exaltation, 
recognizing that this is very likely the last time that Ms. 
Garvey will be testifying before this subcommittee.
    Ms. Garvey and I, so to speak, grew up together and went to 
school together in Massachusetts politics and public policy 
over quite a number of years and then ended up down here at 
about the same time a decade or so ago. I just want to commend 
you, Jane, for the great skill that you have shown in managing 
the mine fields of your agency, most of them, and avoiding the 
worst of them I think over a period of time.
    I want to commend you and thank you for the service that 
you have performed for this country in what has always been a 
very difficult job and a job that became at least in order of 
magnitude tougher, as the word has been used a number of times 
this morning, more complex and more critical to the country.
    That is all I would like to say this morning, Mr. Chairman, 
if you can believe that.
    Ms. Garvey. Thank you.
    Mr. Rogers. Mr. Olver, thank you very much. Mrs. Emerson?

                        REMARKS OF MRS. EMERSON

    Mrs. Emerson. Thanks, Mr. Chairman. Ms. Garvey, I want to 
thank you very much for your service as an administrator of the 
FAA and your prior service to our country.
    Ms. Garvey. Thank you.
    Mrs. Emerson. I know it will be with mixed blessings that 
you leave. Hopefully, you will have a much less stressful 
second career.
    Ms. Garvey. Well, I am marrying a daughter. I am not sure 
it is that stressful.
    Mrs. Emerson. Certainly not. Maybe afterwards.
    Ms. Garvey. Maybe afterwards.
    Mr. Rogers. Will the gentlelady yield briefly?
    Mrs. Emerson. I will.
    Mr. Rogers. It has come to my attention that Ms. Garvey's 
husband, who happens to be a sheriff back home, was recently 
named the National Sheriff of the Year, which is an enormous 
honor and says a lot about his capability. So I just wanted to 
let the record show that she is not the only successful Garvey 
in that family.
    Ms. Garvey. Thank you. Thank you very much, Mr. Chairman.

                AIRPORT REIMBURSEMENT OF SECURITY COSTS

    Mrs. Emerson. Okay. Now back on to serious things.
    Ms. Garvey. Now back to us.
    Mrs. Emerson. Anyway, after the terrorist attacks on the 
11th of September, the FAA immediately required airports to 
deploy more law enforcement officials and to take other steps 
to improve aviation security. As you have stated, Congress 
approved $175 million for the Airport Improvement Program 
funding to reimburse airports for the new security costs. Can 
you tell me how many airports have submitted applications to 
the FAA and the total amount of funds that they have requested?
    Ms. Garvey. Congresswoman, the amount of money requested 
was about $450 million, actually a little bit in excess of 
that. I would have to get you the exact number, but it was a 
significant number of airports that did apply.
    [The information follows:]

    There were 319 applicants that applied for reimbursement 
and $495.1 million funding was requested.

    We looked very, very carefully at the language of the 
legislation which really encouraged us to pay particular 
attention to the small and mid-size airports that really were 
struggling, that were very much operating at a loss, and I 
believe that the formula that we have come up with reflects 
that.
    We did also take into account the larger airports as well, 
but we did try to pay very close attention to the language. We 
had good discussion with the Secretary's office yesterday and 
hope that that money would be distributed this week. They are 
going through the kinds of communication that they need to with 
the committees and so forth.
    Mrs. Emerson. Well, that is good news.
    Ms. Garvey. Good news for the airports.
    Mrs. Emerson. But since there seems to be--let us see. So 
the request for $450 million and we approved $175 million, 
which gives us around $270--let us see. I did my math wrong--is 
that $275 million----
    Ms. Garvey. Give or take, yes.
    Mrs. Emerson. Give or take? A shortfall. Will the 
administration supplemental appropriations request include 
additional funds to reimburse the airports for new security 
measures?
    Ms. Garvey. Well, the whole issue about the supplemental is 
something that is still under great discussion in the 
Administration, certainly TSA and all of the security issues 
are very much a part of that. So I guess I would have to defer 
that to the Secretary's office, but I know those--in fact, we 
were talking about that a little bit earlier. The additional 
costs for airports are very significant. How we are going to 
pay for it, where that money is going to come from will 
certainly be a challenge as we move forward.
    Mrs. Emerson. Mr. Mead, you have a funny look on your face.
    Mr. Mead. I ate a canary, I guess. No, I think that this 
issue that you raise, you are talking $400 million now, I think 
that pales in comparison to what you are going to be hearing a 
month from now because a month from now----
    You are not talking about costs that are associated with 
the design and reconstruction of baggage systems and adding 
additions and so forth and so on and all the things that you 
will have to do to check baggage.
    I think before you came in, I mentioned that last night I 
was briefed, a very impressive briefing, by Dallas-Fort Worth 
airport's senior management. They are prepared to--they have 
gone through the options of what it is going to cost DFW to 
just do the construction, this is exclusive of the cost of the 
machine, and it is almost $200 million.
    Mrs. Emerson. Wow. So I guess it does pale in comparison.
    Mr. Mead. And that is not something that--that element of 
the security is not something that the Transportation Security 
Administration plans to budget for.

                         SECURITY ACCESS COSTS

    Mrs. Emerson. Well, Mr. Chairman, we are going to have our 
work cut out for us, then, perhaps. Let me ask another 
security-related question, if I could. We talk about the need 
to overhaul the current system of identifying people with 
access to airports and to aircraft. Within the department, who 
would be covering the costs? FAA or TSA? Do you all know yet?
    Ms. Garvey. If it is a security-related issue, it would be 
TSA. Where FAA still plays in security is in issues, for 
example, around flight crew training, the kind of security 
training and so forth, cockpit door standards and so forth. 
Expenses such as you have talked about would be covered by TSA, 
although we have clearly done a lot of work in the past and 
have already begun discussions with the Under Secretary and his 
staff about some possible options.
    Mrs. Emerson. Okay. I appreciate that. Thank you.
    Thanks, Mr. Chairman.
    Mr. Rogers. Thank you, Mrs. Emerson.
    Mr. Pastor.

                         REMARKS OF MR. PASTOR

    Mr. Pastor. Congratulations to your husband. I come from a 
county that has the toughest sheriff.
    Ms. Garvey. We are not as tough in Massachusetts. 
[Laughter.]
    Mr. Pastor. Well, maybe tough is not the best. I 
congratulate you.
    Ms. Garvey. Thank you.
    Mr. Pastor. I want to thank you for the years of service 
you have given us as FAA administrator and it has been a real 
pleasure working with you. Any time we had questions or needs 
and we called upon you or your staff, you were very responsive, 
and so I congratulate you for the great job you have done.
    Ms. Garvey. Thank you.
    Mr. Pastor. And I thank you for it and I look forward to 
seeing you again in another capacity.
    Ms. Garvey. Thank you.

                           AIR TRAFFIC DELAYS

    Mr. Pastor. Last year, we had a panel up there that gave 
funny faces and smiley faces and frowns and I think you 
received a smiley face because you had a definition for delays, 
and we were all proud of you. And I know that we have had for 
less delays since the events of 9/11. But as we see numbers of 
air travelers increasing again, what are you going to do in 
terms of ensuring that delays are not as big a problem as they 
were a year ago?

                        ACTIONS TO REDUCE DELAYS

    Ms. Garvey. Congressman, that is a good point. I notice 
this morning that United is even talking about bringing up 
numbers by this summer. So you are right, we will see some and 
we may experience some delays, particularly in some critical 
hubs.
    I think a lot of it is continuing the work that we talked 
about last year. Choke points, there will be more sectors open, 
four more at least, and that as I mentioned earlier has really 
helped with arrival and departure delays, reduced them by about 
20 to 27 percent in some key areas.
    We have been working hard over the last several months on a 
better weather forecasting product and that is something that 
will be used this summer by us and by the airlines, which I 
think will be very helpful.
    URET, the conflict probe tool, which one of the controllers 
at Memphis told me--or Cleveland, I cannot remember, was the 
best step forward in his career as a controller, so we will be 
getting that out into four more sectors.
    So we have to, again, stay very focused on those 
initiatives that we identified last year, as the Inspector 
General has indicated, to stay focused on the operational 
evolution plan which contains many of those elements. So stay 
on it, spring/summer is coming back and our plans are already 
in gear on that.

                      TECHNOLOGY TO REDUCE DELAYS

    Mr. Pastor. You understand there is a great difference 
between Memphis and Cleveland.
    Ms. Garvey. Right.
    Mr. Pastor. I have never been to either one of the two. But 
last year, weather was a big issue and we were looking at 
technology to give us better data.
    Ms. Garvey. Yes.
    Mr. Pastor. And for the pilot to communicate with the air 
traffic controller more efficiently.
    Ms. Garvey. Right.
    Mr. Pastor. How is our technology? Has that proven to be 
what we expected?
    Ms. Garvey. Well, I think technology is absolutely a key 
part of it. The URET, for example, the free flight tools are 
absolutely part of it. But it is also procedure changes which 
are very important and, as you have indicated, the weather 
technology is very critical as well.
    I remember, actually, Mr. Wolf, and it just occurred to me, 
did ask a question last year because last summer the weather 
was a little bit better than it had been the summer before. We 
went back and had Mitre do some analysis and even if we were 
comparing apples to apples, the delays still would have been 
down 20 percent last summer, which was very good news. So we 
want to keep that trend going.

                            AFSCME CONTRACT

    Mr. Pastor. I want to go back to that AFSCME contract. My 
understanding is that you negotiated the contract--your 
negotiator had signed off and everybody was happy, then OMB did 
not concur, but at a hearing, I think it was the Fair Labor 
Standards Hearing, a document was produced, and supposedly the 
Senate has it, that OMB basically said we have no jurisdiction 
over this contract and FAA has the authority to implement it.
    Ms. Garvey. Congressman, I am not familiar with that 
document. I will go back and ask our folks who were at the 
hearing what that may be.
    [The information follows:]

    At this time, OMB compiled a number of documents relating 
to the negotiations. Several of these documents were staff 
drafts of correspondence. It is not clear from your request 
whether these are the documents to which you are referring, but 
we have provided them for your review. The insert pages 
indicate that the draft went through several iterations.

    Mr. Pastor. If that document exists where OMB basically has 
said we have no jurisdiction and they do not need our 
concurrence to implement this contract and because you started 
your testimony saying that this was a sad story and that you 
were unable to do it, will you implement it?
    Ms. Garvey. Well, certainly, I would like to look at the 
document. I would be surprised, I would really like to see it, 
because our premise going in was always to have the agreement 
of OMB. I would like to look at that. Clearly that was a 
premise of our going in, if they were not in agreement, then 
that does change the picture.

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Pastor. Now, was this concurrence required by OMB or is 
it something that you need?
    Ms. Garvey. It was really an agreement----
    Mr. Pastor. Because I do not want you to get fired over----
    Ms. Garvey. No, no. Actually, and I am always careful. Part 
of the rationale is even though we have personnel reform, which 
is something unique in government, obviously, and the ability 
to negotiate, with both Administrations we operated under the 
principle that we are still part of an Administration. We are 
still part of a Department and sort of going off and doing it 
sort of carte blanche did not seem to be--even though, again, 
we certainly have the legislative authority, that we still were 
very much part of the administration. So we felt that one of 
the guidelines and one of the ground rules was the final 
agreement with OMB. And I do not want to make OMB the heavy and 
I do not mean to be doing that----
    Mr. Pastor. You had better not, because they were pretty 
heavy on the assistant secretary, so----
    Ms. Garvey. But, you know, clearly, they have a concern and 
they have to look at things from a much larger picture and in a 
much broader way than we do. But I will certainly look at 
whatever the document is.
    Mr. Pastor. If that document exists, then we will come 
back--after you have reviewed it, ask you to see if you could 
implement the negotiated contract.
    Mr. Mead. Yes. This year's budget, I think, illustrates--I 
mean, I do not know what OMB involvement is now or has been, 
but I would think that they would be very interested because 
every increase in operations expenses now does not come out of 
the trust fund, it is out of the general fund, because they are 
not bringing in enough money to cover the costs, so they have 
to look to the general taxpayer and that is pretty clearly, I 
would think, a big budgetary issue.

                           BUDGET NEUTRALITY

    Mr. Pastor. You talk about budget neutrality, is this why 
you are pushing it or asking for it or wanting us to look at 
it, because you think OMB is going to ask us to do it?
    Mr. Mead.
    Mr. Mead. No, I do not have any special information. It 
just seems to me that this year, when you have such large 
unanticipated, multi-billion dollar needs coming in that they 
are asking the general fund to spend, not just from FAA but 
from Coast Guard, Amtrak, the Transportation Security 
Administration, and, number two, the country in general is in 
deficit spending and, number three, that the existing regime of 
aviation taxes does not cover the costs and is covering a 
lesser percentage of the costs, that cost control is the 
watchword of the day throughout the Department of 
Transportation and, in this case, FAA.
    Mr. Pastor. Are you familiar with other Federal employee 
contracts that require budget neutrality?
    Mr. Mead. No.
    Mr. Pastor. So this NATCA recommendation would be one of 
the first?
    Mr. Mead. No, our only point in the testimony is that this 
is a good time for the committee to establish its expectations, 
is that your expectation that you want the net result of the 
next agreement to be cost neutral or not, not necessarily that 
it should be. That is not my place to make a recommendation 
like that.

                            AIRPORT SECURITY

    Mr. Pastor. Again, I will go back to a theme that has been 
expressed by a number of my colleagues, you know, $2.3 billion 
to secure airports, that is a lot of money. We are thankful for 
the $175 million, but your numbers, I guess, are saying that to 
get it secure to the point that we want them to be sure, I know 
in Phoenix they would have to build up floors and they would 
have to do some major renovations to the airport. Then you have 
the issue about the parking garages within so many--what is it 
300 feet?
    Ms. Garvey. Three hundred feet. Yes.
    Mr. Pastor. Three hundred feet. And so a lot of these 
issues are affecting these airports and we need to find a way 
to assist them because it is a big nut to crack, $2.3 billion. 
I do not know how we do it, maybe a supplemental, but we need 
to realize that there is a great problem out there and we just 
cannot have the airports having to foot the bill.
    Thank you, Mr. Chairman. Thank you, Ms. Garvey.
    Ms. Garvey. Thank you, Mr. Pastor.
    Mr. Rogers. Thank you.
    Mrs. Kilpatrick.

                       REMARKS OF MRS. KILPATRICK

    Mrs. Kilpatrick. Thank you, Mr. Chairman.
    First of all, let me add my voice, too, to Ms. Garvey for 
the many years of working with you and your leadership. It is 
always refreshing to see a strong woman sit in that chair and 
answer back to this committee.
    Mr. Pastor. With a tough sheriff behind her.
    Mrs. Kilpatrick. Right. Training from home. And inherently 
so as a female, I am sure. Thank you for your years of service. 
We do appreciate that.
    Ms. Garvey. Thank you.

                        USE OF AIP FOR SECURITY

    Mrs. Kilpatrick. Just to follow up on Mr. Pastor's question 
just a moment. Did we not pass legislation that gave approval 
that the AIP could be used for some security upgrading?
    Ms. Garvey. Absolutely, Congresswoman. For one year and 
that has been a great help. I think what Mr. Mead is referring 
to are some of those costs that may be looming in the future, 
but you are absolutely right. And they have used it well and 
effectively.

                          NEW DETROIT AIRPORT

    Mrs. Kilpatrick. Okay. As you know, in Detroit, we have 
opened a new airport, state-of-the-art. I am fascinated by it, 
but it's not without its new kinks, as you know, as we go 
through this. So continue to direct new traffic to us, we want 
to see that as much as we can.
    Ms. Garvey. Twenty-five percent improvement in capacity 
because of that airport.

                   AIR TRAFFIC CONTROLLER RETIREMENTS

    Mrs. Kilpatrick. Yes. An outstanding facility.
    We are going to get a report soon from the GAO that air 
traffic controllers will be retiring at an alarming rate very 
soon. Is FAA up to speed on that? Since it takes the training 
two, three, five years to get them up, will we see the impact 
of that or do we have people in the pipeline who can come in 
and take over?
    Ms. Garvey. We actually, Congresswoman, are very focused on 
that and have been working and listening to GAO as they have 
worked through that report. I have not seen that final report, 
but I am certainly eager to take a look at it. We are working 
closely, not just with GAO but with our own controllers union 
to really look at what those numbers are.
    We are pretty much in synch with the controllers until 
about 2005. I think they see a bigger jump in that year than we 
do. So we need to keep monitoring that to them, but you have 
pointed out exactly in your question where the great challenge 
is and that is in training money. We have it in 2003, but 
clearly we are going to have to watch that because we know that 
when you get constrained sometimes, training is the first thing 
to go. You are right, it takes a couple of years to train a 
controller replacement and to really make sure that we are 
training them well and giving them the right kind of background 
is going to be critical.
    Mrs. Kilpatrick. And in a timely manner.
    Ms. Garvey. Absolutely.
    Mrs. Kilpatrick. The committee would like to be kept 
informed.
    Ms. Garvey. We will absolutely do that, Congresswoman.

                          SECURITY CHALLENGES

    Mrs. Kilpatrick. The new Transportation Security 
Administration, and we had the administrator here a couple of 
weeks ago, who has an awesome responsibility of hiring 40,000-
plus new people and then just seeing that we are protected and 
secure as most of us travel twice a week anyway, I am concerned 
that when it is happening even in our own airport we see some 
of the security challenges that are faced with, is TSA going to 
meet that goal? How can we help?
    Ms. Garvey. Well, Congresswoman, I certainly think, 
certainly the resources and I think Congress has been 
extraordinarily forthcoming both in the legislation and 
certainly with resources to date. I know the secretary will be 
back with the Under Secretary and there are some great 
financial demands just to provide those resources. I think the 
Under Secretary, you are right, has an enormous challenge. He 
is a terrific leader and seems to be very, very focused on all 
of them. And while there are challenges, the kind of resources 
you have provided and the kind of leadership this committee has 
given I think will be very helpful. Boy, it is no--you are 
right--no small undertaking.

                          AIRPORT CONCESSIONS

    Mrs. Kilpatrick. And then, finally, for me the concessions 
and I have brought this up at every hearing that we have had. 
The concessionaires, and I guess because I am on the 
transportation subcommittee, the people who talk to you, many 
of them are losing their shirts at this time because only those 
with a ticket can come past the first counter. We have to do 
something about that and I know that counter, that first 
security point, is most important and the security 
administrator spoke to it as well.
    Two-thirds of the people who come to the airport are either 
picking someone up or dropping someone off and many before 
September 11th came into those concessions and spent time and 
bought things from clothing to food and trinkets and all the 
like. Because now the one-third that do travel usually are 
rushing to the airport, they may have a little time to spend 
but nothing like those waiting for someone to come in, the 
concessions are finding that their businesses are about to go 
under and they employ a lot of folk across America.
    In my own mind, I was thinking maybe they can have those 
people who are not flying come through security points, which 
means money because more manpower would have to be had there, 
maybe a different gate or something, I do not know, but is 
there anything? Has any thought been given to how we can get 
more people to those businesses in the airport which are now 
across America finding themselves really in trouble?
    Ms. Garvey. Right. I know and I have heard the Under 
Secretary address that very issue and you are absolutely right. 
In some airports, it is more difficult and more problematic 
than in others. We saw it even here at Reagan National where 
there were some tremendous impacts to the small businesses.
    I know the Under Secretary has discussed and is looking at 
it and I will tell you, he has so many issues. I cannot speak 
for where it fits on his priority list, but I know we have 
heard him speak about the need to create perhaps a separate 
process so that you could allow people to do exactly as you 
have said, but still do it in a way that protects the security 
issue. So I think that is very much an issue for him and it is 
one that in fact you may have brought to his attention.
    Mrs. Kilpatrick. We discussed it here in this committee.
    Ms. Garvey. And I know he has talked about that at 
meetings.
    Mrs. Kilpatrick. Have you heard from concessionaires around 
the country?
    Ms. Garvey. Oh, absolutely, Congresswoman. I think the 
small business people--and, again, as you have said, it is more 
true in some airports than others.
    Mrs. Kilpatrick. Thank you. Thank you, Mr. Chairman.
    Mr. Rogers. Mr. Aderholt.
    Mr. Aderholt. Thank you, Mr. Chairman.

                        DIGITAL GLUE TECHNOLOGY

    I just wanted to follow up on one issue. The 2002 
transportation appropriation bill had language in there to 
encourage further study about this digital glue technology as 
it relates to various databases and how they coordinate.
    I just wanted to know if you had a timeframe in which to 
proceed with that and to have some kind of tests done on some 
glue technology that might help in flight schedules and other 
things that maybe it could be of use for.
    Ms. Garvey. Congressman, if I could get back to you at the 
end of the day, I do not have the schedule handy, but I will 
make sure that we get back to you before the end of the day on 
what our time table is and what we might expect from the study.
    Mr. Aderholt. And then just as a follow-up, I know that 
also there are some ways it can also be used to try to screen 
out dangerous passengers as well as just flight schedules, but 
also some other ways. So, yes, that would be very helpful. 
Thank you.
    Ms. Garvey. Thank you.
    Mr. Aderholt. That is all I have.
    Mr. Rogers. We have a vote on the floor and there are a few 
more questions that I would like to propound. It is the noon 
hour in some people's minds, but I think we could finish fairly 
quickly. Rather than postpone for lunch and come back, would it 
be just as suitable if we proceeded after this vote on the 
floor and finish up, so that you would not have to come back?
    Ms. Garvey. Great. Thank you.
    Mr. Rogers. All right. We will do that. We will take a 
short recess.
    [Recess.]

         RESEARCH PROJECT--SECURE DATA AND VOICE COMMUNICATIONS

    Mr. Rogers. The committee will be in order.
    The fiscal 2002 Department of Defense Appropriations Act 
included an additional $50 million for your research program 
``for emergency expenses to respond to September 11, 2001 
terrorist attacks on the United States.'' I am concerned that 
these taxpayer dollars be put to the best use to enhance 
aviation security. Can you assure me that all of these funds 
will be awarded in a fair, open and competitive process?
    Ms. Garvey. Mr. Chairman, yes, and I know we have gotten a 
number of interesting proposals in, interesting ideas. We are 
pulling that together for the Secretary and we would like to 
have it out there very quickly as well as I am sure the 
Secretary would.
    Mr. Rogers. In a fair, open and competitive process?
    Ms. Garvey. Yes, absolutely, Mr. Chairman.

                           OPERATIONAL ERRORS

    Mr. Rogers. Now, back a moment to something Mr. Mead 
mentioned earlier. That is operational errors and the error 
rate. Even with the decline in air travel since September 11, 
the number of operational errors is still going up. Last year, 
I am told there were almost 12,000 operational errors, almost 
three serious ones a day. Runway incursions on the ground are 
decreasing and that is great, but operational errors in the air 
are going up. Mr. Mead, is the FAA doing enough to attack this 
problem?
    Mr. Mead. Well, I think they have more to do, certainly, 
and they need an action plan for dealing with these things when 
they occur, especially the serious ones, but I feel that we 
have a better command of what is happening out there than we 
did last year at this time.
    Mr. Rogers. A better what?
    Mr. Mead. Command of what is actually happening because the 
controllers and FAA and we have committed to a more disciplined 
way of reporting. You know, at these en route centers, it is 
automatically recorded when one occurs. At the terminals, it is 
not automatically recorded. It is voluntarily reported. And 
similarly for the towers. So you are relying on voluntary 
reporting at terminals and towers. And there was a big issue 
last year at this time as to whether we should approach this in 
a constructive way or approach it in a way where there was 
punishment.
    And I think the controllers felt a strong--and I think 
there was a lot to this view--that it was approached more as a 
punishment when an operational error occurred. So naturally 
there was this resistance to reporting. So I think we have the 
reporting down now. Now we have to develop action plans to 
correct them.
    Ms. Garvey. Mr. Chairman, I will certainly double check 
this, but the IG is absolutely right. The numbers were up last 
year and as the Inspector General mentioned, it may in part 
have been because we had a much better reporting system.
    This year, though, if you look at October through January, 
we have seen about a 4 percent decrease in ops errors. Not 
enough, you know, certainly not enough, but certainly headed in 
the right direction. We agree we need an action plan, and we 
have one. We are looking at every ops error that comes in the 
facility, looking at it immediately. We are monitoring it with 
our division managers on a monthly basis. It is a topic of top 
discussion.
    We have some great training. There is a training that 
actually NASCAR and some of the athletes have used and we tried 
it in one of our southern facilities, it was very successful, 
we want to replicate that.
    The challenge, of course, as we move forward is again 
wanting to make sure we have the right amount of dollars for 
the kind of training that is necessary. But you are right, we 
need to get those numbers down.

                          ENSURING PERFORMANCE

    Mr. Rogers. Mr. Mead, last year, we asked you how FAA could 
be held accountable for results in this field and you said, and 
I quote, ``If you look at the bar chart for the FAA's budget, 
you will see that the bar chart keeps going up every year. They 
get their money anyway. So I guess one suggestion I would have 
is if you linked money to performance more, then you would see 
some results.'' Do you still hold that view?
    Mr. Mead. Yes, I stand by it. And can I develop that? Can I 
put an addition on that for this year? The point I was making 
about these cost incurred audits and these close-out audits of 
the contracts, that ought to be tied to the manager's 
performance, the people that are administering these contracts, 
they should be required to have that done. That is a big 
savings component and next year at this time you should expect 
a report, I think, from FAA on that. But, yes, I still hold to 
that view.

                            EMPLOYEE SURVEYS

    Mr. Rogers. Ms. Garvey, your employee survey last year 
showed some serious problems with morale. A government-wide 
survey released last summer by GAO showed FAA at the bottom of 
the chart on many measures, compared to other agencies.
    What is the problem and how can we fix that?
    Ms. Garvey. Well, it is my belief that one of the issues is 
the change that we are going through in the agency, performance 
management is not easy. We are going through a fair amount of 
significant change within the agency and I think that is always 
challenging. The employee survey revealed some real concerns 
about the managers' abilities to evaluate some of the employees 
particularly as we go more to not a tenured system, but a 
performance-based system. So certainly I think those are 
issues. What we have done with the employee survey are a couple 
of steps. One was the issue of communication. That was a very 
big issue for employees, not knowing. It is a big agency, with 
employees not always getting the right kind of information.
    We have established something called VOICE, which is a 
internal communication that has gotten, I think, a very 
positive reaction from the employees. I think that has at least 
by some of the messages I am getting back that it certainly has 
been a positive in some of the comments I have heard from 
people in the facilities. I think that has been very positive.
    We have asked each line of business down to the regional 
level to meet with their employees and to develop their own 
individual action plans because it was different from line of 
business to line of business. They have done that.
    The whole issue of sexual harassment, which has been an 
issue of the agency, the Accountability Board has, I think, 
worked very hard and very effectively. We are seeing some 
improvements in that area. It is not an issue that I think, 
though, is solved and certainly for a new administrator coming 
in, I think focusing on continuing those issues or continuing 
those initiatives as well as identifying others will be very 
important.
    Employee surveys are done generally every three years. We 
have tried to sort of reach out even between those three years 
to try to identify individual issues and reach out to 
employees, particularly around the core compensation, some with 
some degree of success and others probably not as successful as 
we would like.
    Mr. Rogers. Mr. Mead, do you have any thoughts?
    Mr. Mead. Just our own observations. I think the way 
personnel reform has been implemented is an area that is 
responsible for some of the results that you are describing. 
The introduction of a mechanism where you can negotiate as to 
your pay and the relative success of some groups in negotiating 
for pay and the relative non-success of others, I think, is 
bound to have some influence on employee morale. So that would 
be an area that I am sure the next administrator will want to 
get Ms. Garvey's counsel on, but it would be one that I would 
pay a lot of attention to.
    I think also a factor influencing morale at FAA is the 
publicity. It is a very high profile agency, you have an 
accident, a tragedy, a 9/11, and the media tends to focus not 
so much on the successes of FAA and the day-to-day performance 
of the system, which is extraordinary, but they tend to focus 
in like a laser on the things that go wrong and the employees, 
the 50,000 employees of FAA probably see that.

                       MANAGEMENT ACCOUNTABILITY

    Mr. Rogers. Is the agency doing a better job of holding its 
executives and managers accountable for the results of their 
programs?
    Mr. Mead. I believe on the capacity front, what we went 
through with this committee last year, I think the question is 
unambiguously yes. I do not think the agency is doing a good 
enough job in holding its managers accountable for cost control 
across the board.
    Mr. Rogers. Ms. Garvey, what do you think? Are there 
examples you could give us that demonstrate increased 
accountability?
    Ms. Garvey. Well, I will focus on the issues, the first 
issue that Ken identified. I think certainly some of the 
initiatives that we had last year, working with this committee, 
we were very focused on getting those choke points down and we 
were very focused on developing the ops evolution plan. Monty 
Belger meets every Monday for three hours with all the senior 
executives on the ops evolution plan. We are very focused on 
that. And I think that is making a difference. I think that is 
paying off.
    I will tell you that I think, and I did not do a good job 
answering this question when you asked it last year and I have 
thought many evenings at two in the morning, I have thought of 
better answers for this. I think we have made some key changes 
in the five years at a senior management level. If you look at 
changes that have been made in the last five years of people in 
key programs, there are a number of people who are not there, 
who are no longer in those positions, or who have left the 
agency. Perhaps it was not done in a very public way and there 
may be some value to doing that and perhaps that is something 
to think about and to consider. I think we have made a number 
of very significant management changes for people who were not 
working out, for whatever reason, sometimes because it just was 
the wrong fit and sometimes because they just were not up to 
the job. So I think in large part--in fact, looking at Mr. 
Mead's testimony and looking at the programs that he has said 
need a careful watch, he is right and we are paying attention. 
Those five programs are critical and important.

                           MAJOR ACQUISITIONS

    But I think it is also important to note there are about 60 
programs in the FAA and I would venture to say, as someone 
pointed out to me the other day, you know, at one time it may 
have been a much larger list. And I would say even on those top 
five, we are pretty much on top of WAAS, for example, and I am 
certainly holding a great deal of optimism for some very good 
reasons around STARS. We are going to make that, and we are 
going to make the 20008, in my view.

        STANDARD TERMINAL AUTOMATION REPLACEMENT SYSTEM (STARS)

    Mr. Rogers. Well, I want to ask you about STARS. Over the 
last couple of years, you have told us that the STARS 
acquisition program had turned the corner, that the major 
problems are behind us, yet are there not a lot of open trouble 
reports remaining to be fixed?
    Ms. Garvey. Well, I tell you, I do hold optimism for STARS 
and I do for several reasons. One is we have not missed a time 
milestone that we set for ourselves in the last two years, and 
I think that is significant. Secondly, while there are open 
issues, they are not insurmountable. It is very typical of a 
program like this as you are getting down to deal with those. 
We had a briefing the week before last of the cluster and the 
number that Mr. Mead had in his testimony is higher than what I 
have seen in the last week, but those are very solvable issues.
    We have one critical issue left and the critical issue at 
least in all our views is not a show stopper. We are going to 
be in Memphis, which is, I think, next week, the early display 
capabilities, that is six weeks early. We are moving to Bradley 
very soon after that. That is going to be eight weeks early. I 
am confident that we are going to meet the November date in 
Philadelphia.
    In terms of deployment--and by the way, I want to give the 
Professional Airways System Specialists (PASS) workforce a lot 
of credit on this. We thought--and this is a good example of 
cost control. We looked at the deployment schedule and we said 
this is very aggressive. And we were frankly panicked, we 
thought we were going to need about 100 people to do what we 
needed to do to get those 18 sites out.
    PASS came forward, Mike Fanfalone and his team, and said we 
have some ideas for training that we can do within the existing 
cadre of people we have. That was great leadership on their 
part and that was a real recognition, I thought, of how we 
could contain some costs and a great example. So I am glad to 
have a chance to give them public kudos on that.
    I see absolutely no problem with the--I always hate to say 
absolutely, but I certainly see no problems with STARS, 
particularly through 2005. I think between 2005 we have to 
watch very carefully the integration of the ASR-11 with STARS 
and that is an issue, so that has been raised internally as an 
issue, but the testing that was done in early March for ASR-11 
has been very promising. More to do. And there are some options 
to work around it if ASR-11 proves to be a factor.
    So I expect Philadelphia at the time table that we had 
talked about, I believe it was November. Memphis next week, 
Bradley the week after for the early display. And I am 
optimistic about STARS. Issues left? Absolutely. Show stoppers? 
None that we can see.

                  STARS PROBLEM TROUBLE REPORTS (PTRS)

    Mr. Rogers. Mr. Mead, you have been somewhat critical. Are 
you prepared to explain that to us?
    Mr. Mead. Yes, the number of--well, first of all, this is a 
program that has gone from about 8 or 900 million dollars to--
well, 1.7 billion now. I guarantee you that this program will 
cost more than 1.7 billion dollars by the time all is said and 
done.
    The 2005 date is pretty important because that is how far 
their cost estimates go out to. They need to update their cost 
estimates for the second five years. Another reason I am not 
quite as sanguine as Ms. Garvey on this is because the number 
of trouble reports, the critical trouble reports, has stayed 
relatively constant. They solve one problem and then there is 
another one. And November for an operational date in 
Philadelphia is right around the corner. So we will see.
    Mr. Rogers. Well, in your prepared testimony, you say the 
number of reports deemed critical has increased from 175 in 
September last year to 258 now.
    Mr. Mead. Yes.
    Mr. Rogers. ``And that puts at risk installation at the 
first site in November '02, Philadelphia because all the 
critical trouble reports must first be corrected.''
    Mr. Mead. Yes, sir. FAA would not let something like this 
go live or prime time with critical trouble reports pending.
    Mr. Rogers. Well, there is no way they can make that, then.
    Mr. Mead. I think it is going to be tough. And most of the 
175, many of those are different from the 258. I mean, I am not 
a software expert, but I think that is a lot. I have seen over 
the years any number of FAA's programs that are software 
intensive, and when you get down the road and you see trouble 
reports like this and you are only a few months away from the 
due date, you usually have slippage.
    And remember the Philadelphia site will be the first live 
site for full STARS. These other facilities are baby STARS, but 
this is the big kahuna, so to speak.
    Mr. Rogers. Ms. Garvey, would you care to respond?
    Ms. Garvey. Thank you, Mr. Chairman. Well, one, I would 
like to suggest that perhaps Mr. Mead and I take a look at 
these together because we have a much smaller number. Again, as 
I would say, I do not want to give you the number, but it is 
less than 50, is the number that I was briefed on last week. We 
meet on STARS every couple of weeks. So let us take a look at 
it together. But I really, again, have a high degree of 
confidence that we will make that November date, and I would 
like to take an IOU for both of us to take a look at that 
together and perhaps get back to the committee. But we are not 
seeing that same level of criticality.
    [The information follows:]

    We are currently entering the crtitical Operational Test 
and Evaluation phase of Full STARS 2 (FS-2+) with no open 
critical problem trouble reports (PTRs) carried over from 
developmental testing. We do expect some additioanl PTRs out of 
this last phase of extensive testing. Once the remaining PTRs 
have been identified, we will determined their criticality, and 
either correct any critical PTRs or develop operational/
procedural workarounds as appropriate prior to going 
operational at Philadelphia in November.
    The number of PTRs stated by the IG appear to be total PTR 
numbers for all STARS builds, including those that have been 
fixed and are awaiting verification. Most PTRs are low-level 
risks; only a very small number are considered critical, i.e., 
showstoppers. By focusing on the critical PTRs, we have been 
able to hit our milestone targets and stay on schedule for 
Philadelphia.

                  ADVANCED SURVEILLANCE RADAR (ASR-11)

    Mr. Rogers. Well, as has been said, STARS is dependent on 
the new ARS-11 digital radar, is it not?
    And last year's DOD testing of that system showed some very 
serious problems. Yet the '03 budget proposes funding to 
continue procuring at $123 million. Are you confident that 
those problems have been resolved enough to continue the 
procurement?
    Ms. Garvey. Well, I know, Mr. Chairman, that testing was 
done the first couple of weeks of March, and I have not been 
fully briefed on it yet. I certainly do not want to express 
confidence when I am not fully briefed. I understand 
preliminarily that the results were pretty good, that people 
felt pretty comfortable with it. Testing is going on, but I 
would like the benefit of the full briefing. Again, what we 
have been doing is looking at if the ASR-11 is a problem. I 
certainly hope that it will not be, but if it is a problem, and 
it is the years from 2005 to 2008, what are some options? And 
the engineers have come up with some options that would still 
allow us to meet the 2008 deadline that we have set for 
ourselves.
    Mr. Rogers. Well, we have already provided money to procure 
46 of those systems. Have any of them been put in service yet?
    Ms. Garvey. I would have to get back on that, Mr. Chairman. 
I apologize for that.
    [The information follows:]

    The Airport Surveillance Radar (ASR-11) program is planning 
to continue operational testing through September 2002 at 
Stockton, CA. In addition to the test asset in Stockton, the 
FAA has procured one training system and 22 production systems 
for operational facilities. Delivery of the 22 production 
systems is expected to begin in April 2002. The first of the 
production systems to be delivered is currently planned to go 
operational by the end of calendar year 2002 to support 
Philadelphia STARS.

    Mr. Rogers. Mr. Mead, do you have any thoughts about this?
    Mr. Mead. Yes. I think the radar is pretty critical. As the 
system is currently designed right now, it requires that to be 
an interface with that radar and that is where there are 
problems. So, yes. Can I just say that you have internal 
problems here, you have internal software issues that you are 
trying to resolve that are internal to the STARS system and 
then we have this radar which is a separate system where there 
are issues and I think when you add it all up that my level of 
confidence is not as high right now as Ms. Garvey's.
    Mr. Rogers. In what?
    Mr. Mead. In STARS, fielding it--well, I know the cost 
estimate is going to go over $1.7 billion. In terms of their 
schedule, meeting Philadelphia, I think that is very 
optimistic. 2010, that is ten years away. I guess anything is 
doable in ten years if you put your mind to it. It seems like a 
long time, though, because a lot of these facilities around the 
country, Mr. Chairman, were counting on this at a much earlier 
date.
    Ms. Garvey. Mr. Chairman, I would like to come back in 
November for the STARS opening, if I could.
    Mr. Rogers. That is confidence. And I am sure you will be 
invited.
    Mr. Mead. If we turn out to be wrong on this, I will be 
glad to step right up to the plate and say we were wrong.

                 WIDE AREA AUGUMENTATION SYSTEM (WAAS)

    Mr. Rogers. Well, we will give you that chance.
    Now, let me go to the WAAS. Ms. Garvey, a huge promotion by 
the commercial airlines, then they practically abandoned the 
program two years ago. We now have a WAAS program with a price 
tag approaching $3 billion and very little support among the 
major airlines. Instead, we are told it is primarily to benefit 
general aviation. How far should we go with continued 
development of WAAS, given the lack of economic cost benefit?
    Ms. Garvey. Well, Mr. Chairman, actually, I think it was 
reported in the Post this morning, Mr. Mead has brought the 
article with him, but actually pretty good news in the Post 
which says--the headline is ``Airports to get guidance systems 
early'', so we are able to put in place new procedures to allow 
aircraft to land more safely at 3500--I guess it is 2500 plus 
small airports. So that is very, very good news. Now, here is 
the significance in my view of that. What we are prepared--what 
we are announcing here and the procedure that is in place is 
actually a procedure that we did not anticipate getting to 
until 2005. This allows the commissioning that we were talking 
about for 2003, at the end of 2003, to actually be much more 
robust. So I do think that it is a fair question.
    First, we need the money in next year's budget because we 
have to get the extended coverage and that would allow for that 
and that is really critical, but I think you are absolutely 
right, beyond that, with this kind of an announcement, I think 
this is really a fidelity and a precision that I think is 
really quite, quite promising, quite significant, and quite--
really more than adequate. So this is an important 
announcement, it is a procedure that cuts off two years of 
developmental time, and I think for the long term that is good 
news. And it does provide the safety for those small airports, 
precision approach for those very small airports where safety 
really has been an issue. Ken, I do not know if you would agree 
with that.
    Mr. Mead. I think you are right. There is very little in 
this for commercial aviation. The big value now is safety for 
general aviation. It allows something a lot better than what 
they had, providing they equip, which is a big open question, 
because very few of them have equipped to date with onboard 
avionics.
    The issue raised in our testimony, I think, by the article 
today is should you push this to get category 1 precision 
landing capability. I think in view of all the problems they 
have had and the delays, the cost increases and so forth, that 
what they have right now, fielding that makes sense. It will 
save money. Let us wait until another day and see if we have to 
do further development on this thing.

                        FY 2003 FUNDING FOR WAAS

    Mr. Rogers. So what are you suggesting for fiscal '03?
    Mr. Mead. I am saying fiscal '03, I do not think--I do not 
know what the exact request is for WAAS, I am just saying that 
for fiscal '03 and beyond, let us not go forward with a 
category 1 precision landing capability. And I think this 
article here which talks about fielding this two years early is 
talking about fielding it two years early without the category 
1 precision landing capability.
    Ms. Garvey. Right. And I would only add that the 2003 
budget is still important. I would say that this is a success 
story because it gives a kind of precision beyond what we 
thought we would have in 2003. Do we need to go full category 
1? I think Mr. Mead is right. We would be in agreement with 
that, you do not need to, but the 2003 budget, to get the kind 
of coverage and the redundancy in the system that we need, we 
think is still important. We can certainly continue to discuss 
that with you.
    Mr. Rogers. And that is how much?
    Ms. Garvey. I think it is $113 million, is it?
    Mr. Rogers. What would that get us? That would not get us 
into benefitting the commercial airlines?
    Ms. Garvey. Well, I will say, the only caveat I would add 
to that is regional carriers, which are growing rapidly. And, 
in fact, if you look at O'Hare, for example, we are seeing a 20 
percent increase in travel in O'Hare, and it is because they 
are shifting to more regional aircraft, but regional carriers 
which are growing rapidly will benefit from the WAAS procedure. 
So I would say that while when we first started talking about 
WAAS it may have been more true for sort of regular general 
aviation, I would say for regional carriers, this is a 
significant both safety and economic benefit for them.
    Mr. Mead. I would like to take a look at the $113 million, 
Mr. Chairman, to see if we can take that apart a bit because if 
there are components that are tied to the precision 1 
capability that is now being put on the back burner, the 
request could probably be reduced.
    Mr. Rogers. Well, I would appreciate that.
    Ms. Garvey. Sure. I understand.
    Mr. Rogers. As you know, we are going to be hard pressed 
with all of the demands we have. Any penny we can save anywhere 
is going to help provide operational monies for FAA, because 
that is where the rub is going to be. Thank you.

                      EXPLOSIVE DETECTION SYSTEMS

    Now, we touched on this earlier, but let me deal with it 
quickly. TSA has asked for no money for explosive detection 
systems at airports, zero. Has TSA talked to you about their 
funding needs, particularly allocating AIP resources toward 
that effort?
    Ms. Garvey. Mr. Chairman, TSA has talked to us about the 
money that is in our budget. Just by virtue of when TSA was 
being set up, it was appropriated through our budget. They will 
make the decisions on the EDSs, but we would use that money 
that would eventually--it would come out of the line item that 
we would have. It is really TSA's responsibility and call and 
ultimately I would see all of that money obviously being part 
of TSA's budget.
    We have not talked specifically about some of the issues 
that have been raised here today. I know those are certainly 
issues that both the Secretary and the Under Secretary know 
need to be discussed. I would suspect as people are debating 
and considering the supplemental budget some of those issues 
will be addressed through the supplemental request, how are we 
going to pay for some of these--what we see as enormous costs 
associated with the technology.
    Mr. Rogers. Well, they are aware that there is no money 
being asked, are they not?
    Ms. Garvey. Mr. Chairman, but I believe what they are doing 
is working on the supplemental considerations.

                     USE OF AIP FUNDS FOR SECURITY

    Mr. Rogers. I surely hope so, because there is nothing here 
now. And I hope OMB is paying attention, because we just do not 
have the money.
    And if we are steering a big percentage of the AIP program 
toward security needs, are we not changing the fundamental 
purpose of that program?
    Ms. Garvey. That is certainly a good point. I know airports 
have a lot of capacity needs and a lot of safety needs, sort of 
what I would think of as the kind of classic safety programs 
that they want to fund as well that are constraints on budgets.
    Mr. Rogers. Well, it just seems to me that since TSA has 
taken over security responsibilities, that they should be the 
ones to fund the EDS machines which, by anybody's definition, 
are for security, rather than dip into the AIP program. Would 
you not agree to that?
    Ms. Garvey. Certainly from the airports' perspective, you 
would like to see government paying for that, or TSA paying for 
that, yes.
    Mr. Rogers. Mr. Sabo, do you have anything?

                 WIDE AREA AUGUMENTATION SYSTEM (WAAS)

    Mr. Sabo. Back to the WAAS program, what should be the 
backup for that program? And what is the cost of that?
    Ms. Garvey. Well, Congressman, we have actually supported 
the notion that there has to be a backup. What that backup is, 
whether it is LORAN-C, whether it is a combination, that we are 
not describing, but we absolutely believe there should be a 
backup. I do not have that figure readily at my fingertips 
here, but I will certainly get what we would estimate to be 
those potentials. I think particularly after September 11 I 
think there is even more of a concern of having the kind of 
backup systems that we think we need to build in for security 
purposes.
    [The information follows:]

    The FAA and other modes of transportation are currently 
assessing the radionavigation capabilities to identify the most 
appropriate mix of systems for the next 10 years and beyond to 
provide a minimal operation capability in the event of a WAAS 
failure. This will include completing the evaluation of the 
long-term need for continuation of Loran-C in conjunction with 
other technologies and its possible use as a backup to WAAS. It 
is premature at this time to provide the cost of this backup 
capability; however, this cost will be less than is necessary 
to sustain the current ground infrastructure since the backup 
will be a subset of the current ground-based navigation 
capabilities.

    Mr. Mead. That is an interesting historical point. You have 
been on this committee long enough you remember the Microwave 
Landing System. That was going to be a stand-alone, exclusive 
system, a way of navigation and so forth and we were going to 
be able to do away with all the ground systems. When WAAS was 
first launched, that was the successor in interest to the 
Microwave Landing System. That was one of the principal 
justifications, so that we would not have the cost of the 
ground-based systems any more. And for years, there was 
argument would this be the exclusive means of navigation. That 
has now been abandoned as a result of a number of different 
studies and we need a backup. We do not yet have an FAA 
proposal for what that backup will be, and I would say that it 
would probably take six or seven months to formulate a credible 
set of recommendations to you, sir.

                          AVIATION TRUST FUND

    Mr. Sabo. Looking long term, Ms. Garvey, how do we deal 
with the aviation trust fund? It is a pretense in that it pays 
for FAA operations, when you have a $4 billion gap. We are 
having the same problem in the highway fund where as cars use 
alterative fuels and hopefully become more efficient, receipts 
are likely to stay down. The projections here are 20 percent 
down, which is just a significant cut. Are there alternatives? 
How do we deal with that in the future? Or do you not want to 
make a recommendation at this point?
    Ms. Garvey. Actually, I wish I did have a recommendation to 
make. It is a very complex and, I think, very thorny issue. I 
mean, from the FAA's perspective, and we really are focused on 
this, as I think everyone here has indicated, we have to do 
what we can to control the costs and clearly we must do that 
and we must do that as well as we possibly can. I would say 
that same challenge probably exists for every agency as well 
because, you are right, it is not just the FAA. I think there 
is some encouragement, although the gap is not going to close, 
but I think there is some encouragement in seeing that the 
traffic is going to come back so the resources that we are 
seeing at such low levels or at much lower levels now we 
certainly do not anticipate staying there, but clearly it will 
not be enough to close the gap. So from FAA's perspective, we 
have to control the costs. I would certainly suppose that as 
the AIR 21 gets debated once again, the Congress will look at 
exactly where we are with revenues, where we are with operating 
costs, where we are with the cost controls and re-visit that 
whole issue.
    Mr. Sabo. I did not observe that happening as we passed 
TSA.
    Mr. Mead. Can I offer just a thought?
    Mr. Sabo. Okay.
    Mr. Mead. I know there is a policy, but I have some trouble 
with taking this out on the backs of the people. The way this 
scheme works is you do AIP, the airport grant program, up to a 
certain level, then you do the facilities and equipment, the 
capital account, up to a certain statutorily prescribed level, 
and the leftover goes to operations, which is the people: the 
inspectors, the air traffic controllers and so forth. And this 
committee as a practical matter, you do not have the 
flexibility to deal with the F&E account in gross numbers. You 
have the flexibility to deal within that number, but you have 
to go to that number. The only flexibility you really have left 
is with the operations account. And you are going to have to 
make some tradeoffs when you have all these other demands 
coming from the other agencies.
    So I am hoping that this experience this year with FAA is 
instructive of what we can do in the next re-authorization.
    Mr. Sabo. I thank you.

                            CLOSIING REMARKS

    Mr. Rogers. Thank you, Mr. Sabo.
    I think we can ask the rest of the questions that I have 
for the record and let you respond in due course of time for 
the record, so that we can adjourn this hearing, which is an 
hour or so over time.
    Thank you so much for your testimony and for spending this 
extra lunch hour with us. I do not know of an agency in the 
government that has had a bigger challenge than you have had, 
in the last six months especially, but pretty much during your 
tenure, this has been a dynamic time over which you have 
presided and you have done it in good cheer and with a pleasant 
atmosphere. And when all else was crashing down, you were there 
in charge. And the nation will always be thankful that you 
served in this terrible time and we thank you so much on behalf 
of all the people.
    Ms. Garvey. Thank you very much, Mr. Chairman.
    Mr. Rogers. Thank you, Mr. Mead.
    Mr. Mead. Thank you.
    Mr. Rogers. The hearing is adjourned.

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                          Thursday, April 11, 2002.

                  NATIONAL TRANSPORTATION SAFETY BOARD

                                WITNESS

MARION C. BLAKEY, CHAIRMAN NATIONAL TRANSPORTATION SAFETY BOARD

                   Chairman Rogers Opening Statement

    Mr. Rogers. Ms. Marion Blakey, welcome, Chairman of the 
National Transportation Safety Board. We understand that you 
have a throat condition that may hamper your questions. We will 
try to be frugal with our words and invite you to do the same, 
and if you have difficulty during the proceeding, just let us 
know.
    Ms. Blakey. Thank you.
    Mr. Rogers. The president's budget requests $73.8 million 
in Fiscal 2003, an increase of $5.8 million over the 2002 
enacted level, but it includes $3.4 million for employee 
pension and benefit costs that were previously covered by the 
OPM. Adjusting for that, the real increase is $2.4 million, 
three percent above the enacted level.
    The primary mission of the Safety Board is to investigate 
transportation accidents and dangerous incidents and to develop 
safety recommendations based on your investigations and studies 
to prevent future accidents. In doing this, your investigators 
must focus on all modes of transportation--aviation, rail, 
highways, marine, pipeline, hazardous materials--a daunting 
task and one that I imagine is particularly challenging when a 
catastrophic accident takes place.
    Thankfully, we have been lucky this year. No major aviation 
accidents, a few major derailments of toxic materials or toxic 
spills, and no significant marine accidents after 9/11. Let us 
hope the rest of the year is equally uneventful.
    Today, we will discuss your 2003 budget request and the 
status of some of your major investigations. We welcome you to 
your first hearing before this Subcommittee. We will enter your 
written testimony into the record automatically, and we would 
invite you in a minute to summarize your testimony. First, 
though, let me yield to my colleague from Minnesota, Mr. Sabo, 
for any opening comments he might like to make.
    Mr. Sabo. Thank you, Mr. Chairman. Ms. Blakey, I simply 
welcome you to the Committee and look forward to hearing your 
comments.
    Ms. Blakey. Thank you.
    Mr. Rogers. You are welcome to proceed.

                        Blakey Opening Statement

    Ms. Blakey. Thank you very much and good morning, Chairman 
Rogers. I appreciate the members of this Subcommittee having me 
here today.
    It is truly an honor to be at the helm of an agency with 
such principal goals and a critical mission. During the past 
six months, I have had the opportunity to witness the energy, 
dedication, and the skill of the employees at the NTSB, who 
strive each and every day to protect and advance public safety 
in all modes of transportation. It is an exceptional group of 
professionals, and I am very proud to represent them here 
today.
    As chairman, it is my responsibility to advance the board's 
critical mission, a mission you are all very familiar with. By 
investigating accidents, issuing safety recommendations, and 
coordinating assistance to the victims and their families of 
transportation disasters, we at the Safety Board seek to ensure 
the safety of our fellow citizens as they travel not only 
throughout this country but throughout the globe.
    Our goals, however, as you well know, cannot be achieved 
alone. This Subcommittee's help and support has made it 
possible for the NTSB to continue its important work. You have 
repeatedly supported the Safety Board's appropriation requests, 
including supplemental funding for the agency's activities 
following the September 11 tragedies as well as for EgyptAir, 
Alaska Air, and other recoveries. In the aftermath of September 
11, I would like to particularly note that over 60 Safety Board 
employees worked around the clock in Virginia, Pennsylvania, 
New York, and at our headquarters here in Washington, assisting 
in aircraft identification, searching for and analyzing the 
flight recorders, and working with the air carriers to support 
the families of the victims. As you would expect, our employees 
undertook this very disheartening work with their traditional 
excellence. I want to take this opportunity, therefore, to 
publicly commend the employees of the NTSB for their 
accomplishments in this.

                            2001 ACTIVITIES

    Mr. Chairman, before I address our appropriation request, 
which is very straightforward, I would like to just briefly 
update you for a moment on our achievements this past year as 
well as some of our future goals. As you know, the Board's 
safety recommendations are its most important product. It is a 
proven fact, adopting our safety recommendations does save 
lives. Unfortunately, many of the safety recommendations, 
including some of our most important, have yet to be adopted. 
For this reason, I recently began meeting with each of the 
Department of Transportation's modal administrators as well as 
with Secretary Mineta and Deputy Secretary Michael Jackson to 
discuss this. Our goal is to work closely together to close 
satisfactorily many open recommendations, including as many as 
possible of those on our Most Wanted list. We at the Board 
continue to believe that the NTSB's Most Wanted list contains 
recommendations that possess the greatest potential to save 
lives.
    The Most Wanted list, as you know, addresses many issues. 
It includes the prevention of runway incursions, child occupant 
protection in all modes of transportation, and commercial truck 
and bus safety, just to name several. We are also focusing our 
efforts on advocacy and outreach activities. We are working 
with the states, consumer groups, and industry organizations to 
increase support for these recommendations and to reduce the 
time it takes--currently it is about five years on average--to 
implement our proposed safety recommendations.
    In addition to promoting action on our current 
recommendations, the Board has completed several important 
accident investigations this past year, including the 
investigation of EgyptAir Flight 990, the motor coach accident 
that occurred near New Orleans, Louisiana, the grade-crossing 
accident that occurred in Bourbonnais, Illinois, and the 
sinking of an amphibious passenger vessel in Arkansas, the MISS 
MAJESTIC.
    We currently have under way some very important 
investigations: six major aviation accidents, including Alaska 
Airlines Flight 261 and American Airlines Flight 587; seven 
major highway accidents, including the recent accident that 
occurred on the Washington Beltway and just this past week the 
day care van accident in Memphis, Tennessee. The Beltway 
accident I refer to killed five people, including a young woman 
who was talking on a cell phone on the Beltway just taking a 
new vehicle home from the dealer. There are five major marine 
accidents, including the collision of the nuclear attack 
submarine, USS GREENEVILLE, under investigation, and we also 
have several others that I could mention that are important in 
that area; three major pipeline accidents, including the 
rupture of a pipeline in Bellingham, Washington; and nine major 
railroad accidents, including the ongoing investigation into 
the tunnel fire in Baltimore.

                        REAUTHORIZATION PROPOSAL

    Recently, the Board also submitted to Congress its 
reauthorization proposal. This proposal requests a budget level 
capable of launching and sustaining the NTSB's training academy 
in Loudoun County, Virginia, which is expected to open in the 
fall of 2003.
    The NTSB's staff is the best in the world and will remain 
so in accident investigation as long as we provide them with 
the tools and training necessary to keep them on the cutting 
edge of investigative technology and performance. The training 
academy, which I must note has been well supported by this 
Subcommittee, will help accomplish this goal. The academy, 
however, will do much more than train our own staff. We are 
looking forward to developing a program that will advance 
transportation safety worldwide. With our increasingly global 
transportation system, we have an obligation to our own 
citizens, as well as to those abroad and to our citizens as 
they travel abroad, to help ensure that the same high standards 
and effective techniques are employed no matter where 
transportation disasters occur in the world. Our academy also 
offers an opportunity to train first responders to take 
appropriate actions so that the subsequent accident 
investigations can proceed smoothly and promptly. And we are 
receiving more and more requests, I am heartened to say, from 
industry, state government, and other government agencies 
abroad for training on the appropriate measures to assist 
victims and their families, and this training is also occurring 
at our academy.
    The academy, as you know, will also house the 
reconstruction of TWA flight 800. This accident reconstruction 
will provide state-of-the-art classroom opportunities to really 
train in a situation that we believe will be important and 
helpful. We are going to have classrooms, lab space, accident 
investigations, a simulations court, meeting rooms, and teacher 
and student work areas. We think the NTSB Academy is going to 
be an important step forward.

                         Appropriation Request

    Now, let me turn my attention to the reason we are all here 
today, our appropriations request. To fulfill our critical 
mission, the NTSB requests $73.8 million and 432 full-time 
equivalent positions for FY 2003. This figure includes $3.4 
million for employee pension and benefit costs that had 
previously been covered by the Office of Personnel Management 
in other years. The request also includes $390,000 of 
additional monies for the training academy.
    The Safety Board provides a unique and substantial benefit 
to the American people with minimum financial outlay. Our goal 
is to ensure that the Safety Board's vital transportation 
safety programs are adequately funded, staffed, and managed in 
the most effective and efficient manner possible. Your 
continued support of the Board will help not only achieve this 
goal but will also help us fulfill this critical public safety 
mission. Thank you, and I look forward to responding to your 
questions.

                       President's Budget Request

    Mr. Rogers. Well, thank you very much for your testimony. 
According to your letter to the OMB when you made your request 
of them, your ``bare bones'' number was $74.7 million without 
the employee pension and the retirement costs previously funded 
by OPM. If the president's request of $73.8 million is enacted, 
will you have to curtail any activities?
    Ms. Blakey. As you can appreciate, I have looked at that 
pretty carefully because I was pleased in response to our OMB 
appeal that they did come forward with additional funds. So as 
you know, the delta between what we ask in that appeal and what 
we were given is about $900,000. In looking at what that 
implies for us, I think it goes to this. I would certainly like 
to see the Safety Board not only do what I believe we will do 
well within the budget request we have in front of you, which 
is fulfill the accident investigation process well, come 
forward with safety recommendations, and begin our academy. 
That is an important piece of work that I think I am confident 
we can do within our budget request.
    [The information follows:]

    If the President's request of $73.8 million is enacted, the 
biggest impact will be on the Board's staffing level. The 
Board's current appropraition would allow us to fund 
approximately 443 FTEs, while the President's request would 
fund approximately 432 FTEs. In anticipation of this lower 
staffing level in FY 2003, we have slowed down our hiring to 
ensure that we are better able to manage within the lower 
resource level.
    This lower FTE level translates into delays in completing 
accident reports as NTSB investigative and technical staff 
continue to work on multiple investigations.

    Mr. Rogers. What will you have to curtail to get down below 
the number?
    Ms. Blakey. It is a question of how quickly we can bring 
our reports forward. Of course, I would like to see us bring 
our safety recommendations and our reports to the forefront 
more quickly. And we do have a staff that does not have as much 
bench as I would like. There are areas where if we had more 
expertise on staff, we could allocate it across more 
investigations, and that is really the difference that this 
makes. In the future, as the academy grows, we will certainly 
need more support there also, but that does not have to be 
undertaken this year.
    [The information follows:]

    Mr. Rogers. Do you believe you have enough funding to cover 
all your accident investigation costs, improve our financial 
management services, and to adequately fund the new training 
academy?
    Answer. As our request and subsequent appeal letter to OMB 
indicated, the Safety Board has some additional funding 
requirements that we believe are important to the Board's 
transportation safety mission, including further resources to 
cover our accident investigation costs, as well as to improve 
our financial management services and to fund the training 
academy. Obviously, if the President's request of $73.8 million 
is enacted, we will have to defer some of these items so that 
we can manage within the monies provided.

                                STAFFING

    Mr. Rogers. In Fiscal 2002, we gave you $68 million, and 
you planned to use some of those monies to hire 25 new staff. 
How many of those slots have been filled so far?
    Ms. Blakey. As I saw the plan for 2002, we were allocated 
up to 443 full-time equivalents, I believe, and we are at 432 
right now. That changes, of course, on a given day because we 
are in the process of doing some hiring, but that is where we 
are. The issue, of course, is that we will not be able to 
sustain 443 under the current request, so we will go slow, and 
attrition will probably mean that we stay close to that 430, 
432 figure.
    [The information follows:]

    Prior to the President's decision regarding the Board's FY 
2003 funding level, we anticipated that our FY 2002 staffing 
level would be 443 FTEs, which is 25 FTEs more that FY 2001. 
However, in anticipation of a 432 FTE level FY 2003, we have 
slowed down our FY 2002 hiring to ensure that we are better 
able to manage with the lower resource level. We now project 
our FY 2002 staffing level to be closer to the 432 FTE level.

    Mr. Rogers. The president's budget request does not carry 
forward these positions. If we approve the president's numbers, 
will you be required to lay off any recently hired staff?
    Ms. Blakey. No, because we are going to be careful in our 
hiring not to get ourselves into that predicament. What we 
intend to do is let attrition take care of some of that, and as 
we hire we are going to hire for the most important positions. 
I would like to see us increase our expertise in some of the 
high-technology areas, such as composite materials, that we 
really do need to develop more strength in, and so we are just 
going to look judiciously at where we need to do the hiring and 
be careful.
    [The information follows:]

    No. In anticipation of this lower staffing level in FY 
2003, we have slowed down our FY 2002 hiring to ensure that we 
are better able to manage within the lower resource level.

                            TRAINING ACADEMY

    Mr. Rogers. Let me deal quickly with the training academy 
that you have talked about some. Where are you? Have you 
signed, for example, the memorandum of understanding with 
George Washington University yet?
    Ms. Blakey. My understanding is, yes, we have our agreement 
set up with them. We have the lease in place, and actually we 
have broken ground on the academy building, so it is moving 
forward well. We expect to stay on track on that schedule.
    [The information follows:]

    The National Transportation Safety Board signed a 20-year 
lease with The George Washington University (GWU) on July 12, 
2001, for the construction of a 72,000-square-foot academy 
building on its Loudoun County, Virginia, campus. Construction 
began in December 2001 and the facility is expected to be 
complete in late summer/early fall 2003.
    Significant time is being invested in oversight of the 
design and construction of the building, establishing operating 
policies and procedures and developing budget planning 
protocols. Additionally, we are working to identify and develop 
core investigative courses to be offered. Once the core 
curriculum is developed we will work to identify collaborative 
class projects with outside resources, such as GWU and other 
educational and research institutions, to enhance our training 
efforts. We have begun conversations with GWU to explore 
opportunities, but no MOU has been signed to formalize such an 
effort.

    Mr. Rogers. So you are on track now on time, within budget, 
and so forth?
    Ms. Blakey. Exactly.
    [The information follows:]

    The construction of the academy is on schedule and within 
budget. No significant problems have been encountered.

    Mr. Rogers. Now, the President's budget request includes 
$2.6 million for the academy, and yet your authorization 
proposal requests $3.4 million. If we fund the academy at the 
President's number, how would you need to adjust the academy's 
program in fiscal year 2003? How would that change what you are 
doing?
    Ms. Blakey. Basically, we have about $390,000 additional 
built into the 2003 President's budget. That will enable us to 
stay on track in terms of the building construction. We have 
five staff members currently on board, and that will enable us 
to launch the curriculum that we are planning currently. What, 
of course, we would like to do is move forward as quickly as 
possible with additional instructors, outfitting our labs, 
doing a number of the things that will make it a vibrant 
academy, but the speed at which we do that can be adjusted.
    [The information follows:]

    The additional money requested in our authorization 
proposal would have funded additional staff and start-up funds 
for the academy. If we are funded at the President's requested 
level, the academy will move forward, but at a slower place.
    Mr. Rogers. Your testimony indicates that you currently 
have five staff for the training academy. Since the academy 
will not be open until the fall of 2003, why are so many 
necessary now? What do they do?
    [The information follows:]
    There is a great deal of work in preparing for the opening 
of the academy. The current staff of five includes:
    <bullet> Director--Oversees the development of the academy 
by ensuring that NTSB responsibilities for the construction of 
the building are met, current educational programs continue, 
development of new courses proceeds, establishment of policies 
and procedures are in place and industry support for the 
academy is encouraged.
    <bullet> Assistant Director for Instruction: Identifies 
investigative education and training needs, and assists in the 
development and delivery of the curriculum to address those 
needs, in consultation with the Curriculum Development Advisory 
Group (CDAG). Also oversees the conduct of the Basic Aircraft 
Accident Investigation course and related courses.
    <bullet> Operations Manager: Oversees the construction of 
the NTSB Academy in accordance with contractual requirements, 
and is responsible for the research, design, selection and 
delivery of the building contents. This includes all 
telecommunication and electrical requirements, furniture, and 
layouts. Upon completion of the construction, will manage the 
building, implement an aggressive rental program for use of the 
classrooms and space, and manage the Academy's operating 
budget.
    <bullet> Communications Manager: Develops and implements a 
program to identify and distribute information regarding the 
academy and its courses.
    <bullet> Works with the CDAG to develop class schedules and 
summaries for publication, and with NTSB modal offices to 
identify target audiences and develop strategies to promote 
Academy programs. Develops brochures, publications, press 
releases and other materials to keep the public informed of 
current programs and research findings. Currently coordinates 
the Family Assistance and Aviation Industry Training courses.
    <bullet> Administrative Officer: Tracks and manages 
internal budget controls; organizes and manages student 
registration, day-to-day class schedule, correspondence, 
invitational travel and workflow. Provides general 
administrative support to the academy.
    Collectively, the academy staff is establishing operating 
policies and procedures, developing budget planning protocols 
and working to identify and develop core investigative courses.
    Additionally, the academy is continuing to offer 
established courses. Courses held in calendar year 2002 
include:
    <bullet> Aviation Industry Training Program, Feb. 27-28
    <bullet> Family Assistance During Transportation Disasters, 
April 9-11
    <bullet> Preparing for a Public Hearing, May 2
    Additional courses scheduled in 2002:
    <bullet> Family Assistance During Transportation Disasters, 
August 6-7 (for law enforcement)
    <bullet> Basic Aircraft Accident Investigation Class, 
September 11-27
    <bullet> Family Assistance During Transportation Disasters, 
December 10-12 (for Department of Defense officials)
    Mr. Rogers. Why are you requesting $800,000 above the 
budget request to continue these staff positions in 2003? Can't 
these positions be maintained in your $73.8 million request for 
2002?
    [The information follows:]
    The five academy staff positions are being absorbed within 
the NTSB's current appropriation level. In the absence of 
additional funding, this arrangement will continue.

    Mr. Rogers. Mr. Sabo.

                         DOT PERFORMANCE GOALS

    Mr. Sabo. Thank you, Mr. Chairman. Ms. Blakey, over the 
past five years NTSB has issued recommendations to DOT in areas 
of alcohol-related highway fatalities, runway incursions, seat 
belt use, and recreational boating fatalities. However, DOT has 
removed these performance goals in each of these areas from its 
2003 performance plan, saying that the individual modes will 
have these goals but not the central administration. Why that 
change, and isn't that a deemphasis on those rather important 
safety goals that have been set department-wide forward to, in 
effect, eliminate them from department-level goals and simply 
delegate them downward?
    Ms. Blakey. We were not asked to review, nor is it our 
responsibility, of course, to set the department's own 
performance goals. That is a decision they have to make 
internally. I would say this. I think there has been a failure 
in a number of areas you talked about. It is setting 
unrealistic goals, and I have never been a proponent of that 
because I do not think that the continued failure to make a 
goal necessarily enforces safety.
    Most of the areas that you spoke about, of course, are 
areas where the real action is at the state level. One of the 
things that I think is most important that we do, and it is one 
of the things that I am very committed to doing, is going out 
and meeting with the governors and our state legislators, 
talking about the importance of everything from requiring 
training in recreational boating to having our alcohol issues 
addressed, both in terms of repeat offenders and in terms of 
.08 and other measures that we think are truly important in 
terms of saving lives in that area. Seat belt use; this is an 
old chestnut that we need to get serious about the issue for 
the need for enforcement there. We need to really say that the 
seat belt programs should be a primary concern of every one of 
our 50 states. They make a huge difference.
    But that really is where most of the action on those kinds 
of recommendations occurs, and I think we all need to put our 
shoulder to the wheel at the state level.
    Mr. Sabo. Don't you have a bully pulpit if those are goals 
for the department rather than simply individual modes?
    Ms. Blakey. Absolutely. And I think that what I am going to 
seek to do is to work with the department as well as use our 
own bully pulpit on those very issues because you are quite 
right, and urging that they are a top national priority is 
something that we should do.
    [The information follows:]

                  Most Wanted List and Safety Studies

    Mr. Rogers. In the past, the Safety Board has helped this Committee 
focus our work by pointing out transportation issues that we should be 
concerned about. Runway incursions and inadequate staffing at small 
boat stations are examples that come to mind. Ms. Blakey, what 
transportation areas do you foresee may have serious safety problems 
that the Committee should begin to monitor now?
    [The information follows:]
    The issues on the Board's Most Wanted List are obvious issues for 
the committee's consideration. In addition, the Safety Board suggests 
that medical certification of commercial truck and bus drivers is an 
important issue for committee consideration. The Board's 
recommendations are the result of our investigation of a bus crash in 
New Orleans, Louisiana on May 9, 1999 in which 22 passengers were 
killed, the bus driver and 15 passengers received serious injuries, and 
5 passengers received minor injuries. Despite suffering from 
potentially incapacitating medical conditions, the bus driver was able 
to obtain a medical certificate by falsifying and omitting crucial 
health history information from the examination form. The Safety Board 
recommended that the Federal Motor Carrier Safety Administration 
develop a comprehensive medical oversight program for commercial 
interstate drivers.
    The Board also suggests that the committee consider airport rescue 
and fire-fighting levels, which were identified as a concern in the 
Little Rock, Arkansas accident investigation of the crash of American 
Airlines Flight 1420. The Board concluded that aircraft rescue and 
fire-fighting (ARFF) units may not be staffed at a level that enables 
ARFF personnel, upon arrival at an accident scene, to conduct exterior 
firefighting activities, and a rescue mission.
    Insufficient ARFF staffing levels were demonstrated in an accident 
on October 10, 2000, involving a Canadair Challenger Model 604, being 
operated as a test flight, that crashed into terrain and collided with 
an airport perimeter fence during a failed takeoff from the Wichita 
Mid-Continent Airport, Kansas. One of the ARFF trucks carried a 
``penetrating nozzle''; however, the nozzle could not be used because 
two trained firefighters were required to operate it, and only one was 
available. (Two of the three personnel were occupied in their vehicles 
with firefighting activities.) The pilot and flight test engineer were 
killed, the copilot received serious injuries and died more than 1 
month later, and the airplane was destroyed.
    Also, on August 8, 2000, Air Tran flight 913, a DC-9-32, N838AT, 
made an emergency landing in Greensboro, North Carolina, because of 
dense smoke in the cockpit. As with the flight 1420 emergency response, 
three ARFF vehicles and four ARFF personnel responded to the Air Tran 
event. If the occupants aboard the Air Tran flight had not been able to 
evacuate, there would not have been adequate ARFF resources to enter 
the airplane and rescue individuals. In fact, no ARFF personnel entered 
the airplane until after off-airport emergency responders arrived, 
despite the fire progressing through the airplane.
    Mr. Rogers. In your opinion, does the President's 2003 budget 
adequately address these areas?
    [The information follows:]
    The Safety board has not reviewed the DOT budget in-depth to be 
able to determine whether the President's budget adequately addresses 
the areas on the Board's Most Wanted List.
    Mr. Rogers. For several years, the Safety Board has maintained a 
``most wanted'' list of safety recommendations. What recommendations 
are currently on the Board's ``most wanted list''?
    [The information follows:]
    There are currently 12 issues and 65 specific safety 
recommendations on the most wanted list. The recommendation issue areas 
include: child occupant protection, positive train control systems, 
human fatigue in transportation operations, recreational boating 
safety, highway vehicle occupant protection, airport runway incursions, 
excavation damage prevention to under ground facilities, automatic 
information recording devices, airframe structural icing, explosive 
mixtures in fuel tanks on transport category aircraft, commercial truck 
and bus safety, and youth highway safety.
    Mr. Rogers. How many of these recommendations have been placed on 
the ``most wanted'' list within the past year?
    [The information follows:]
    In May 2001, the Board added recommendations to require booster 
seats for children not yet large enough for seat belts, and the 
installation of a crash-protective video recording system in certain of 
the smallest commercial aircrafts. The issue ``child/youth safety in 
transportation'' was separated into two issue items, child occupant 
protection and youth highway safety. In addition, positive train 
separation was superseded by positive train control systems. The Board 
will again update the Most Wanted on May 14, 2002.
    Mr. Rogers. On which of these safety recommendations is DOT making 
progress in addressing?
    [The information follows:]
    The DOT is making progress in the following issue areas:
    <bullet> Airframe Structural Icing;
    <bullet> Automatic Information Recording Devices;
    <bullet> Highway Vehicle Occupant Safety; and
    <bullet> Excavation Damage Prevention to Underground Facilities.
    Mr. Rogers. On which of these safety recommendations has progress 
been stalled?
    [The information follows:]
    Progress has been slow on the following issue areas:
    <bullet> Human Fatigue and Hours-of-Work Policy;
    <bullet> Explosive Mixtures in Fuel Tanks on Transport Category 
Aircraft;
    <bullet> Positive Train Control;
    <bullet> Runway Incursion/Ground Collision of Aircraft; and
    <bullet> Automatic Recording Devices (FMCSA--trucks).

               HAZARDOUS MATERIALS LOADING AND UNLOADING

    Mr. Sabo. The NTSB has recommended the RSPA establish 
safety requirements for loading and unloading of hazardous 
materials for all modes of transportation. What kind of 
response have you gotten from RSPA, and where are they.
    Ms. Blakey. I am glad you raised this because it is a real 
concern for us. A great deal of the problem in terms of 
transportation of hazardous materials is at the point of 
connection, when you are moving the material from the shipping 
site onto a vehicle and/or off, as the case may be. But that 
loading and unloading issue is something that the NPRM that 
RSPA put on the street took no responsibility for that 
connection and really moved out of their regulatory authority. 
We think that is the wrong direction to go. We told them that 
in our response on the NPRM, and we are looking to see what 
they intend to do. I have spoken to Administrator Engelman 
about this because we take it very seriously.
    Mr. Sabo. Thank you, Mr. Chairman. And, Ms. Blakey, I have 
another committee hearing affecting an issue of local concern. 
So if I leave, that is why.
    Ms. Blakey. We appreciate your interest and your support. 
Thank you.

                             YUCCA MOUNTAIN

    Mr. Rogers. Mr. Callahan, Chairman Callahan.
    Mr. Callahan. Thank you, Mr. Chairman. Yucca Mountain is 
supposed to open, I think, in the year 2010, all things being 
working perfectly. Has the Department of Energy been in 
negotiations or discussions with you about the overland 
transportation of the spent fuel? Have you been working with 
them to develop a plan?
    Ms. Blakey. No, we have not, Congressman Callahan. This is 
something that actually when I got to NTSB I inquired about, 
and we have not had any requests or communications from them. 
As I looked at the issue, we also have not had any incident or 
accidents that have occurred that we have investigated, so to 
date we have not been in the forefront of this because there, 
in fact, has not been an issue that we stepped in on. That 
said, we have not explored this with them, and they have not 
with us.
    Mr. Callahan. One of the major oppositions that the State 
of Nevada has is that they contend that Energy has not yet 
addressed the overland transportation to Yucca Mountain. I just 
wondered who would address it if you did not address it. Did 
the Department of Energy decide that rail transportation was 
better than truck transportation over land? I was just 
inquiring as to whether or not there had been any negotiation 
because it is such a center of conversation. The next big 
debate that is going to take place with the State of Nevada is 
going to be over the overland transportation, and I should 
think that it should enhance the administration's position if 
they had your agency working in conjunction with Energy to make 
certain that whatever decision was ultimately made would be the 
safest possible way to transport it. But anyway, you have 
answered my question. Thank you very much.
    Ms. Blakey. I appreciate your inquiry on that. We will 
certainly stay on the alert on that issue.
    Mr. Rogers. Mr. Oliver.

                          OPEN RECOMMENDATIONS

    Mr. Oliver. Thank you, Mr. Chairman. Ms. Blakey, you have 
indicated that there are a lot of open recommendations, and 
some of them are quite important. Can you give me your sense of 
what the three or four or whatever the most important ones in 
your view are that are open recommendations?
    Ms. Blakey. Well, I have thought for many years that the 
Board's practice of having a Most Wanted list is a good one 
because it is a way of focusing a number of recommendations in 
the forefront of the public consciousness and pushing those 
very hard, often with DOT, sometimes with the states. The ones 
I would mention from that list, Congressman Olver, would be the 
issue of runway incursions. We genuinely believe that one of 
the real threats in aviation is not in the air; it is on the 
ground. We see that, in fact, this is an accident waiting to 
happen, and when you look back on some of the worst--in fact, 
the worst aviation disaster, it was on the ground. It was 
Tenerife, the Canary Islands. But we have had a number of in 
this country, and there was one this fall, as you recall, in 
Milan.
    We think that there are important changes that need to be 
made there, both from a technological standpoint in terms of 
improving information to the pilots in the cockpits as well as 
operational changes that can be made in terms of air traffic 
control procedures. So I would mention that as a key area.
    Recreational boating safety; Congressman Sabo mentioned 
that earlier. There is more training that is needed. We 
definitely should be requiring personal floatation devices on 
children. That is moving ahead in the states, but again, this 
is a genuine need.
    There is a need to address the problem of center tank fuel 
flammability, again, in aviation. This has been a problem. Of 
course, TWA 800 highlighted that, but it is a problem that is 
not yet solved.
    We have talked about the issue of seat belts. This is 
critical in terms of highway safety, as is more work in terms 
of improving our laws, our enforcement, our education on 
alcohol.
    So those are some of the issues that I would mention. 
Pipeline; again, we have an old infrastructure in this country 
in terms of our pipeline system. The worst pipeline damage that 
occurs is from excavation, and a relatively straightforward 
change would make a huge difference there, and that is an 
accurate, standard system for mapping our pipelines. This is 
something that RSPA's Office of Pipeline Safety can take on and 
do, and we ought to get it done. So those are some of the 
things.
    Mr. Olver. The interesting thing to me, returning to what 
Mr. Sabo was saying, is that four of the five--well, I guess 
you mentioned six finally, but four of those six are exactly 
the ones that have been apparently deemphasized by not 
appearing in the department's plan. And you have indicated that 
the work has to be done at the state level, but regulation on 
seat belts or on runway incursions, it seems to me, is really a 
question of national policy, at least the law or the positions 
to be taken, than implementation. And then it is a matter of 
making certain that it has been implemented at the state level. 
So I am puzzled in a sense by your emphasis of those that 
actually have been deemphasized as important ones. They are 
open. They have been deemphasized by the department's plan, and 
then what to me are clearly positions, in the case of the 
alcohol thing a move toward an .08 is certainly an important 
move. Should we be going to other steps on the alcohol at the 
national level?
    Ms. Blakey. You are posing some tough problems here. You 
are quite right, for example, that the prevention of runway 
incursions is an issue of national policy. It can be addressed 
by the FAA, and it should be, so that absolutely. When you get 
into areas in the highway safety area of human behavior, we 
really are talking about issues that for the most part have 
been considered the prerogative of the states. And our TEA-21 
legislation, and you all will be facing this with NEX-T and the 
provisions there, provide incentives and disincentives in terms 
of urging the states to have stronger laws in those areas. But 
traditionally both the issue of whether you are going to have 
primary enforcement, meaning you can pull someone over for not 
wearing a seat belt and ticket them, has been something that 
the Congress has left to each state to determine whether they 
are going to do or not.
    The legislation, as it comes forward for you all, and it 
will be, I think, an important issue to address, will be one of 
do you want to provide more grant programs or more incentive 
programs in that area, or is it one where you want to apply 
penalties to those states who are not putting tough laws on the 
books, as we know is effective.
    I really do share your concern about the fact that we have 
to make these things a national priority. We have to use the 
bully pulpit. And certainly I will be very interested to work 
with the department and to talk with them about this issue in 
terms of their performance plan because, as I say, they did not 
consult us on this. I do not know, therefore, what the thinking 
has been on changing the goals or perhaps changing the 
approach.
    I will say this. The approach we have had so far has not 
been highly effective, so if they have got some new ideas, I 
would really like to talk to them about it.
    Mr. Olver. Thank you.
    Mr. Rogers. Ms. Kilpatrick.

                 TRANSPORTATION SECURITY ADMINISTRATION

    Ms. Kilpatrick. Thank you, Mr. Chairman. Good morning, 
ma'am. It is good to meet you. I look forward to working with 
you. I see you have an extensive transportation background, and 
I am sure it will help this Committee as we wade through what 
is happening in America today.
    Our country has changed forever since September 11, as we 
all know. The new agency, the Transportation Safety 
Administration, and your agency; is there any overlap since 
September 11? Are any things working together in your two 
agencies that would make us feel--in your case many times after 
the fact is when the Board comes in. We have now charged the 
new administration in TSA to not only hire 30 to 40,000 new 
people and train them and have them at these various sites. Is 
there any kind of coordination going on between the two that 
would prevent or be more ready for such a tragedy as we had on 
September 11?
    Ms. Blakey. I was very pleased that the Congress wrote into 
the legislation authorizing the TSA the requirement that that 
agency coordinate with us and the FAA coordinate with us on 
issues of security so that, first and foremost, we are careful 
that we do no harm from a safety standpoint as we move forward 
with changes both in the cockpit and in other forms of 
transportation to try to have a more secure system.
    I also believe, and I think this has yet to be developed 
for the most part that there are going to be opportunities to 
actually enhance safety as we are enhancing security, and that 
is one of the things that we are all working together to look 
for those opportunities where either technology or from the 
standpoint of a system change we really do improve the safety 
of these systems, and I think that is possible. I would mention 
the pipeline area, for example. Greater scrutiny there from a 
security standpoint also may help us in terms of breaches in 
these lines as time goes forward.

                      AMERIAN AIRLINES FLIGHT 587

    Ms. Kilpatrick. I see there should be some connection. I am 
glad to hear that you are working on that.
    The American Airlines accident in New York, also after 
September 11--I think it was Flight 587, and I have since read, 
I believe, that the pilots' association or one of the airline 
associations is asking that that plane be taken out of service 
because of tail or whatever happened. Have you had a chance to 
look at that accident? Is that a problem? Are we looking in 
that direction? Are the pilots who fly them off base? Any 
comment on that?
    Ms. Blakey. I appreciate your asking about it because a 
major allocation of the Board's resources right now is on the 
587 crash. Our investigation is in the early stages, but it is 
moving forward rapidly. Certainly we have met with the pilots' 
groups. We have talked with them about this. In fact, they are 
a party to the accident investigation, so they do know what is 
happening as we move forward. If we had any indication that 
there was a fundamental structural problem with the aircraft, 
we would immediately say so and call for changes. We have not. 
We are looking at these questions right now, and I must say 
that so far the FAA and the parties to this investigation have 
been responsive.
    We have issued one safety recommendation already, and it 
has to do with the fact that we observed significant rudder 
action in the moments before that plane crashed. As you know, 
the vertical stabilizer of the tail came off. When we looked at 
the question of the reverse rudder action, it became apparent 
that pilots not only on the A-300 but on other aircraft are not 
aware of the fact that it is possible under certain flight 
conditions to put stresses on the rudder and on the tail 
assembly that will cause real structural damage. As a result, 
we issued a safety recommendation that pilot training be taken 
across the board, and the FAA and the pilots are responding.
    We are trying to be very current and immediate with 
anything we learn out of that investigation, even though we do 
not know whether that was, in fact, a factor in the failure of 
that vertical stabilizer. We know that it is a problem that 
pilots are not aware of this, and we are working to make sure 
that we rectify that.
    Ms. Kilpatrick. After your investigation--I guess it is 
continuing and may for a long time. It seems like they would 
take a while.
    Ms. Blakey. They do.
    Ms. Kilpatrick. What would be the procedure in notifying 
the public, the Congress, the association if, in fact, you find 
a design flaw from aging craft? Is there a lengthy procedure in 
that regard that would be notification?
    Ms. Blakey. What we have done so far is issue regular 
updates on the progress of our investigation publicly. We put 
them out to the press. We put them on our Web site so that 
everyone knows where we stand on what we are doing on that. And 
the recommendation I mentioned, we put out very publicly, and 
it actually was something that we got very good, immediate 
response on. If we have a recommendation that has to do with 
the structure of the aircraft or a technical or mechanical 
problem or failure, we will immediately issue a recommendation 
and ask the FAA to issue an airworthiness directive, an urgent 
airworthiness directive if it is called for, and historically 
they have been very willing to do that.

                               CELL PHONE

    Ms. Kilpatrick. Thank you. Mr. Chairman, if I might just 
finally, cell phones. I know New York State has passed 
legislation that you cannot use them as you drive. It seems 
like the NTSB is looking at some accidents that have occurred 
on the Capital Beltway regarding cell phones, and I am thinking 
that are we going to see soon at least a recommendation that we 
ban cell phones while driving? Are you that close? Can you give 
us any information now? Are we seeing more accidents with the 
use of cell phones?
    Ms. Blakey. I would not say we are close to a 
recommendation of that type. There have been a number of 
studies that have been done on the issue of cell phone use, and 
they have not been, I think, as conclusive as most of us would 
like to see. What we are doing is looking at the Beltway 
accident that you mentioned, as well as a number of others that 
had cell phone usage at the time of the accident. What we are 
doing, because this is what the Board is very good at, is an 
in-depth analysis of exactly what happened in those, if you 
will, case studies and trying to get to the bottom of the 
degree of usage, what was going on.
    One of the things that we are able to do is not only pull 
the cell phone records but interview the people who were on the 
other end of that cell phone conversation and try to determine 
what happened before the fatality occurred. What were the 
circumstances? What was the nature of it? I think we all 
logically know that there may very well be differences in a 
quick call to simply alert someone that you are late for a 
meeting and a long, involved, 18-minute conversation that may 
be on a very in-depth kind of difficult issue. So some of those 
kinds of things we are trying to take into account in the case 
study of what happened in each of these accidents, and as soon 
as we have it we will bring a report out.
    Ms. Kilpatrick. Thank you. As one who drives and uses a 
cell phone, it is distracting. I hate to say it makes no 
difference because I really think it does. Now to what extent, 
as you say, some of our phones now with the cars we have you 
can talk and listen. But we need to take a look at it. I do not 
know if it is causing more accidents, and I am happy to hear 
that your agency is taking a look at it. Thank you, Mr. 
Chairman. Thank you, ma'am.

                           CELL PHONE SAFETY

    Mr. Rogers. Thank you. New York State, of course, passed 
legislation restricting the use of cell phones while driving. 
Do you think that was a good move?
    Ms. Blakey. Well, I will tell you, one of the things that 
is interesting from our standpoint is that with that 
restriction in place we should be able to look at accident 
rates, fatality rates to see if there are ways that you can 
correlate it to the changes that New York has made, and it may 
be very instructive for all of us. Candidly, I do not know. 
Distraction is a big issue, and cell phone use, you are quite 
right, is something that we are worried about.
    Mr. Rogers. Do you know how seriously New York is enforcing 
that new law?
    Ms. Blakey. I do not. I would like to find out more about 
it actually.
    Mr. Rogers. Are you doing a study of the New York situation 
at all?
    Ms. Blakey. We are not. That is the kind of thing that 
NHTSA would probably be in the best position to do. Frankly, 
they have a lot more research money than we do, and they also 
have a fair degree of responsibility in that area. But I would 
like to find out what they are doing, and certainly it is of 
lively interest to us.
    [The information follows:]

                         Highway Investigations

    Mr. Rogers. Ms. Blakey, there are thousands of highway 
crashes each day. Which ones doe NTSB focus on?
    [The information follows:]
    Every day roughly 115 people die in highway crashes in our 
nation. With a highway staff of about 50, the NTSB judiciously 
applies its accident investigation resources. Through our 
Communications Center, our Office of Highway Safety monitors 
accidents nationwide, 24 hours a day to determine which 
accidents the Board should investigate. Our highway accident 
selection criteria include those accidents that (1) result in 
catastrophic loss of life; (2) address emerging issues, such as 
driver distraction; and (3) have a need for independent 
investigative oversight to ensure public confidence in the 
transportation system.

                   largo, maryland, highway accident

    Mr. Rogers. Why is your agency investigating the Capital 
Beltway accident? What is unique about this situation?
    [The information follows:]
    The February 1, 2002, accident involved near Largo, 
Maryland, involved an SUV operated by a driver talking on a 
cellular telephone that went out of control, swerved across the 
Washington Beltway median, vaulted over a guard rail, and 
struck a minivan traveling in the opposite direction. Five 
people were fatally injured. The NTSB chose to investigate this 
accident because it raises important safety concerns, 
including:
    <bullet> Whether certain kinds of cell phone usage by 
drivers jeopardizes safety.
    <bullet> Whether common median barriers, such as those on 
the Beltway, effectively prevent high-speed crossovers, 
especially when they involve large vehicles, such as SUVs.
    <bullet> The crash-dynamics, vehicle compatibility and 
handling characteristics of light trucks--SUVs, pick-ups and 
mini-vans--which have grown dramatically in volume and 
popularity among the U.S. fleet.
    Mr. Rogers. Is your investigation focused on all aspects of 
the crash--the distraction with the cell phone, the integrity 
of the guardrail, and the propensity of the Ford Explorer to 
roll over?
    [The information follows:]
    The Safety Board's investigation is focused on all of the 
aspects of the accident; however, it is important to note that 
the Ford SUV did not roll over in this collision. Rather, the 
SUV vaulted over the far side guardrail and landed on top of 
the minivan heading in the opposite direction.

                      AMERICAN AIRLINES FLIGHT 587

    Mr. Rogers. Back onto the American Airlines Flight 587 
investigation, you have told us generally that you are in the 
middle of that investigation. Let me ask you some things. Are 
you concerned that composites used in the aircraft may have 
worn down prematurely, contributing to the tail of the plane 
falling off? Are composites in the investigation?
    Ms. Blakey. Absolutely. I am glad you raised that because I 
think it is an important aspect of this investigation. One of 
the things that I think is certainly important from our 
standpoint and I believe will be broadly for aviation safety is 
that 587 poses some new issues, if you will, from an accident 
investigation standpoint. It is the first major Airbus crash 
that we have had. This is, if you will, a high-tech plane. 
Composites were used fairly extensively in it, including in the 
vertical stabilizer, which, as you know, is what separated from 
the plane.
    Therefore, what we have done to date is to take the 
vertical stabilizer down to NASA. We began with doing 
nondestructive testing on it where we did all of the analysis 
we could with ultrasound and other techniques to see what we 
could learn about the structure itself, and now we are 
beginning to do more invasive testing to look below the surface 
to really take coupons, as they are called, out and to find out 
as much as we possibly can about that specific situation. We 
are learning a great deal more about composites and the 
stresses and the issues of inspection and how they should be 
maintained in aviation broadly. It is a significant issue and 
one that I think is going to be a major focus in this 
investigation.
    Mr. Rogers. Have you had an occasion in the past in any 
investigation to deal with this issue of composites and their 
deterioration?
    Ms. Blakey. Not to this extent. This is the first time. It 
is an interesting issue because composites have been used, as 
you know, in military aircraft and a number of other areas for 
many, many years and very successfully. They are strong, they 
are lightweight, and they have great strengths in general. That 
said, they have been deployed in the commercial fleet 
increasingly in recent years, and in this aircraft, for 
example, we are talking about over a 20-year history here, so 
they certainly have stood up over time. But that said, there is 
a big difference in the use of composites in, if you will, 
these large, work horse commercial aircraft and what we know 
from the previous experience in the military. So we are 
learning a lot in this particular investigation.
    Mr. Rogers. To your knowledge, is Airbus still making the 
new planes in the same fashion with respect to composites as 
this plane was constructed?
    Ms. Blakey. Each aircraft, of course, is different in terms 
of exactly how they are employing them, but as a general 
matter, yes, they are, and, in fact, they are increasing the 
use of composites as, I would point out, other manufacturers 
are. For example, the Boeing 777, the latest in the Boeing 
fleet, employs composites in its components to a much greater 
degree than any of its previous aircraft. So it is a trend we 
are seeing, and it is one of the reasons why the 587 
investigation is so important.
    Mr. Rogers. What could possibly explain the engines falling 
off this plane? That really is a rare occasion, is it not?
    Ms. Blakey. I am probably not the best person to cite how 
rare it is, having been at the Board for only six months. I 
might want to turn to the folks back here and ask them about 
the question of frequency. Certainly what we saw in this 
particular crash was that the aircraft was subjected to severe 
forces. Of course, at the point that it lost the vertical 
stabilizer over Jamaica Bay it was a catastrophic event. 
Therefore, the forces as that airplane crashed could very well 
have caused the engines to separate. From what we can tell, and 
we have done a complete tear down of both engines, they were 
functioning normally until that event occurred.
    In terms of how frequent, what would we say about that, 
John?
    Mr. Clark. There have been a few instances where the 
engines have shaken off, a couple of 747s in Alaska hitting 
turbulence coming out of Anchorage, for example. There have 
been a few cases where there were structural failures on the 
pins that hold the engines on. So it does not occur often, but 
the signature we have on this one is that the engines came off 
very late in the sequence on its way down.
    Mr. Rogers. Identify yourself.
    Mr. Clark. I am sorry. I am John Clark, Director of the 
Office of Aviation Safety at the Safety Board.
    Mr. Rogers. So is it your working assumption that the first 
event that took place was the rudder coming off followed by 
events such as the engines falling off?
    Mr. Clark. We have a sequence that there was a wake vortex 
encounter. There were rudder motions. At a point in a sequence 
where we started major deviation from the flight path was when 
we believe the fin and rudder came off. Describing the sequence 
in the accident, we are trying to sort out if the rudder system 
was significant in that. Did the rudder motion itself induce 
it, or was the pilot involved in causing that rudder motion? So 
the exact sequence we are still sorting, but the major 
structural failure was the fin coming off.
    Mr. Rogers. And what is your working assumption, if you 
have one, as to why the rudder came off? Was there some 
turbulence? Was it pilot error?
    Mr. Clark. There are a lot of investigative threads that we 
are chasing right now. Essentially, everything is right on the 
table. Somebody had mentioned degradation earlier. We have to 
look at that. That is why we are pulling coupons. Just the 
structural design itself; were the right numbers used to design 
the strength of the system? We know that the airplane was in a 
large side slip that would cause large loads on the tail. We 
know that the rudder moved against that, which adds 
significantly to those loads. Those loads are very high, 
reasonably consistent with the design numbers. Our structures 
team is working on that at NASA. They are currently in Tolouse 
looking at more numbers, trying to sort all that out. We have 
to go back and verify that the design concept, the numbers, and 
to see if the structure was up to those numbers. So that is all 
on the table right now.
    Mr. Rogers. Why was the plane in a substantial side slip?
    Mr. Clark. There was a wake encounter, and then there was a 
rudder motion, and the source of that rudder motion is part of 
our investigation, a pilot or a systems problem. The rudder 
caused the airplane to be in a side slip, and then the rudder 
moved in an opposite direction which caused it to be in a large 
side slip the other way, and in one of those swings the rudder 
caused a large side slip, and then the rudder came back and 
added the loads, and the tail separated. We are trying to sort 
out that data right now to see if the wake vortex could be 
somewhat additive to that. That is not clear to us. If there is 
something additive, that is not significant to us at this 
point.
    Mr. Rogers. Are you investigating what effect, if any, it's 
causing?
    Mr. Clark. The filtering will not impact the cause. It 
impacts the data that we get from the flight data recorder. It 
makes it hard for us to determine, and that causes a 
significant delay in sorting out the magnitudes of rudder 
deflections and side slip.
    Mr. Rogers. Briefly, what is filtering?
    Mr. Clark. Filtering usually modifies data. It diminishes 
the magnitudes and in this case makes the data appear to have 
occurred later than it actually did. In summary, in this case 
the data may show a rudder deflection that took a significant 
amount of time----
    Mr. Rogers. Please have a seat.
    Mr. Clark. For example, in this case the rudder would 
appear on the FDR data to have occurred at a period in time 
that may be only eight degrees when in truth actually that 
motion occurred a half a second earlier and would have been--
degrees.
    There are real reasons to filter that data. We do not want 
filtered data to go to the flight data recorders. There are 
real reasons to filter the data because you use some of that 
information in the autopilot, and you want less----
    Mr. Rogers [continuing]. Fluctuations?
    Mr. Clark [continuing]. Fluctuations going to the 
autopilot. You want to tone those down so the autopilot can 
handle it properly. You want to send that filtered data to the 
instruments to the crew so the needles are not slamming back 
and forth, the needles will move nice and smooth, which is 
perfectly adequate for the flight crew.
    Ms. Blakey. And I think it is worth pointing out that we 
had called for the filtering to be removed, and we actually had 
thought it had been. This was news to us when we learned that 
on the A-300 it had not.
    Mr. Rogers. You say that filtering is good insofar as 
certain things are concerned, but you are saying that filtering 
should not occur on data going to the flight recorder. Is that 
correct?
    Mr. Clark. Essentially----
    Mr. Rogers. Why is that?
    Mr. Clark. What we need is the real world data, the exact 
time something occurred and the exact magnitude that it 
occurred, and that is what we drive our simulations with, we do 
our calculations with, the real data. The filtered data would 
give you significantly different results, and that is not 
appropriate in an accident investigation. That is why it should 
be essentially unfiltered in the flight data recorder.
    Mr. Rogers. Would a pilot that has filtering that he is 
looking at, could he be somewhat mislead by the lack of 
extremes that showing up on his dials when, in fact, those 
extremes are occurring, for example, in the rudder movement? 
Could that mislead a pilot?
    Mr. Clark. In this particular situation probably not. The 
filtered data goes to a little dial that may show the rudder 
moving. It is a big, fat line. If he pushes the peddle, he will 
see the rudder swing. In a very dynamic environment whether he 
is seeing eight degrees or 10 degrees, that is not what his 
focus is. So what he needs to do is to be able to look at that 
on the ground and see that it is moving in the proper direction 
and does get out to the right magnitude. In flight if he has a 
problem, and he has time, he may be able to look at that, but 
they are not going to sort out the difference between nine and 
10 degrees of rudder, for example. So it is adequate, we 
believe, for them.
    Mr. Rogers. Well, NTSB recommended that filtering systems 
in flight data recorders be removed, if I am not mistaken.
    Ms. Blakey. That is correct.
    Mr. Rogers. And, in fact, the FAA issued that rule in 1997. 
Is that correct?
    Ms. Blakey. That is correct.
    Mr. Rogers. And yet this American Airlines A-300 still had 
it.
    Ms. Blakey. That is what we found out when we got into it.
    Mr. Rogers. How can that be explained?
    Ms. Blakey. As far as I think we know, it was inadvertent. 
I do not think that this was something that the FAA had 
followed up to the degree that they were clear that this had 
happened across all aircraft, and in this case it had not.
    Mr. Rogers. Do we know whether or not the airlines have now 
complied with this rule?
    Ms. Blakey. We have certainly made an issue out of it.
    Mr. Clark. I think they have not had time to bring those 
systems into compliance. It is going to require a redesign. To 
grab that signal before it is filtered and get that to the 
flight data recorder requires equipment changes, and it is not 
a trivial event. So I assume they are starting that process to 
bring that in line. Some of the letters from the FAA 
Administrator indicate to us that they have every intention to 
rectify the situation.
    Mr. Rogers. So if the information had not been filtered to 
the flight data recorder, how could that possibly help you in 
your investigation?
    Mr. Clark. Well, two ways. In this particular case it 
required us to go do some extensive testing, and we are not 
completely through with that testing yet. We think we have all 
the answers. We are proceeding ahead, but we will do some more 
tests just to absolutely confirm it. That takes time and 
resources that we do not need to spend.
    The second is that any time you take a signal, and you try 
to back out of it what the truth was, there is always a risk 
that we do not back it out correctly. This one is reasonably 
straightforward. We think we have enough extra information that 
it is making sense, and we have a good handle on it.
    Mr. Rogers. It would have made it a lot easier and perhaps 
quicker if the information had not been filtered.
    Mr. Clark. Yes. For the recommendation we put out on the 
pilot's maneuvering and the high loads and all of that, we may 
have been able to cut that time down and come out with that 
recommendation sooner. Those issues were on the table, and we 
were waiting for confirmation. We did not have the absolute 
finished product, but we had a real good understanding of what 
was going on, and then we could move forward with the 
recommendation.
    Mr. Rogers. Just to be clear about this, this could not 
possibly have been involved in the cause of the accident. It is 
only in your capability to reconstruct what happened that we 
are talking about. Right?
    Mr. Clark. That is correct.
    Mr. Rogers. Now, A-300's are flying all over the world. 
Should we worry about that?
    Ms. Blakey. At this point, we are doing everything we can 
to learn about any kind of structural issues that may be there. 
In point of fact, we had called to the attention of the FAA the 
circumstances of this one, and as a result of that they have 
elected, and we were working with them on this, to examine the 
rudder and the vertical stabilizers on the exteriors of A-300, 
looking at data for when there might have been a similar 
occurrence, when there could have been heavy side loads on that 
structure. I believe seven aircraft altogether, in fact, were 
examined by taking the vertical stabilizer off of the aircraft 
and examining it to a much greater degree than you can with 
visual inspections. And so they are really taking, I think, a 
hard look at anything that may cause a problem from that 
standpoint.
    To date, I think we have discovered that the FAA in those 
inspections has discovered one aircraft that, in fact, does 
show some damage.
    Mr. Rogers. An A-300?
    Ms. Blakey. That is an A-310, John?
    Mr. Clark. No. It is an A-300.
    Ms. Blakey. An A-300.
    Mr. Clark. It is another American Airlines airplane from an 
accident that occurred several years ago.
    Mr. Rogers. Oh, the plane was involved in an accident. Was 
this determined to be the cause of that accident?
    Mr. Clark. No. The cause of that accident, that was an 
American Airlines airplane that was in a descent over the water 
near Miami. The pilot leveled off, and apparently the 
autothrottles were not on. It slowed into a stall and lost 
quite a lot of air speed, ended up in a stall condition, and 
then in the recovery of the stall or the motion while he was 
stalled the pilot would have been introduced at that time. At 
that time we were looking at the stall issue. We did not focus 
on the issues of lateral loading on that particular incident.
    Mr. Rogers. Did the rudder come off in that----
    Mr. Clark. No, no. The airplane stalled. The reason it was 
considered an accident, I believe a flight attendant was 
injured, or some person on the airplane was injured.
    Mr. Rogers. Oh, the plane did not crash.
    Ms. Blakey. No, no.
    Mr. Rogers. But there was some damage to the tail, the 
rudder section.
    Mr. Clark. We now know, yes.
    Ms. Blakey. There was delamination on the right rear lug on 
that particular aircraft, and that was discovered once the 
examination was done.
    Mr. Rogers. But it was not a disabling----
    Ms. Blakey. No, it was not. There was no evidence that it 
caused any further problems.
    Mr. Rogers. Was it a composite material as well?
    Mr. Clark. The same tail, same type of tail. The issue that 
is on the table is that FAA and Airbus will assert that that 
small delamination had no significant effect on the structural 
capabilities, and that is part of what we are going to be 
looking at.
    Mr. Rogers. Well, some pilots are now--I think I am correct 
on this--raising serious objections to the flying A-300 planes 
for safety reasons. Should we be concerned about it?
    Ms. Blakey. As we have followed this, it looks, as far as 
we can tell, to be a small group of pilots. The Allied Pilots 
Association, the union that represents the American Airlines 
pilots, in fact, as a union, as a larger group, has not taken 
that position. They have expressed concern. They have followed 
the investigation obviously with high interest, but it is a 
smaller group that has occasionally spoken of concerns in this 
area, and, in fact, several individuals have called for ``the 
grounding of the fleet.''
    We have not seen anything to this point that indicates that 
that kind of radical action is warranted. And these aircraft 
have been out there for several decades and, in fact, have been 
in service without any incident that would indicate that there 
was a problem that would call for that kind of action.
    Mr. Rogers. I am going to get off this in a second here, 
but I wanted to ask you. It sounds like you are working under 
the assumption, and apparently know, that the beginning event 
in this series of events apparently was the turbulent air from 
a preceding aircraft. Is that correct?
    Mr. Clark. That is correct.
    Mr. Rogers. Do you know yet how far behind that leading 
craft this one was when the trouble developed?
    Mr. Clark. I do not recall the number. It is very clear on 
radar. The distance and the time are issues. It was a heavy 
747, fully loaded, headed for Japan, so it was a very heavy 
airplane, significant wake turbulence. But the separation 
standards were met. We want to look at the significance of that 
incursion and revisit those separation standards just to see if 
for the amount of excursion that the 587 went through is that 
something we want going on. So that is a whole separate side of 
the investigation.
    We do not believe that directly contributed in the sense of 
overloading the tail. It was the rudder motions that really set 
the stage for that. There may have still been some residual 
effects of wake turbulence that may have added to that, and 
that is going to be very difficult to sort out. We are right in 
the process of doing that.
    Mr. Rogers. So under normal circumstances from what you 
know this turbulence was not the proximate cause of the 
accident.
    Mr. Clark. No.

                      AMERICAN AIRLINES FLIGHT 587

    Mr. Rogers. You are saying that unusual rudder movements 
caused the stress.
    Mr. Clark. Right now, the rudder motions seem to have led 
to the side slip, and the combination of side slip and rudder 
input, the loads are very high. At about the highest point of 
the load is where the tail broke off. Then the investigation 
really branches out.
    Mr. Rogers. It is either a pilot overuse of the rudder or 
some mechanical occurrence that overused the rudder.
    Mr. Clark. That is on the rudder side, and then, of course, 
there is a whole area on the structure side. Are the design 
requirements correct? Are the estimated air loads under those 
conditions correct? Did they use all the proper assumptions to 
get there to size those lugs? Every bit of that is still on the 
table right now.
    Ms. Blakey. Were there some structural problems with that 
particular tail?
    Mr. Clark. Or degradation.
    Mr. Rogers. When do you expect to get to the bottom of this 
one?
    Ms. Blakey. I was afraid you would ask that. What we are 
trying to do is this. We are working as hard as we can to pull 
as much information together, and we would expect to have a 
hearing on this in several months, a public hearing where we 
will be taking testimony.
    The research that we are doing, and I would stress the 
important role that NASA is playing in that because they are 
working with us very much on this whole composite issue as well 
as they have done some important work on the wake vortex front, 
and so we expect that that could go on for another year before 
we have all the research done that we really feel we need in 
this. So that is about as far out as I can look. Certainly we 
want to move forward, and as I say, if we have any safety 
recommendations, even while we are in process, we are going to 
bring them out.
    Mr. Rogers. Well, that was what I was going to ask you, if 
during your investigation before you finally conclude all of 
the details of this accident, if you run across something that 
is of urgent notice for safety on other planes, you do plan to 
bring that forward immediately.
    Ms. Blakey. Absolutely.
    [The information follows:]

                 American Airlines Accident in New York

    Mr. Rogers. What is the status of your investigation on American 
Airlines flight 587 accident?
    [The information follows:]
    The investigation of the American Airlines flight 587 crash is on-
going with considerable tests and research in progress. The Safety 
Board intends to hold a public hearing on the accidents this fall.
    During our investigation, it was determined that certain rudder 
movement inputs by pilots could cause a catastrophic failure of an 
airliner's vertical tail fin. This concern is not limited to the A-300, 
or even to Airbus modes, but is industry wide. Based on interviews with 
the pilot community, it appears that many pilots have not been made 
aware that full rudder inputs, under certain conditions, can jeopardize 
the integrity of the vertical tail fin, or that in some airliner 
models, full rudder deflections can be achieved with small pedal 
movements and comparatively light pedal forces. In February 2002, the 
Safety Board issued two safety recommendations asking the Federal 
Aviation Administration to require pilot training programs that 
describe the certification requirements for airliner models, that 
explain the consequences of rudder use in circumstances described in 
our recommendation letter, and that identify the light pedal forces 
needed to achieve maximum pedal deflections at high speeds.
    Mr. Rogers. What type of testing is being done at NASA Langley on 
the tail section?
    [The information follows:]
    The rudder and vertical fin from the airplane have been taken to 
NASA Langley for examination. The vertical fin is constructed primarily 
of composite materials. The examinations included: ultrasonic pulse 
echo, Lamb wave, thermographic x-ray, and instrumented tap test. 
Additionally, NASA Langley is providing an evaluation of the Finite 
Elements Model and a wake vortex study. We also anticipate working with 
NASA on a detailed failure analysis of the vertical fin.
    Mr. Rogers. The engines also fell of the aircraft before it crashed 
and are now being examined in Oklahoma. To the best of your knowledge, 
why would an engine separate from an aircraft before impact?
    [The information follows:]
    The FDR data indicates that both engines were running normally and 
separated after the rudder signal became unreliable. The engines 
separated similarly at the engine pylon to wing interface. High lateral 
loads, or a combination of lateral movement and yaw rates, and 
precession due to gyroscopic loads of the engine rotation can combine 
and result in the engines' separation. Such high loads and yaw rates 
would be expected after separation of the vertical fin. A similar 
engine separation occurred on a Boeing 747 in 1993 that encountered 
severe turbulence shortly after takeoff from Anchorage, Alaska.
    Mr. Rogers. What specifically is being examined in Oklahoma?
    [The information follows:]
    Both engines and the auxiliary power unit were completely torn down 
for detailed inspection. Those examinations found no evidence of pre-
existing problems or evidence of a bird strike, disc or rotor burst, or 
blade/vane separation. The inspections and FDR data indicate the 
engines were running normally until separation and subsequent impact.

                         MARINE INVESTIGATIONS

    Mr. Rogers. Well, I would think the composites ought to be 
looked at obviously if there are other airplanes. With some 
pilots causing some degree of concern amongst fliers about 
flying on this particular type of aircraft, the urgency is 
probably accelerated somewhat to get a verdict in on this type 
of plane pretty soon.
    I want to quickly deal with maritime investigations and the 
Coast Guard. Usually in maritime accidents the Coast Guard 
takes the lead, not the NTSB. Why is that?
    Ms. Blakey. There are a lot of areas in which their 
inspection and their enforcement responsibilities are in the 
forefront, and certainly they should. As you may know, Mr. 
Chairman, we do have a difference of view right now with the 
Coast Guard on this because we are charged as a part of our 
statute with investigating accidents in all modes of 
transportation, and in the area of maritime we want and need, 
we feel, the authority to be the lead investigative group from 
time to time on maritime accidents where we have significant 
safety issues in terms of passengers where there is potential 
for significant loss of life. We are seeking, therefore, to 
work out a memorandum of understanding with the Coast Guard, 
and as a part of our reauthorization we have asked the Congress 
to stipulate that we should have the lead responsibility.
    There is a very real difference in the way the Coast Guard 
goes about their investigations, which, of course, do have 
significant penalties for those involved; and, therefore, are 
not the kinds of investigations in which you necessarily can 
immediately get information candidly provided and cooperation 
of all of the parties. The way we have historically gone about 
investigations means that we have gotten very good cooperation 
and very good candor almost consistently, and if we do not have 
that opportunity, it is a significant setback in terms of 
maritime investigations.
    The final point I would also make is that it is very 
difficult, and we think it really goes counter to the intent of 
Congress, for an agency to investigate itself, and when the 
Coast Guard is leading the investigations, that is obviously an 
issue.
    Mr. Rogers. And that became the issue in the Morning Dew 
case----
    Ms. Blakey. You are exactly right.
    Mr. Rogers [continuing]. In 1996--I am sorry--where you 
were called in and found evidence that the Coast Guard had 
covered up mistakes of its own personnel. They were ultimately 
found guilty in federal court of negligence and fined $19 
million. Then subsequently the Congress passed a law requiring 
you and the Coast Guard to negotiate a new MOU delineating 
those major marine accidents where you would take the 
investigative lead. That law required the MOU to be signed by 
November 1st of last year. I do not think much has been done on 
it, has it?
    Ms. Blakey. We have certainly worked very hard on it, I 
will tell you. There was meeting after meeting before I came to 
the Board, and our vice chairman, Carol Carmody, worked very 
hard on trying to make that happen. But November came and went, 
and it does take two parties to sign an MOU, and we were unable 
to reach agreement on it.
    Mr. Rogers. What were the sticking points?
    Ms. Blakey. We ultimately tabled what I thought was a very 
modest proposal, which was that we would take the lead in only 
five accident investigations during a year. That is a very 
small number. And we wanted to make clear to the Coast Guard 
that we were not intending to be overreaching in this, but we 
did want the opportunity to elect to do so, and they felt that 
they could not grant that.
    [The information follows:]

    Mr. Rogers. In contrast to aviation, in investigations of maritime 
accidents it is usually the Coast Guard that takes the lead, not the 
Safety Board. Why is this?
    [The information follows:]
    The Safety Board has statutory investigative priority in all modes 
of transportation except major marine casualties. Title 49 United 
States Code Section 1131 states that the National Transportation Safety 
Board shall investigate or have investigated ``(E) a major marine 
casualty (except a casualty involving only public vessels) occurring on 
the navigable waters or territorial sea of the United States, or 
involving a vessel of the United States, under regulations prescribed 
jointly by the Board and the head of the department in which the Coast 
Guard is operating.'' Thus, the NTSB has statutory authority to 
investigate major marine accidents under joint regulations with the 
Coast Guard. The NTSB can only lead such investigations when an 
agreement is reached between the Chairman of the NTSB and the 
Commandant of the Coast Guard. Because negotiations with the Coast 
Guard regarding NTSB priority in marine are at a standstill, we are 
once again seeking Congressional assistance to have marine placed on 
the same footing as other investigations.
    Mr. Rogers. What could NTSB bring to the table if it were to lead 
major maritime investigations?
    [The information follows:]
    The significance of which agency leads an accident investigation is 
critical. A Coast Guard-led investigation--by its very nature--is an 
adversarial legal process that is not conducive to the cooperative 
nature of NTSB investigations. Safety Board investigations bring an 
independent accident investigation process, an opportunity to recommend 
improvements in safety to help prevent a recurrence of similar 
accidents, and because they are independents an increase in public 
confidence. Because Congress has charged the NTSB with safeguarding the 
American transportation system, the Safety Board must be placed in a 
position to lead those marine accidents that pose the most significant 
threat to public safety and offer the greatest potential for safety 
improvement. It is our experience that investigations conducted under 
NTSB rules do not hinder or interfere with the mandates of DOT 
agencies, since they are often parties to our investigations and have 
access to all factual information obtained.
    Mr. Rogers. After you became involved in the Morning Dew 
investigation, did you find some Coast Guard personnel had been less 
than forthcoming in the information they provided to state 
investigators?
    [The information follows:]
    During our investigation and at the Board's public hearing 
regarding the Morning Dew accident, we were advised by South Carolina 
officials that Coast Guard personnel did not share vital accident 
investigation evidence with the South Carolina Department of Natural 
Resources (SCDRN), the state investigators, who were conducting a 
criminal investigation into the circumstances surrounding the loss of 
the Morning Dew. This information included the report of a witness who 
saw the Morning Dew leaving protected waters and the fact that the 
Coast Guard's Group Charleston had received two calls that were 
determined to have been distress calls from or involving the Morning 
Dew.
    The SCDNR acquired the initial information regarding one call for 
help from the water to a passing ship from an account in a local 
newspaper. In response to their follow up with the Coast Guard 
regarding release of that information and an inquiry regarding any 
other distress calls that may have been received from the Morning Dew, 
the SCDNR officer was told that no distress calls from the Morning Dew 
had been received. The SCDNR investigator believed he was informed that 
no distress call had been received, and thus made no further inquiries.
    More than two months later, in response to a Freedom of Information 
request, a senior Coast Guard officer played the tape of the Morning 
Dew mayday call to a surviving family member, who subsequently informed 
the SCDNR of its existence.
    Mr. Rogers. What is needed to move this process further along?
    [The information follows:]
    For over a year the Safety Board has negotiated what we believe to 
be a reasonable MOU. The draft MOU would afford the Safety Board the 
opportunity to select a few marine accident investigations for 
independent investigation each year. This would reduce duplication of 
effort and increase productivity, we believe, for both organizations. 
Unfortunately, the negotiations are at a standstill and we believe 
Congressional action is required to put marine on the same footing as 
investigations in other modes of transportation.

                            USS GREENEVILLE

    Mr. Rogers. What was the NTSB's involvement in the 
investigation of the collision between the nuclear attack 
submarine, GREENEVILLE, and the Japanese fishing boat in 
February 2001?
    Ms. Blakey. That is an ongoing investigation of ours. It 
became one, of course, because there were passengers involved 
both on the submarine as well as on the fishing trawler. The 
investigation is coming to a close. We expect to close it 
before the end of this year, and we are looking to the issues 
of the oversight of those kinds of situations where you have 
passengers taken upon a vessel that obviously is intended 
primarily for warfare, and you have certain kinds of 
constraints and problems, therefore, in terms of both 
everything from scheduling to the issues of what kind of 
guidance should be provided to the captain and to others 
involved in making those decisions, scheduling those kinds of 
opportunities. So we are looking at all of that, and I expect 
that it will, as I say, be wrapped up this year.

                         MARINE INVESTIGATIONS

    Mr. Rogers. Quickly and briefly back to the MOU, who is 
negotiating on behalf of the Coast Guard?
    Ms. Blakey. Well, we had before, up until recently, we had 
the vice admiral, who was engaged on that. It is my 
understanding that we have a new Commandant coming in, Admiral 
Tom Collins, who will be taking over the Coast Guard, and so we 
are hopeful that this will be perhaps not at the top of his 
agenda but one of the things that he would like to address in 
coming in.
    Mr. Rogers. Was this not on the top agenda of Admiral Loy?
    Ms. Blakey. We were unable to get Admiral Loy to agree that 
this was a priority and something that he would be willing to 
move forward on.
    Mr. Rogers. So the opposition to the MOU was led by the 
Commandant.
    Ms. Blakey. I think the Vice Commandant was the person who 
was the most engaged on this, but certainly he consulted with 
the Commandant, we were told. And in point of fact, I asked the 
assistance now of the Secretary of Transportation in helping us 
address this because I felt we had come to a point we do need 
to get this resolved.
    Mr. Rogers. So I think I am reading you saying that all 
negotiations were broken off at some point.
    Ms. Blakey. Well, I guess we look at them as an ongoing 
negotiation but one in which we need a little bit of assistance 
with the lift on, if you will, but we would like to bring it to 
a close as quickly as possible.
    Mr. Rogers. Mr. Olver, do you have a question?

                         MARINE INVESTIGATIONS

    Mr. Olver. Ms. Blakey, that sounds like an ominous 
prospect. Am I correct that the Vice Commandant that you have 
described as being the lead player in this abortive effort to 
follow the Congress' directive to create an MOU between the two 
agencies is now the incoming Commandant?
    Ms. Blakey. No. Dan, give me the name of the person because 
I should know it.
    Mr. Campbell. We have conducted negotiations for the past 
two years with both of the previous heads of the Office of 
Marine Safety. It was Admiral North and now Admiral----
    Mr. Rogers. Just scoot your chair forward, and we will need 
to know your name.
    Mr. Campbell. The negotiations have actually been conducted 
with the chief of the Office of Marine Safety. That was a 
fellow named Admiral North, who recently retired, and we are 
now conducting them directly with Admiral Pluta. That is not 
the gentleman becoming the Commandant.
    Mr. Olver. Okay. So the person becoming the Commandant was 
not the vice Commandant.
    Ms. Blakey. I think I misspoke when I said the Vice 
Commandant.
    Mr. Olver. Okay, okay.
    Ms. Blakey. It is Admiral Pluta. My apology. This all had 
begun well before I got there, and it is my understanding, 
though, that the commandant, Admiral Loy, was well informed 
about this, and, in fact, it was his decision that he would not 
agree to the MOU as we continued to work.
    Mr. Olver. Thank you. Can I just follow? I would like to 
clarify a little bit about the air situation. In your testimony 
on the aviation side you have put Alaska Airlines 261 and 
American Airlines 587 in a pairing where I am a little bit 
unclear why they are in a pairing. It would appear that one is 
an MD-80 and involved horizontal stabilizers and trim system. 
The other, the 587, was an Airbus 300, and it involved rudders 
and vertical stabilizers. Is the reason they are there that 
they are both models that use a high input of composites?
    Ms. Blakey. No, and I apologize if that was confusing in 
the testimony. The reason they were both there is that they are 
examples of major accident investigations in aviation that we 
are undertaking. And actually I put them there because one is 
the one that is soon coming to a close. We believe we will have 
the accident investigation wrapped up and the report out on 
Alaska Airlines this fall, whereas 587, because the crash did 
just occur in November, is a major investigation that will take 
some time to resolve. But in a sense I put them there as book 
ending our major accident investigations. One is soon to wrap 
up. The issues are very different, I agree.
    Mr. Olver. Is the Airbus 300 the most composite use 
airplane that we have got out there these days?
    Ms. Blakey. I do not know that it is the most. There is 
extensive use of composite in the Boeing triple-seven. The 
Airbus aircraft have increasingly used composites, so that some 
of the later model aircraft of Airbus, in fact, have a much 
greater use of composite than, in fact, the A-300, 600. So it 
certainly is a trend that is increasing in terms of the 
structural members of aircraft.
    Mr. Olver. That is what I would have expected, that 
composite usage would be increasing steadily as newer models 
come out from whatever the airline company is. But are you able 
to see fatigue in the composites that is unusual? Have you seen 
any of that in any of these cases where composites are used----
    Ms. Blakey. We have not to date.
    Mr. Olver [continuing]. That is unexpected or not what 
their standards are meant to or say they are going to achieve?
    Ms. Blakey. We have not to date. Of course, since we are 
charged with accident investigation, we are really, if you 
will, tucking into this issue with the 587 investigation 
because it is the first major accident investigation where 
composites have been a major issue. They have been out there in 
the fleet for a long time, and I think we should all take heart 
from the fact that we have not had previous accidents where the 
structural issues involved focused on composites. And candidly, 
if this had been one in which we were talking about metals, our 
experience at the Board, our experience in industry across the 
board, would have probably given us greater clues more 
immediately than it does with the composites.
    Mr. Olver. I see.
    Ms. Blakey. There is a whole set of issues as to whether 
composites, in fact, experience fatigue, and if they do, how it 
is manifested.
    Mr. Olver. Well, there is no question that metals 
experience fatigue.
    Ms. Blakey. That is exactly right.
    Mr. Olver. We have had lots of experience with that over a 
longer time. That helps with my understanding of what is going 
on. Thank you very much, Mr. Chairman.
    Mr. Rogers. Thank you. I am going to be brief now on a 
couple of windup issues here, and then we will let your voice 
rest.
    Ms. Blakey. Thank you. I am happy to respond to any of the 
questions.
    Mr. Rogers. Last year, NTSB opposed an FAA memorandum of 
understanding with the controllers' union regarding the 
reclassification of operational errors. Tell us what your 
problem with that MOU was.
    Ms. Blakey. I am afraid this was, as they say, pre-me, and 
so if you do not mind, I would like to turn to the director of 
aviation safety again on that one, John Clark.
    Mr. Rogers. Scoot up again, if you do not mind.
    Mr. Clark. The general concern involved with our letter 
involved the way the reclassifications were characterized in 
the sense that there were a number of them that to reclassify 
was an appropriate thing. There were some that just barely get 
in through the threshold of the reporting requirement. They 
were carrying the same weight as very close misses.
    It is kind of in the fine print of the language. There were 
a number of reporting requirements and distances that they 
chose to use, and we did not believe that they were entirely 
appropriate. For example, two airplanes, one following the 
other, that come within four miles; it is reported. That is not 
a critical issue. Two airplanes that are coming head on and at 
the same altitude that get within four miles is only a matter 
of seconds away from a very serious encounter, and we saw that 
things like that were being declassified, and we felt that some 
of those were appropriate to declassify but not all of them.
    Mr. Rogers. Well, to try to clarify this now, we are 
talking about operational errors----
    Mr. Clark. Yes.
    Mr. Rogers [continuing]. Which is a broad, generic 
description. Correct? And our statistics show that operational 
errors among air traffic controllers is continuing to rise 
substantially in spite of FAA's and everybody else's attempts 
to decrease those operational errors. As I understand it, the 
FAA signed an agreement with the union agreeing to reclassify 
certain of those operational errors as ``technical 
violations.'' Is that correct?
    Mr. Clark. That is my understanding.
    Mr. Rogers. And is that what you have a problem with?
    Mr. Clark. No. Some of those, we believe, are reasonably 
technical, minor violations, but some of them, the way they 
crafted the language, we thought there were some serious 
violations that could be construed the way they crafted the 
language as technical and then would not be properly counted as 
a serious event.
    Mr. Rogers. So where are we?
    Mr. Clark. I think they have their agreement, and we have 
our letter. I am not completely up to speed if there have been 
recent issues or recent letters, but I am not aware of any.
    Ms. Blakey. It does affect a number of areas, though, Mr. 
Chairman, and in focusing on it is helpful from our standpoint 
because, for example, on the issue of runway incursions how 
serious that incursion is and how it should be classified and 
how it should be dealt with. Certainly that changes that 
picture when you have certain operational issues then shifted 
into a minor or inconsequential category.
    Mr. Rogers. Well, that agreement apparently between FAA and 
the union on what they call technical violations, they just 
erase all records, as I understand it, that a technical 
violation ever took place.
    Mr. Clark. That was one of the other concerns that we had 
in the letter, is that if it is technical, and after a short 
period of time it gets erased, and part of our concern is we 
lose the ability and they lose the ability to track if a 
controller has been involved in repeat violations. Even though 
they are technical, we really do not want, even technical ones, 
we do not want to see a repeat violation, so that was a second 
issue.
    Mr. Rogers. The FAA agreed to throw away all records of 
technical violations after 12 months, as you say, precluding 
anyone from identifying employees who are making the most 
mistakes over a period of time. The FAA also agreed that no 
controller would be obliged to undergo remedial training or be 
decertified due to a technical violation and that they would 
not use ``knowledge, records, notes, or other data'' about the 
violation in their personnel decisions. Is that what you wrote 
this about?
    Mr. Clark. Yes. There were two issues: the definition of 
``technical'' and the ability to track personnel issue. I had 
forgotten the second.
    Mr. Rogers. Well, if these records are destroyed after 12 
months, how can you or us or anyone else be assured that this 
was merely a technical violation as opposed to an operational 
error? Who judges this?
    Mr. Clark. Normally, they do.
    Mr. Rogers. Who?
    Mr. Clark. FAA within their hierarchy. They will be making 
the determinations if it is a technical violation or a more 
serious one. We pick up on those through word of mouth. We get 
leads, and we do follow up on some of those that are not 
accurately reported. I would assume that if we have not become 
aware of an issue within 12 months, it would have disappeared 
anyway, or we would have never known about it.
    Mr. Rogers. So you have no problem with that aspect of it.
    Mr. Clark. The records? There are two issues there. One is 
if there is an accident or an incident that we are 
investigating, there may have been a prior history that we were 
not aware of that we probably should have been. Even though 
they were technical violations, those still should not be 
occurring. That gives us some insight into a controller's 
skills. Even if it is a technical one that really did not 
create a severe safety issue on that event, it would give us 
insight into that controller's skills. But I think even more 
importantly, it takes the FAA people out of the loop to even 
find it themselves and deal with it.
    Mr. Rogers. When did you write them?
    Ms. Blakey. It was right about the point I got there.
    Mr. Clark. The middle of 2001?
    Ms. Blakey. Yes.
    Mr. Clark. About in the middle of 2001, I think. I lose 
track of time. We can find out.
    Mr. Rogers. Have you heard back from them?
    Mr. Clark. I do not know. They say we have been briefed 
about that, but I do not know what the subject was or what they 
briefed us about.
    Mr. Rogers. The FAA briefed you? What did they say? Do you 
want to come to the table, too?
    Mr. Clark. He is going to have to help me out here.
    Mr. Rogers. Maybe we should just move the microphones back 
in the audience.
    [Laughter.]
    Mr. Haueter. I am Tom Haueter, deputy director, Office of 
Aviation Safety. The FAA came over and briefed us on a new 
system they had of taking a look at operational errors and 
prioritizing them in terms of ones to give the most emphasis 
to. We were concerned still that if we had a controller who 
made numerous technical violations, what would be done to look 
into him, and we were assured at that time that they would take 
a look at them, and if there was somebody who had had repeat 
cases, that they would take action or retraining or 
decertification if necessary.
    Mr. Rogers. What do you think about that?
    Mr. Haueter. Well, once again, as we mentioned, we would 
like to have the records because when an accident happens, we 
will go back and take a look four or five years past history to 
see if the data might be there. If it is disappearing every 12 
months, then we do not have that information at our disposal.
    Mr. Rogers. Well, like the first gentleman said, usually 
after 12 months if it does not come to your attention, then 
there probably was nothing to it to begin with. You are saying, 
yes, there is something.
    Mr. Haueter. If we take a look, and, say, a fellow has had 
numerous technical violations----
    Mr. Rogers. A controller.
    Mr. Haueter [continuing]. A controller, that might be 
something that we would like to know about.
    Mr. Rogers. I see. But they did not buy that.
    Mr. Haueter. No, they did not.
    Mr. Rogers. So where do we stand now?
    Mr. Haueter. Well, I guess we have had several discussions 
and agreed to disagree.
    Mr. Rogers. Was that the main problem you had, was the 
destruction of the records?
    Mr. Haueter. Well, that and also what action would be taken 
in terms of if somebody had an error. As Mr. Clark mentioned, 
if you have two aircraft going head-on that just barely avoid 
each other, maybe through pilot action or something else, that 
is a different situation than two aircraft that are in trail, 
and those have to be looked at with much more scrutiny.
    Mr. Rogers. Will operational errors still continue to rise?
    Mr. Haueter. Yes.
    Mr. Rogers. How come?
    Ms. Blakey. I think we have a couple of problems. Certainly 
the pressures on our infrastructure broadly. Until 9/11 we were 
looking at the problem of increasing delays, all of the issues 
on an overtaxed system, if you will, that were coming into the 
forefront. So that certainly has been a significant 
contributing factor. We also think that there has not been 
adequate use of technology, new technology, that really could 
help this, and there are some straightforward changes that also 
could be made there.
    So we do believe that there are immediate improvements that 
ought to be made in this system, but the issue of why; some of 
it goes to human factors. We probably need to know more about 
that in terms of ATC, but also it goes to the issue, as I say, 
of an infrastructure that is got far more planes and vehicles 
in it than it was really set up and designed to have.
    Mr. Rogers. Mr. Olver.
    Mr. Olver. Just one very brief thing. You have very well 
explored the deemphasis of the technical violations, but isn't 
it also true that the transportation performance plan, the 
department's performance plan, further deemphasizes by removing 
them from the performance plan, which technical violations had 
been a component in previous times along with that other group 
of things we talked about before that had been removed from the 
performance plan?
    Ms. Blakey. We need to take a good look at the performance 
plan. That is clear to me from today's discussion. We are aware 
of it. We know that they have submitted a new one, but in point 
of fact, what effect that will actually have, I do not know, 
and I think maybe we need to take a good look at that. I was 
not aware of the fact that specifically on the issue of 
operational errors that they had degraded the importance, if 
you will, of that in the plan, and we need to look at that. We 
probably need to go back on this issue.
    One of the things that is something that I feel very 
strongly about is when we have issues on the table, when we 
have recommendations on the table, we need to keep up a very 
loud drum beat, and that means constant pressure of, frankly, 
being a nag on a lot of this, but we have got to do it.
    Mr. Olver. Thank you.
    [The information follows:]
    Mr. Rogers. Thank you very much for your testimony, you and 
your colleagues. I hope that your throat is surviving all of 
this. We appreciate your being here in spite of the fact that 
you had laryngitis, I think, as late as last evening and 
perhaps some this morning. We appreciate that. Thank you very 
much, and let us stay in touch.
    Ms. Blakey. And thank you for putting up with us in a 
transition period, too. You have been very patient, and we 
appreciate it. Thank you.
    Mr. Rogers. Thank you.

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




 
                           W I T N E S S E S

                              ----------                              
                                                                   Page
Blakey, M. C.....................................................   429
Garvey, J. F.....................................................     1
Mead, K. M.......................................................     1

 
                               I N D E X

                              ----------                              

                    FEDERAL AVIATION ADMINISTRATION

                                                                   Page
A More Business-Like Approach....................................    14
Accident Statistics..............................................   221
Actions to Reduce Delays.........................................    37
Advanced Surveillance Radar (ASR-11).............................    58
Advisory Committees..............................................    57
AFSCME Contract..................................................28, 38
Air Traffic:
    Air Traffic Controller Retirements...........................31, 50
    Air Traffic Controller Salaries..............................30, 31
    Air Traffic Controller Time Sheets..........................24, 411
    Air Traffic Controller Training..............................    25
    Air Traffic Delays...........................................    37
    Air Traffic Strategic Operations Plan........................    27
Airport and Airway Trust Fund....................................    66
Airport Improvement Program............................18, 35, 368, 392
    Use of AIP for Security........................19, 34, 61, 162, 163
Airports:
    Airport Concessions..........................................    51
    Airport Improvement Program.............................18, 35, 368
    Airport Reimbursement of Security Costs......................35, 36
    Airport Security.............................................    49
Airspace Redesign................................................   352
AMASS Commissionings.............................................   151
Annual Leave.....................................................   112
Annualization of FY 2002 Staff...................................   329
Assessments by OST...............................................    93
Average FTE Costs for Controllers................................   164
Average Full-Time Equivalent Costs...............................   164
Aviation Inspection Program................................18, 391, 400
Aviation Insurance Revolving Fund................................   366
Aviation Trust Fund Revenues.....................................18, 62
    Decline in Revenues..........................................    33
Base Program Reductions..........................................   277
Baselines--F&E...................................................   301
Budget Neutrality................................................    48
Budget Requests to OST and OMB...................................   269
Certification of Aircraft and Airmen for the Operation of Light-
  Sport Aircraft.................................................   378
Chief Operating Officer--Air Traffic Control.....................   351
Civil Aviation Security..........................................   360
Closing Remarks..................................................    63
Commercial Space Transportation..................................   238
Commissioned Facilities..........................................   148
Commissionings:
    AMASS........................................................   151
Consolidated of Flight Service Stations..........................   329
Contract Maintenance Support Contracts...........................   136
Contract Tower Cost-Sharing Program..............................   268
Contract Tower Program:
    Contract Tower Program.................................26, 258, 396
    Contract Towers..............................................   344
    Report to Congress...........................................   262
Contract Towers..................................................   344
Contracting Out (A-76) Studies...................................   140
Controller:
    Average FTE Costs............................................   164
    Attrition....................................................   132
    Incentive Pay................................................   104
    Staffing..............................................115, 330, 331
    Time Sheets..................................................24, 25
    Training....................................................25, 146
    Controller-In-Charge..............................18, 118, 135, 142
Core Compensation................................................   162
Cost Accounting System...........................................23, 64
Cost Control............................................19, 21, 22, 423
    Airline Ticket Fees..........................................    21
    Cost Control Measures........................................    22
Cost Reimbursable Contracts................................20, 394, 409
Deport Spare Funding Requests....................................   136
Digital Glue Technology..........................................    51
Drug/Alcohol Program.............................................   357
Emerson, Representative Jo Ann:
    Questions for the Record.....................................   377
    Remarks......................................................    35
Employee Surveys.................................................    54
English Language Proficiency.....................................   248
Ensuring Performance.............................................    53
Executive Bonus Awards...........................................   202
Executive Compensation System....................................   200
Executive Positions Unfilled.....................................   204
Explosive Detection Systems......................................34, 60
FAA Dissemination of Flight Information Over the Internet........   376
FAA Management...................................................     5
FAA Priorities...................................................     3
Facilities and Equipment (F&E).................................272, 368
    Baselines....................................................   301
    New Programs.................................................   274
    Obligations and Unobligated Balance..........................   324
    Outlays......................................................   323
Federal Employee Compensation Act (FECA).........................   327
Field Maintenance--Other Object Costs............................   140
Modernization Programs--Five Most Important......................   272
Flight Service Stations.........................................21, 422
Forecasts and Statistics of Industry Activities..................   210
FY 2003 Funding for WAAS.........................................    59
FY 2003 Pay Raise................................................   325
General Aviation Ban at Reagan National Airport..................    32
GSA Rent.........................................................   167
Health Benefits..................................................   165
Health Care Cost Accrual.........................................   328
Human Resource Management......................................157, 361
Identification for Pilots........................................   374
Trust Fund Revenues--Impact of Reduced...........................    33
Security Costs--Increased........................................    27
International Aviation Safety....................................    64
Introduction of Witnesses........................................     2
Kilpatrick, Representative Carolyn C. Remarks....................    49
Leasing..........................................................   274
Safety Record--Maintaining Our...................................     8
Maintenance Staffing...........................................136, 333
Major Acquisitions...............................................    55
Management Accountability........................................    55
Memoranda of Understanding with NATCA............................   237
MOUs Granting Credit Hours.......................................   351
NAS Handoff......................................................   335
NATCA:
    Memoranda of Understanding with NATCA........................   237
    MOUs Granting Credit Hours...................................   351
    NATCA Contract..........................................21, 29, 421
    National Air Traffic Controllers Association (NATCA) 
      Representation.............................................   236
National Parks Overflight Plans..................................   349
New Program--Facilities and Equipment............................   274
Obligation Plan Versus Actual--Fiscal Year 2001--Operations......   183
Obligations and Unobligational Balance--F&E......................   324
Office of Commercial Space Transportation........................   238
Office of Financial Services.....................................   153
Office of Policy, Planning, and International Aviation...........   240
Office of Public Affairs Positions...............................   269
Office of System Safety..........................................   255
    Accomplishments..............................................   256
Office of the Administrator and Deputy Administrator.............   251
Olver, Representative John W. Remarks............................    34
Onboard Staffing by Office.......................................    90
Opening Remarks:
    FAA Administrator............................................     3
    Inspector General............................................    17
    Rogers, Chairman, Harold D...................................     1
    Sabo, Representative Martin Olav.............................     2
Operational Errors.....................................17, 52, 226, 399
Operational Evolution Plan.......................................4, 347
Operations Appropriations........................................21, 64
Other Services...................................................    96
Outlays--F&E.....................................................   323
Oversees Personnel...............................................    73
Passenger Security...............................................    32
Pastor, Representative Ed Remarks................................    37
Performance Based Organization (PBO).......................20, 394, 411
Performance Plan Goals...........................................   202
Personnel Oversees...............................................    73
Policy Studies...................................................   249
Positions:
    Executive Level..............................................   189
    Executive Unfilled...........................................   204
    Human Resource Management....................................   157
    Office of Commercial Space Transportation....................   238
    Office of Financial Services.................................   153
    Office of Public Affairs.....................................   269
    Office of System Safety......................................   255
    Office of the Administrator..................................   251
    Office of the Deputy Administrator...........................   251
    Staff Offices................................................   364
    Positions and Employment Summary.............................   205
    Positions by Office..........................................   185
    Vacant Positions--Human Resource Management..................   161
Preparing for Growth.............................................    12
Proposed Discontinuation of FAA Certification and Airworthiness 
  Certification..................................................   375
Public Affairs Position..........................................   269
Questions for the Record:
    Callahan, Representative Sonny...............................   386
    Emerson, Representative Jo Ann...............................   377
    Rogers, Chairman Harold D....................................    64
    Sweeney, Representative John E...............................   381
    Tiahrt, Representative Todd..................................   372
Region and Center Operations.....................................   360
Regional Offices.................................................   270
Regulation and Certification.....................................   355
Remarks:
    Emerson, Representative Jo Ann...............................    35
    Kilpatrick, Representative Carolyn C.........................    49
    Olver, Representative John W.................................    34
    Pastor, Representative Ed....................................    37
Report to Congress:
    Federal Aviation Administration Contract Tower (FCT) Program.   262
Research and Acquisition.........................................   360
Research Project:
    Secure Data and Voice Communication..........................    52
Rogers, Chairman Harold D.:
    Opening Remarks..............................................     1
    Questions for the Record.....................................    64
Runway Incursions:
    Runway Incursions...................................4, 17, 390, 397
    Runway Incursions Statistics.................................   225
Safety:
    Maintaining Our Safety Record................................     8
    Safety Programs..............................................     4
    Safety Systems--Top Priorities...............................   273
Secure Data and Voice Communications.............................    52
Security:
    Access Cost..................................................    36
    Challenges...................................................    50
    Increased Costs.............................................27, 392
Sick Leave.......................................................   113
Special Pay......................................................   100
Spring/Summer 2003...............................................   346
Staff Offices....................................................   364
Staffing:
    Controller Staffing...................................115, 330, 331

    Executive Level..............................................   189
    Executive Positions Unfilled.................................   204
    Human Resource Management Positions..........................   157
    Maintenance Staffing.......................................136, 333
    Office of Commercial Space Transportation....................   238
    Office of Financial Services.................................   153
    Office of Policy, Planning, and International Aviation.......   240
    Office of Public Affairs Positions...........................   269
    Office of System Safety......................................   255
    Office of the Administrator and Deputy Administrator.........   251
    Positions by Office..........................................   185
    Staff Offices................................................   364
STARS:
    Standard Terminal Automation Replacement System (STARS).....20, 21,
 56, 372, 373
    STARS Problem Trouble Reports (PTRs).........................    56
Statement of the Honorable Jane F. Garvey, Federal Aviation 
  Administrator..................................................     6
Sunday Premium Pay...............................................   115
Technology to Reduce Delays......................................    38
Tiahrt, Representative Todd Questions for the Record.............   372
Training.........................................................   141
Transit Subsidy Benefit Program..................................   144
Transportation Administrative Service Center (TASC)..............    93
Travel:
    Non-Routine Overseas.........................................   172
    Operations Funded............................................   168
    Travel and Transportation of Things..........................   168
Trust Fund:
    Balances and Aviation Excise Tax Revenues....................    72
    Impact of Reduced Revenues...................................    33
Turbulence Accidents and Incidents...............................   232
Unanticipated DOT Funding Needs..................................    17
Union Workforces.................................................   234
Use of AIP for Security.....................................19, 61, 162
User Fees.................................................162, 163, 366
Wide Area Augmentation System (WAAS).................19, 21, 55, 59, 61
Within Garde Increases...........................................   327
Witnesses:
    Garvey, Jane Administrator of the Federal Aviation 
      Administration.............................................     1
    Mead, Kenneth Inspector General..............................    17
Workers' Compensation:
    Cases and Costs..............................................    86
    Percent Change in Costs......................................    89
    Program Chronological Statistics.............................    89
    Worker's Compensation........................................    86
Workload Indicators..............................................   211
Workload Measures and Industry Trends............................   215

                  National Transportation Safety Board

Aviation:
    Alaska Airlines Flight 587............................441, 444, 450
    Air Traffic Controller/FAA MOU...............................   456
    Emery Worldwide Airlines Public Hearing......................   525
    General Aviation.............................................   518
    International Role...........................................   501
Board Member Travel..............................................   477
Budget Request.................................................432, 464
DOT Performance Goals............................................   435
Emergency Fund...................................................   461
Fatalities.......................................................   514
Financial Management System......................................   472
Hazardous Materials:
    Loading and Unloading........................................   437
    Yucca Mountain...............................................   438
Highway:
    Booster Seats................................................   522
    Cell Phones................................................442, 443
    Drunk Driving................................................   519
    Graduated Driver Licensing...................................   521
    Highway Investigations.......................................   443
    Largo, Maryland Highway Accident.............................   443
Marine:
    Marine Investigations......................................451, 454
    USS Greeneville..............................................   453
Most Wanted....................................................436, 504
National Safety Foundation.......................................   503
Overtime (true)..................................................   495
Reauthorization..................................................   431
Safety Recommendations.........................................438, 512
Security Changes.................................................   495
Staffing.......................................................433, 466
Training.........................................................   493
Training Academy..........................................434, 498, 503
Transportation Security Administration...........................   440
Travel...........................................................   476

                                <greek-d>


</pre></body></html>
